<html>
<title> - PROTECTING CHILDREN FROM VIOLENT AND INDECENT PROGRAMMING</title>
<body><pre>[Senate Hearing 108-1005]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 108-1005

                   PROTECTING CHILDREN FROM VIOLENT 
                        AND INDECENT PROGRAMMING

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                        U.S. GOVERNMENT PUBLISHING OFFICE
20-693 PDF                      WASHINGTON : 2016                        


_______________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857746264637f727b673974787a39">[email&#160;protected]</a>  
     
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 11, 2004................................     1
Statement of Senator Boxer.......................................     2
    Excerpt from GAO, ``Child Pornography Is Readily Accessible 
      over Peer-to-Peer Networks'', June 2003....................    56
Statement of Senator Breaux......................................     5
Statement of Senator Brownback...................................     5
Statement of Senator Burns.......................................     3
Statement of Senator Dorgan......................................    16
Statement of Senator Hollings....................................     6
    Prepared statement...........................................     7
    List of TV and Copycat Behavior cases........................    53
Statement of Senator Lautenberg..................................    10
    Prepared statement...........................................    11
    Article dated February 2, 2004 from the Washington Post  by 
      Tom Shales.................................................    12
    Letter dated April 6, 2004 to all Senators from Gene 
      Kimmelman, Consumer's Union................................    13
Statement of Senator Lott........................................    66
Statement of Senator McCain......................................     1
Statement of Senator Nelson......................................    15
    Prepared statement...........................................    15
Statement of Senator Snowe.......................................     9
Statement of Senator Wyden.......................................    14

                               Witnesses

Abernathy, Hon. Kathleen Q., Commissioner, Federal Communications 
  Commission.....................................................    23
    Prepared statement...........................................    25
Adelstein, Hon. Jonathan S., Commissioner, Federal Communications 
  Commission.....................................................    44
    Prepared statement...........................................    46
Copps, Hon. Michael J., Commissioner, Federal Communications 
  Commission.....................................................    28
    Prepared statement...........................................    30
Graham, Hon. Lindsey O., U.S. Senator from South Carolina........    17
    Prepared statement...........................................    18
Martin, Hon. Kevin J., Commissioner, Federal Communications 
  Commission.....................................................    33
    Prepared statement...........................................    36
Powell, Hon. Michael K., Chairman, Federal Communications 
  Commission.....................................................    19
    Prepared statement...........................................    21

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    79

 
                   PROTECTING CHILDREN FROM VIOLENT 
                        AND INDECENT PROGRAMMING

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. I welcome the Federal 
Communications Commission and Chairman Powell, and I thank them 
for appearing before the Committee today to discuss the 
pervasiveness of violent and indecent programming on broadcast 
television. And I'd like to make it very clear this Committee 
had scheduled this hearing before the Super Bowl aired due to 
Members' concerns about increasingly violent and indecent 
programming.
    By now, there isn't a person in this room who's unfamiliar 
with CBS and the NFL's fumble during the Super Bowl halftime 
show last week, which was viewed by an estimated 140 million 
Americans, including millions of young children. And then, in 
an instant, this issue became the subject of national debate, 
and rightfully so.
    This discussion should remind us that broadcasters have 
been given spectrum for free. As Americans who own that 
spectrum, we have every right to expect something in return. We 
call it the ``public interest.'' We expect broadcasters to make 
the best use of that spectrum by providing news and information 
about our society and political campaigns, children's 
programming, and even entertainment. But what constitutes 
entertainment clearly lies in the eye of the beholder.
    Forty years ago, Jack Paar famously walked off the Tonight 
Show because a network had censored a joke he told involving a, 
``water closet.'' From censoring a water closet joke to airing 
nudity, we've come a long, long way. However, that is exactly 
what makes it so difficult to draw a line between what is and 
what is not appropriate within the boundaries of the First 
Amendment.
    Before the Super Bowl, CBS sister company, MTV, hyped the 
halftime show as one that would provide a, ``shocking moment,'' 
and grab viewers' attention. Well, they've succeeded. They now 
have the attention of the Chairman of the Federal 
Communications Commission and more than several Members of 
Congress. Chairman Powell has called for a thorough and swift 
investigation of the incident. Senators Allen, Brownback, and 
Lindsey Graham have introduced a bill, S. 2056, that would 
increase fines for indecency violations.
    I remind my colleagues that last summer Senator Hollings 
and I introduced our FCC reauthorization bill, S. 1264, that 
would not only raise fines tenfold for broadcasters, but also 
direct the FCC to count each incident--utterance individually 
and encourage license revocation proceedings in certain 
circumstances. The bill was reported out of this Committee 7 
months ago, and it's unfortunate that the Senate leadership has 
not seen fit to bring the bill to the floor for consideration 
and passage. These fines have not been raised since 1989. Now 
is the time, so companies don't continue to accept these fines 
as the cost of doing business.
    I note, finally, the scope of all these bills are limited 
to broadcast television. All these bills, the scope is limited 
to broadcast television. More than 85 percent of Americans now 
receive their television programming from cable and satellite 
television. In fact, for the first time ever, cable's combined 
prime-time viewership recently surpassed that of broadcast.
    Gene Kimmelman, my old friend Gene Kimmelman, of Consumer's 
Union, wrote to Senators this week urging Congress to address 
indecent content on cable and satellite television. Mr. 
Kimmelman calls for Congress to take a new approach to 
offensive content aired over pay television. Quote, ``Instead 
of forcing customers to buy service from tiers of 40, 50, or 75 
channels, which include networks they never watch or channels 
they find offensive, Congress should require cable and 
satellite operators to offer a la carte programming, let people 
pick and pay for only those channels they want in order to save 
consumers money and empower those who are offended by some of 
today's program offerings. Mr. Kimmelman's a la carte 
suggestion sounds familiar to me, and more persuasive than ever 
in providing parents control over their television sets. But I 
suspect we'll hear more about these issues in the weeks to 
come.
    Again, I thank the Commissioners for being here with us 
this morning. I would ask my colleagues if they could make 
their opening comments brief, and then Senate Graham would like 
to make a brief opening comment, and we will move forward.
    Senator Breaux?
    I'm sorry, Senator Boxer was here before Senator Breaux.
    Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman.
    Well, clearly, we were right, in this Committee, in June. I 
thank you and Senator Hollings for being ahead of the curve 
here when we voted to increase fines for obscenity ten times. 
And we were also right to follow Senator Hollings' lead, in 
terms of looking at each offense as a separate one, and also to 
even look at license revocation. I'm glad that you called our 
attention to this issue of Mr. Kimmelman's point that picking 
and paying, I think, is the way you phrased it, seems to make a 
lot of sense when you look at these packages, because you're 
sometimes getting channels that you really are stunned to find.
    I want to quickly just talk about the halftime deal, 
because I was, as most of Americans, or a lot of Americans, 
watching the entire Super Bowl and the halftime. Great family 
day. We were with our family and friends. There were nine kids 
in the house. They were very little kids, and they happened to 
be upstairs watching Shrek, which was fortunate for us.
    What I found, Mr. Chairman, the end of the halftime show 
was shocking, but the whole halftime show was shocking. And, 
for me--I guess because I don't watch MTV, it was shocking. I 
guess for people who watch it, like the youngsters who were--
the young people who were at this home watching with us, they 
said, ``Well, this is what you get all the time on MTV.'' Well, 
I think--let's just say it opened a lot of eyes.
    I think, here, that maybe, as a result of this and the fact 
that hundreds of thousands of people contacted the FCC, it does 
spur us to really enforce the law.
    I want to make one last point, Mr. Chairman, because this 
was an issue that awakened us, but I want to take advantage of 
this moment to talk to the Commissioners here. I want to also 
thank you all for--a lot of you, for speaking out intelligently 
on this, and, also, one of the Commissioners actually went and 
met with the creative community--and I think it was you--and it 
was very important that that be done, because the onus is on 
them. I believe, in our society, they need to take 
responsibility.
    But the last point I want to make to the Commissioners is 
this. As outrageous as this was, it doesn't come close to what 
happens on peer-to-peer networks, the child pornography that 
our kids are seeing when they click onto something that says 
Britney Spears or the Beatles. What is going on in the peer-to-
peer is sickening. And I hope--and I'm going to continue to 
raise this with this Committee. And, as far as I'm concerned, I 
hope you will begin to take immediate action in that area, 
because it's a frightening circumstance what is going on there, 
unsuspecting children getting images that are illegal and could 
scar them for life.
    So, Mr. Chairman, we do have a lot of work to do. Thank you 
for your leadership.
    The Chairman. Thank you.
    Senator Brownback?
    Oh, sorry. Senator Burns? That's twice.
    Senator Burns? Sorry.
    Senator Burns. Who cares?
    [Laughter.]
    The Chairman. Some do.
    [Laughter.]
    Senator Burns. I know.
    [Laughter.]

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I glean more from other people's statements 
than I do from my own, anyway, so maybe I should be moved down 
to come up with an idea.
    Mr. Chairman, thanks for holding this hearing. We were all 
shocked and dismayed at the--and disappointed by the 
inappropriate stunt that happened at the Super Bowl, and those 
responsible should be severely punished for such a--it was just 
a vulgar, tasteless act.
    That said, in my opinion this sort of high profile, well-
publicized incident could prompt Congress to go too far in this 
situation on what we think--levy fines and this type thing. I 
think we have to approach it--kind of, be guided with some 
principles here, also.
    When I saw on the marquee that the halftime show was 
``compliments of MTV,'' I didn't even see it. I immediately 
flipped over and watched the poker tournament from Las Vegas. 
What would CBS or the NFL expect, if you've ever watched MTV? I 
said, way back in 1990 and 1991, that if there ought to be a 
pay channel, it should be MTV. And I still say that today. And 
it has gotten worse. And I didn't think it could get any worse, 
but it has. I'm just being very outspoken about this. I just 
think it's inappropriate, and does not portray the average 
community across America.
    You know, in my opinion, private industry should be held 
accountable for their programming standards, and I think they 
should reflect more about the values of American communities. 
This has been a widespread move to increase finds of indecency. 
And, of course, somebody define that, and I'll put in with 
them. But I'm concerned at the potential unintended effects 
such moves could make if fines are increased. Individual 
affiliates should not be punished for simply broadcasting 
content of which they have no control. We have to look at that. 
But it would look like, if they would look into the community 
of arts, or whatever you want to call it, or imagination, or 
whatever, and would have a history, and just wouldn't program 
such stuff--in the case of the Super Bowl incident, for 
example, many affiliates were furious that their viewership was 
exposed to such a spectacle. Ultimately, however, no matter 
what the penalties are or how strictly or regularly they are 
levied, the media is going to need to demonstrate some 
responsibility on its own.
    So I think, you know, as we look at this--and I think 
everybody was shocked--is fines the right direction? I don't 
know. I think that--in the court of public opinion, that the 
image of those involved and the companies involved and the 
organization that was involved has been tarnished, and they may 
suffer greater fines there than we could levy from a 
governmental organization. And you can make a case--if you were 
an attorney, you could probably make a case both ways. So our 
approach on this--we should, you know, approach it responsibly. 
I'm not--I think what the Chairman of this Committee and the 
Ranking Member introduced and passed out of this Committee, I 
think, is probably a pretty good start in that direction. But I 
also fear overreaction, too.
    And so thank you, Mr. Chairman, for holding this hearing 
and at least giving some of us an opportunity to vent our 
disapproval of what happened at the Super Bowl this year. And 
thank you.
    The Chairman. Thank you, sir. And, again, I request my 
colleagues abbreviate their opening statements because Senator 
Graham has to leave and we have our five Commissioners waiting.
    Senator Breaux?

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Mr. Chairman. And thank the 
Commissioners for being with us.
    I watched the Super Bowl, as most Americans did, and I 
thought that whoever--at least in my opinion, whoever booked 
the halftime show probably should be fired, if nothing else 
because of the marketing--target audience that was in the 
stadium, certainly people pretty much my age or maybe in that 
neighborhood, who could afford a $2,000 ticket.
    Senator Burns. That old?
    Senator Breaux. Most of those people had no idea who Kid 
Rock was or P. Diddy was or Justin Timberlake was, and could 
care less. So I really think that they really missed the 
audience completely. That show would have been something that 
you could expect at a rock concert, perhaps, but certainly not 
in the audience that was watching the Super Bowl. So, number 
one, I think they missed their audience, really, completely.
    The other issue of the content is something that I think 
deserves our attention in the overall perspective. Seeing Janet 
Jackson's breast for 2 seconds pales in comparison to some of 
the things that we see on television on a regular basis. If you 
look at some of the reality shows where you dump people in a 
tub of worms and ask them to eat cockroaches, or you get people 
to jump off tall buildings in very dangerous physical 
situations, which young people tend to copy and injure 
themselves, when you look at other things that are on cable, 
whether it's the programs--the new ``L'' word show times--
lesbian-themed shows, Queer As Folk, MTV, Sex in the City--all 
of that is an explosion of things that we should be concerned 
about.
    It seems interesting that we say, well, if it's on the 
broadcast network, we're going to look at the most detailed of 
violations of the decency standards, but if it's on just a 
higher channel number, which you can get just by clicking your 
channel-changer, well, we're not--we're going to ignore it and 
not pay any attention to it. Well, that's because it's on 
cable. Well, I think the distinction between cable and the 
broadcast--like I think the Chairman started to say and move in 
that direction, is something we look at--ought to look at the 
whole spectrum of what we get over our televisions.
    It's very disturbing that we thought we had this problem 
somewhat solved with the V-chips. Less than 7 percent of 
families use V-chips. Parents should be the ultimate sensors of 
what their children watch; but, unfortunately, that is not 
being done.
    So I thank you for the opportunity for this hearing.
    The Chairman. Thank you.
    Senator Brownback?

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman, for holding 
this. By my quick count, memorywise, I think this is about our 
twelfth hearing on this topic. You've been on it, faithful to 
point out and deal with these issues for a long period of time. 
I've been meeting with the creative community basically since 
I've been in the Senate to urge them to address these issues of 
vulgarity, sexual material, violent material. By my count, we 
have over 2,000 studies and reports--over 2,000 studies and 
reports--on the effect of violent entertainment on children, 
virtually all of them bad. They're saying that you watch a lot 
of violent material, your child's going to be more violent.
    We're now into these brain-mapping studies, where people do 
MRIs while children watch violent entertainment, and see that 
the brain, where it's firing, shows that--early on, that the 
cognitive part, the thinking part of the brain is being 
depressed and slowed down the more of this material that they 
watch, so that they just react.
    Mr. Chairman, I think the--this is a good hearing. I'm 
delighted we're having it. It's time to act on this. It's not 
as if this is something new to any of us, or that this is 
something that just suddenly has come on the TV screen because 
of Janet Jackson. This has been out there for a long period of 
time. And I have two suggestions. I'm on Senator Graham's bill, 
that we increase, by tenfold, the fines, because I think maybe 
that'll send a signal. It's time to act and it's time to move 
this.
    The other thing that we did get the creative community's 
attention on was the FTC study that we did on their target 
marketing of violent material to children. And we showed there 
that they were actually doing sample groups of studying 9 to 
12-year-old children, taking violent R-rated material and 
saying, ``What will attract them,'' and they were doing focus 
groups. And we started to get them to turn a little bit, saying 
if you're going to rate it as violent material, then don't 
target-market it to the very group that you've rated and say 
it's not appropriate for.
    Well, I think we need to do the same thing with the FTC 
with sexual material, then. If they're going to say it's not 
appropriate material for an under age 18 audience, then why are 
you target-marketing it to that under age 18 audience?
    We had MTV go on halftime in the Super Bowl. Everybody up 
here is saying, well, this is what's been on MTV. Well, who 
watches MTV? Who is this target-marketed to? Well, I think we 
need to have the FTC do something, again, similarly, and find 
out, are these organizations target-marketing this to kids of 
inappropriate material? And if so, let's get a stop to it.
    But we have this toxic entertainment media environment now 
in this country where you just can't afford to let your child 
freely watch the television, for violent or sexual material. 
And this is hurting us, and it's--I'm glad we're holding the 
hearing, but it is time to act. We've got to move this on 
forward.
    I congratulate the Chairman for looking into this, but it's 
time to move, and we need to do it now.
    Thank you.
    The Chairman. Thank you, sir.
    Senator Hollings?

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Well, I thank you, Mr. Chairman, very 
much for the hearing.
    Let me, in the first instance, commend our colleague from 
Kansas. I finally found someone else on the other side of the 
aisle now that's just as exercised about violence as I am. This 
thing has been going on for years.
    First, let me ask that the distinguished Senator from West 
Virginia, Senator Rockefeller's, statement be included----
    The Chairman. Without objection.
    Senator Hollings.--and mine, in its entirety.
    The Chairman. Without objection.
    Senator Hollings. And let me try to shorten, or cut it 
short as much as I possibly can.
    [The prepared statement of Senator Hollings follow:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Thank You, Mr. Chairman. I want to thank Senator McCain for his 
leadership in calling this hearing to consider the harmful effects that 
a barrage of indecent and violent programming is having on our Nation's 
youth. Despite the explosion of attention in recent days occasioned by 
the now infamous ``wardrobe malfunction'' during this year's Super Bowl 
halftime show, this committee has, for some time, expressed growing 
concern regarding the rapid decline in standards for radio and 
television programming. Already in the 108th Congress, this committee 
has reviewed recent research documenting the harmful effects of media 
violence on child-viewers. In addition, we have reported out 
legislation as part of S. 1264, the FCC Reauthorization Bill, that 
would increase maximum fines for indecent broadcasts by a factor of 10 
and would provide the FCC with additional enforcement tools to stop 
indecent broadcasts.
    Today's hearing, however, is fundamentally about accountability and 
responsibility. In the first instance, the accountability and 
responsibility we require from those licensees entrusted with public 
resources--through grants of government spectrum and public right of 
ways--to deliver radio and television programming to America's 
children. In the second instance, the accountability and responsibility 
we demand of regulators to vigorously enforce our laws prohibiting the 
utterance of ``any obscene, indecent, or profane language by means of 
radio communication.'' Unfortunately, in this Senator's opinion, we are 
falling short of the mark in both cases.
    Despite over 50 years of inquiries and an overwhelming amount of 
evidence demonstrating the link between media violence and aggressive 
behavior in children, Congress continues to battle an industry, at 
best, in denial, and at worst indifferent. Because money talks and 
violence sells, violent acts in prime time have become more frequent 
and more graphic. According to a recent report by the Parent Television 
Council entitled TV Bloodbath: Violence on Prime Time Broadcast TV, 
depictions of violence in prime time increased on the six major 
broadcast networks by 41 percent during the 8 p.m. hour and by 134.4 
percent during the 9 p.m. hour between 1998 and 2002.
    Additionally, our continuing efforts to assist parents by requiring 
blocking technologies like the V-Chip have largely been ineffective. 
According to a 2001 Kaiser Foundation Survey, while 40 percent of 
parents had TVs equipped with this technology, only 7 percent used the 
V-Chip to block programs. In light of this failure, it is time that the 
Committee get serious about protecting children from violent 
programming by adopting safe harbor legislation (S. 161). This 
legislation that I have again introduced with Senators Inouye, Dorgan, 
and Hutchinson has widespread support and has been reported out of 
Committee multiple times--most recently by a vote of 17 to 1.
    But in addition to legislating new protections, we must ensure that 
our rules prohibiting the broadcast of indecent material on radio and 
television are vigorously enforced to deter wrongful conduct. As 
consolidated media companies grow ever larger, the ability of the FCC 
promote responsible conduct may be diminishing. In other words, when 
radio behemoths like Clear Channel and Infinity Broadcasting have 
annual revenues of $3.4 and $2.1 billion, respectively, or when CBS 
sells Super Bowl commercials for $2.3 million for each 30 second spot, 
how much deterrence will the statutory maximum fine of $27,500 buy?
    In light of this fact, I support the efforts of the Committee to 
increase maximum fines and to add other tools to the FCC's arsenal in 
combating indecent programming. It is my hope that these provisions 
will soon be enacted into law. But even a bigger hammer will have 
little effect, if the Commission is reluctant to swing it. As a result, 
it is my hope that the FCC's new-found fervor in getting serious about 
cleaning up the public airwaves will maintain its intensity and put 
radio and television stations on notice that the days of ``anything 
goes'' are over.
    I thank the Chair, and look forward to the testimony of the 
witnesses.

    Senator Hollings. Right to the point, last night, Mr. 
Chairman, this Committee got a correspondence, a copy of a 
letter from the Chairman of the Federal Communications 
Commission, the Honorable Michael Powell to Leslie Moonves of 
the CBS, and in that letter, what he asked for, and I read, 
``To that end, I challenge the broadcast community to reinstate 
a voluntary code of conduct.'' There's nothing about the 
responsibility of the broadcast media to get to be voluntary. 
Indecency is not a voluntary proposition.
    It started in the original, Mr. Chairman, Act of 1927; 
restated again in the 1934 Federal Communications Act; then 
codified in the Criminal Code in 1948, in Section 1464; and, 
finally, in the decision of Pacifica versus FCC--or FCC, 
rather, versus Pacifica, in 1978, the Supreme Court of the 
United States found the responsibility constitutional in the 
FCC. And now here we're going to all of a sudden start off with 
this ``voluntary code.''
    I have toyed with that ``voluntary code'' on the most 
extreme of all indecency, namely violence, Senator. And after 
10 years of that--we've been on this thing for 20 years--this 
Committee has reported out three bills, almost unanimously. The 
last one was 17 to 1. And after that, they then got the cable 
boys, in addition to trying to get all that voluntary--my 
friend, Jack Valenti used to always come up and--``We're going 
to be voluntary. We're going to be voluntary.'' I hope we can 
get his act one more time, because it's worthwhile.
    [Laughter.]
    The Chairman. We will.
    Senator Hollings. Yes, thank you very much, Mr. Chairman.
    But then the national TV spent--cable industry, rather--
spent three and a half million, and they put their National 
Parent Teacher Association head and the head of the National 
Education Association on the Council, but then they packed the 
court with the American Federation of Television and Radio 
Artists, the Producers Guild of America, the Writers Guild of 
America, the Caucus for Producers, Writers, and Directors, and 
Gene Reynolds of the Directors Guild of America. And to the 
surprise, Senator, of everyone--and I won't read them all, but 
just three--they made a finding. It threw them in shock, 
because they had spent the money to really dissemble and begin 
again, or put off for this particular Committee.
    They found, one, nearly two out of three TV programs 
contain some violence, averaging about six violent acts per 
hour. Two, violence was found to be more prevalent in 
children's programming, 69 percent, than in any other types of 
programming, 57 percent. And the average child, who watches 2 
hours of cartoons a day, may see nearly 10,000 violent 
incidents each year. And on and on.
    I just ask, Mr. Chairman--we've got a record. It starts 
with 1949, in Man Against Crime. I'm reading from ``The History 
of Broadcasting,'' and this is what, in 1949, the writers 
directed the--instructions went out to the writers, and I 
quote, ``It has been found that we retain audience interest 
best when our story is concerned with murder. Therefore, 
although other crimes may be introduced, somebody must be 
murdered; preferably early, with the threat of more violence to 
come''----
    [Laughter.]
    Senator Hollings.--end quote. Now, that's not Hollings, 
that's ``The History of Broadcasting,'' and everybody knows it 
pays. We in the Committee know it's paid. And every time we get 
the bill out on the floor--and that's why I'm so happy to see 
the leadership of Senator Brownback; otherwise, they put me 
off. I put it on another--``Oh, I'm with you, but I had to vote 
against it because it wasn't germane or it just hurt the 
passage of the other bill and everything else of that kind.''
    So this has been going on for 20 years, and I hope we can 
bring it to a head this year and pass it, Mr. Chairman, under 
your leadership, and Senator Brownback.
    And let me welcome my colleague from South Carolina, 
Senator Graham. We're glad to have him.
    The Chairman. Thank you, sir.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. And very briefly. 
First of all, I want to thank you for holding this hearing and 
your persistent leadership on this issue throughout the years 
as Chairman of this Committee, and Senator Hollings, as well, 
and the Senator from Kansas and Senator Graham, for all their 
efforts on this issue.
    I think it's undeniable that television is a major force in 
our daily lives. And with the influence of television, wields 
obviously certain responsibilities, particularly when it comes 
to certain members of our society, and that's obviously 
children. And that's what brings us to this point here today, 
is what children are exposed to on television.
    Now, obviously, the picture coming across on television is 
one that's saturated with violence and indecent programming. 
According to a recent study--and it buttresses what Senator 
Hollings just mentioned--by the Parents Television Council, the 
average child spends 25 hours per week watching television. 
This is more time devoted than attending school, playing 
sports, and virtually any other activity other than sleeping.
    And what have these children been watching? The study 
estimated that the average child, upon reaching 18, has 
witnessed 40,000 murders and 200,000 other acts of violence on 
TV. More disturbingly, TV programming has become more violent, 
and these are obviously disturbing and troubling trends.
    Over the past 5 years, violent broadcasts have increased at 
every single time slot, and has increased by upwards of 41 
percent during the traditional family between 8 o'clock and 9 
o'clock. Commenting on that report from a paper in Maine, they 
noted that during the two week sweeps period in November 1998, 
there were 292 violent incidents on primetime TV. During that 
same sweeps period in 2002, the number of violent scenes on 
television between 8 and 11 o'clock had increased to 534. I 
think that that is a broad illustration of the types of trends 
that continue to evolve over time that are moving in the wrong 
direction.
    Finally, on indecent broadcasting, as everybody has 
indicated here, it was certainly well in evidence by the 
infamous halftime show at the Super Bowl. But I think, as the 
Commissioners know well, that millions and millions of 
Americans were watching that program at that point in time are 
calling for action as a result of these events. The FCC alone 
has received more than 240,000 complaints in 2003 regarding 
indecent and violent TV programs. And just because the CBS 
Super Bowl broadcast--that alone has generated more than 
200,000 in complaints already.
    So obviously people are demanding the type of action that 
is being called for by Members of this Committee and by the 
Commission and the leadership of the Commission. I know that, 
under Chairman Powell, record fines have been given. In the 
past 14 months, they've handed down fines of more than a 
million dollars. But perhaps we have to do more. It's a very 
delicate situation in navigating between the interests of the 
First Amendment and, obviously, protecting children from 
harmful programming. That's the balance that we obviously have 
to strike, and I'm looking forward to the testimony from the 
Commission in terms of what are the regulatory procedures, 
whether or not enhancing penalties will be sufficient to deter 
this type of programming, and, in particular, at a time in 
which the children are watching television.
    And, finally, one other issue. One local affiliate wrote to 
me recently stating the pressures on local affiliates to 
preempt programming that violates their community standards. 
And he said to me, the right to reject or preempt unsuitable 
programming has eroded over time. It has eroded because 
networks have deployed their greater bargaining power with 
their affiliates to require affiliates to relinquish these 
rights by contract.
    Again, in light of the media consolidation and the 
prevalence of direct ownership affiliates by their parent 
networks, how are local broadcast stations supposed to enforce 
their local community standards? Again, this is another 
dimension of the problem that, again, I think has an impact on 
the type of programming that young people are witnessing and 
watching today.
    Thank you, Mr. Chairman.
    The Chairman. I'll tell my colleagues we've been in session 
now for a half an hour. We have four more Senators. I do not 
want to cutoff any Senator, but I will exercise the 
prerogatives of the Chair, because we have Senator Graham and 
we have the Commissioners here. Please abbreviate your opening 
statements.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman. I'll be brief, 
and would ask that my full statement be included in the record.
    The Chairman. Without objection. I thank you, Senator 
Lautenberg.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman:

    Let me start by apologizing for my appearance--I had a ``wardrobe 
malfunction'' this morning.
    In all seriousness, I understand that today's hearing was scheduled 
before Super Bowl 38 but that putrid broadcast certainly highlighted 
the need for this investigation of television and radio programming and 
its effects on children.
    During the Super Bowl, we were bombarded with ads featuring 
flatulent horses, crotch-biting dogs, and a monkey making sexual 
advances to a woman.
    During halftime, saw Justin Timberlake ripping off Janet Jackson's 
clothes while he sang lyrics such as: ``I'll have you naked by the end 
of this song.''
    I'm not a prude, but I am a grandfather of ten. And what I saw was 
deeply offensive.
    CBS officials ``apologized'' for Janet Jackson's bared breast, 
saying ``the moment did not conform to CBS broadcast standards.'' What 
a joke!
    Isn't it interesting that CBS and MTV Networks, which produced the 
halftime debacle, are both owned by Viacom?
    And isn't it interesting that Viacom is one of two media giants 
that benefited from the provision slipped into the Fiscal Year 2004 
Omnibus appropriations bill at the insistence of the White House to 
lift media ownership limits?
    And isn't it interesting that CBS refused to air MoveOn.org's ad, 
``Child's Pay''? That ad has one line suggesting that our children and 
grandchildren will have to pay off the enormous public debt that 
President Bush's economic and fiscal policies have created--which 
happens to be true. The ad wasn't pornographic. It wasn't vulgar. It 
wasn't tasteless. I guess that's why it ``didn't conform to CBS 
broadcast standards.''
    How does all of this relate to TV and radio programming and 
children? I'll tell you how. Lifting the ownership limits for companies 
like Viacom and Fox and Clear Channel and lnfiniti will make them less 
accountable to the public and to the FCC.
    Any fines the FCC might impose on these giants will be like pin 
pricks on an elephant's hide.
    We need to remember that the airwaves constitute a public asset to 
be managed in the public interest. That's not happening anymore, and 
it's not just our children who are suffering. It's our entire society.
    Mr. Chairman, I ask unanimous consent that a column about the Super 
Bowl in the February 2 Washington Post by TV critic Tom Shales and a 
February 4 letter to all Senators from Gene Kimmelman and the Consumers 
Union appear in the hearing record following my remarks.
    Thank you, Mr. Chairman.

    Senator Lautenberg. It's my understanding, Mr. Chairman, 
that today's hearing was scheduled before Super Bowl 38, but 
that putrid broadcast certainly highlighted the need for this 
investigation of television and radio programming and its 
effects on kids.
    During this supermarket: that's what it is, supermarket of 
filth--during the Super Bowl, we were bombarded with ads 
featuring flatulent horses, crotch-biting dogs, a monkey making 
sexual advances to a woman, and, during halftime, we saw Justin 
Timberland rip off Janet Jackson's clothes while he sang lyrics 
that said, ``I'll have you naked by the end of this song.'' 
This was no freak accident. And the lame excuse that they used, 
that something was wrong with their wardrobe, just doesn't go.
    I'm a grandfather of ten children, the oldest of whom is 
ten, and I don't want those children to think that this is 
standard behavior or acceptable conduct. CBS apologized for 
Janet Jackson's bare breast, saying that ``the moment did not 
conform to CBS broadcast standards.'' And that's a joke, 
because I fear that their standards are something even worse 
than that which we saw.
    It's interesting that CBS and MTV networks, which produced 
the halftime debacle, are owned by Viacom. And isn't it 
interesting that Viacom is one of the two media giants that 
benefited from the provisions slipped into the Fiscal Year 2004 
omnibus appropriations bill, at the insistence of the White 
House, to lift media-ownership limits? And it's interesting, 
further, that CBS refused to air MoveOn.org's ad, ``Child's 
Pay.'' Now, that ad had one line suggesting that our children 
and grandchildren will have to pay off the enormous public debt 
that's accumulating and challenged the current economic and 
fiscal policies that have created this debt, which happens to 
be true. The ad wasn't pornographic, it wasn't vulgar, it 
wasn't tasteless, and I guess that's why it didn't conform to 
CBS broadcast standards.
    How does all of this relate to TV and programming and the 
children? And, Mr. Chairman, I think rather than just express 
our indignation here, we have to connect it to something that 
we're doing here or something that we want to do. Well, it 
relates to TV and programming and children by lifting the 
ownership limits for companies like Viacom and FOX and Clear 
Channel and Infinity, it'll make them less accountable to the 
public and to the FCC, and any fines that the FCC might impose 
on these giants will be like pinpricks on an elephant's hide.
    We've got to remember that the airwaves constitute a public 
asset, to be managed in the public interest. And that's not 
happening anymore. It's not just our children who are 
suffering. It's our entire society.
    So, Mr. Chairman, I ask unanimous consent that a column 
about the Super Bowl in the February 2 Washington Post, by TV 
critic, Tom Shales, and a February 4 letter to all Senators 
from Gene Kimmelman and the Consumer's Union appear in the 
hearing as if read.
    The Chairman. Without objection.
    [The newspaper article and letter referred to follow:]

              The Washington Post--February 2, 2004 Monday

                              Incomplete!

                           BYLINE: Tom Shales

    Viewers who tuned in expecting a big-time football game saw the 
Super Bowl of Sleaze instead. Sexy and violent commercials that 
included jokes about flatulence and bestiality mercilessly interrupted 
the CBS telecast of Super Bowl XXXVIII from Houston last night, making 
it a dubious choice for family viewing.
    But it was the unexpected climax of the MTV-produced halftime show 
that shocked viewers and set the CBS switchboard ablaze. As a musical 
number ended, out popped one of Janet Jackson's breasts. Fellow 
performer Justin Timberlake clearly exposed it to the crowd in Reliant 
Stadium and to the audience of millions watching at home by reaching 
over and yanking off part of her costume.
    Jackson, her nipple covered by a piece of costume jewelry, has not 
been shy about revealing herself in public appearances and magazine 
photographs, but bare breasts are not commonly considered acceptable 
fare on broadcast network television, especially early in the evening 
during what used to be called the ``family hour.'' CBS rushed out an 
apology, but there were reports that MTV had hinted during its 
afternoon programming that Jackson's appearance would be one for the 
record books. MTV and CBS are both owned by media conglomerate Viacom.
    ``CBS deeply regrets the incident that occurred during the Super 
Bowl halftime show,'' the statement said. ``We attended all rehearsals 
throughout the week and there was no indication that any such thing 
would happen. The moment did not conform to CBS broadcast standards, 
and we would like to apologize to anyone who was offended.''
    A trio of witless commentators failed to make reference to the 
Jackson incident, but when the second half of the game was delayed by 
someone dancing around nearly naked on the field, the announcers joked 
in the booth about the ``raw, naked football'' certain to be just 
ahead. CBS cameras that had earlier shown Jackson's exposed breast 
avoided the streaker, and the director clung instead to a static shot 
of a man at the game. The incident wasn't fully explained to viewers, 
but finally an announcer said, ``Well, the midfield disturbance has 
been dispensed with,'' apparently by a squad of security personnel.
    An exciting game--by Super Bowl standards--between the New England 
Patriots and the Carolina Panthers was upstaged not only by its 
halftime show but also by the ``edgy'' and often crude humor of the 
commercials. Over the years--partly because of the huge expense 
involved--Super Bowl commercials have become widely ballyhooed events 
in themselves, and this year some sponsors, paying up to $2.9 million 
for a 30-second spot, went the smut route in order to stand out in the 
crowd.
    Early in the evening, a supposedly hilarious beer commercial 
featured a dog that was trained to bite men in the crotch and hold on. 
The man being bitten moaned and grimaced in pain and finally 
surrendered his can of Bud Light.
    As it happened, Bud Light set the standards for tastelessness and 
self-congratulatory humor. A later commercial, stealing a joke from a 
classic episode of the sitcom ``Seinfeld,'' involved a flatulent horse. 
The animal, tied to a carriage, emitted an outburst from beneath its 
tail that caused a candle to burst into flame and burn the hair of the 
woman holding it. A loud sound effect made it clear that the horse was 
suffering digestive distress.
    Many of the other Super Bowl commercials seemed conspicuously 
inappropriate for an event that is a national rite and the kind of rare 
TV attraction that brings families together in front of the set. CBS 
chose to air a spot advertising the upcoming horror movie ``Van 
Helsing'' even though it contained extremely disturbing and graphic 
images of brutality and gore and despite the fact that it has yet to be 
rated by the Motion Picture Association of America. If the film were 
eventually to be rated NC-17, it would be contrary to network policy to 
carry any commercials for it.
    Based on excerpts shown, ``Van Helsing'' will earn an R, or 
Restricted, rating, meaning the film is considered suitable for those 
under 17 only if they are accompanied by a parent or other adult. The 
ad was wall-to-wall with monsters baring fangs and implied horrific 
violence.
    The negative vibes given off by so many off-color or violent 
commercials put a soggy cloud over what was supposed to be an evening 
of wholesome fun. Some of the spots were funny; Jessica Simpson and the 
Muppets had a high time in their commercial for Pizza Hut, and Homer 
Simpson starred in a funny spot.
    But the ghastly output from Bud Light included a commercial in 
which a chimpanzee talked to a beautiful girl as they sat together on a 
couch while she waited for her date to return from the kitchen. The 
monkey made a pass at the girl and asked, ``So, how do you feel about 
back hair?'' There was also an excess of commercials for drugs designed 
to help men suffering from erectile dysfunction.
    Maybe the Super Bowl will have to move from the broadcast networks 
to the Playboy Channel if its commercials are going to be so dirty that 
they embarrass parents watching with their kids.
                                 ______
                                 
                                            Consumers Union
                                      Washington, DC, April 6, 2004

    Dear Senator:

    As the Senate prepares to take up S. 2056, the Broadcast Decency 
Enforcement Act, we urge you to preserve the important media ownership 
and TV violence provisions in the bill as part of an overall solution 
to stemming the increase of indecency, obscenity and violence in 
broadcast programming. In addition, we ask you to consider a new 
approach to addressing inappropriate content on cable television--the 
cable a la carte option. By allowing consumers to pick and pay only for 
the cable channels they want in their homes through this option, you 
will ensure that the market is more responsive to families' concerns 
about indecency and violence on television.
    While the increased fines in S. 2056 for violations of the Federal 
Communication Commission's indecency rules are an important step in 
addressing inappropriate broadcast programming, they do not solve the 
larger problem. Higher fines may periodically deter programming 
excesses, but it is difficult to see how they will be truly effective 
when the media giants are capable of hiring an army of lawyers to fend 
off whatever enforcement actions the FCC can afford to pursue. As such, 
families likely will continue to be inundated with programming they 
find offensive or inappropriate.
    We believe that any effort to give families and local communities a 
say in what is broadcast on their public airwaves, and what programming 
comes into their homes, must address the growing threat of media 
consolidation. Realistic media ownership rules must be in place to 
lessen the influence of massive corporations on local broadcast 
content, as well as to ensure public debate in the local media. 
Overturning the lax FCC rules, and developing sensible media ownership 
rules that allow for diverse programming that reflects local community 
interests and values is a critical first step in restoring balance 
between American consumers and corporate media giants.
    As S. 2056 requires, the FCC's media ownership rules should not, 
among other reasons, be implemented until the impact of media 
consolidation on indecent programming can be thoroughly studied by the 
General Accounting Office. When addressing the problem of indecency on 
our airwaves, it is important to ensure that the growing concentration 
of media ownership in our country has not made the situation worse.
    It is also important to require violent broadcast programming be 
limited to the hours when children are not likely to be watching 
television, unless that programming is specifically rated on its 
violent content so it is blockable by electronic means. This will 
empower parents to have more control over the violent broadcast 
programming that their children may watch, and ensure families are not 
forced to put up with gratuitous violence during the few evening hours 
they can gather together and enjoy television.
    Choice and control also should be available to consumers of cable 
and satellite programming by giving families an a la carte option--the 
opportunity to pick and pay only for the channels they want in their 
homes. Because the industry offers consumers only tiers or packages of 
cable channels, a family must block a cable channel it finds offensive, 
yet still must pay a subscription fee for that channel. That fee is 
then passed along to the programmer--a situation that is insulting and 
unfair, since the family is being forced to subsidize the producers of 
content they consider inappropriate.
    To end this practice, we ask you to request the FCC begin creating 
pilot projects or other incentives for cable operators to offer an a la 
carte option. By allowing consumers the option to pick and pay only for 
channels they want (while still having the choice of purchasing a 
package of channels), you will ensure that the market is responsive to 
families' concerns about indecency and violence.
    The cable industry will likely argue that the equipment necessary 
to offer a la carte would increase prices for consumers. However, it is 
hard to imagine that an industry that can offer ``plug and play'' 
equipment to prevent piracy, and digital boxes to deliver pay-per-view 
and other packages of services, cannot at the same time offer consumers 
the right to pick the channels they want with this equipment. This 
argument becomes more dubious considering all of Canada's large cable 
companies offer digital cable customers an a la carte option, with the 
right to pick and pay individually for those channels offered in 
packages.
    It is also important to remember consumers on average watch only 
between 12 and 18 cable channels, and the right to select the channels 
they want may save many of them money on their skyrocketing cable 
bills. Cable rates have increased three times the rate of inflation 
since the industry was deregulated in 1996, and the a la carte option 
should provide consumers some relief from the spiraling rates charged 
for cable channel packages.
    We urge you to support S. 2056, including the media ownership and 
TV violence provisions, and the cable a la carte option as a means of 
addressing inappropriate programming aired over both broadcast and 
cable/satellite networks.
            Respectfully submitted,
                                            Gene Kimmelman,
                     Senior Director of Public Policy and Advocacy.

    Senator Lautenberg. Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Lautenberg.
    Senator Wyden?

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    Just one point. I think it's important for the Committee to 
explore whether the rise of the vulgar, overly violent media 
can be linked to the loss of local ownership and accountability 
in the media. It just seems to me that when the people who 
choose these shows have to go shopping next to the people they 
may offend, that is more likely to generate the kind of 
responsible programming that we're all concerned about. Plus, 
it seems to me that if media consolidation rushes ahead, 
there's a risk that the debate that we're having today, which 
is so important to the American people, is going to be muffled, 
because when you have newspapers owning broadcast stations and 
the kind of joint ownership issue we've been exploring, it 
seems to me it is more--it's less likely that there'll be the 
kind of robust debate about these issues that is warranted.
    This Committee has spent a lot of time looking at the 
question of concentration in the media. I just think that there 
is a link between the rise of vulgar, overly violent media with 
the fact that we've lost a lot of local ownership, and I hope 
we'll explore it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Wyden.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, may I enter my statement in 
the record?
    The Chairman. Without objection.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman, I take special interest in this issue because the 
next Super Bowl will be played in my home state of Florida, 
specifically in Jacksonville. I am curious whether one year from now we 
will be seeing the same sort of halftime show.
    It is more evident than ever that Americans are concerned about the 
indecent and violent programming being broadcast over the public 
airwaves. The recent Super Bowl halftime show is only the latest in a 
long line of increasingly indecent programming.
    Far too often, people lose sight of the fact that the airwaves used 
by television and radio broadcasters are owned by the public. Because 
of this, the law is clear that broadcasters have the responsibility to 
act in the public interest.
    The outpouring of anger we have seen in the last 10 days since the 
Super Bowl has helped to crystallize this issue. Millions of families 
were gathered to enjoy the American pastime of watching the Super Bowl 
and the halftime entertainment. CBS instead provided viewers with a 
highly sexualized halftime show that ended in a very inappropriate 
manner.
    That type of programming simply was not suitable for family-hour 
television viewing. Some say: if parents don't like what's being shown 
on the television, then turn the station. That is not the answer. 
Parents have an expectation that Super Bowl programming will be 
suitable for everyone in the family to watch.
    I appreciate hearing today from the FCC's Commissioners. I know 
that the FCC has attempted to strengthen its indecency enforcement in 
several ways. This Committee has tried to give the FCC enhanced tools 
to do that important work, such as allowing much higher fines to be 
levied against broadcasters. Frankly, broadcasters also should do their 
part to exercise some better self-censorship.
    Also, I note that I will continue to examine whether higher levels 
of consolidation in media ownership have played a role in indecent and 
violent programming.
    Broadcasters must realize that the government has given them the 
privilege of using the public's airwaves. Continued abuse of that 
privilege will take us down a road that no one wants to travel.
    I thank the Chair and look forward to hearing the testimony of the 
witnesses today.

    Senator Nelson. And I'll just state to the Commissioners, 
in addition to what's been said here, I have a personal 
interest in this because the Super Bowl is going to be in 
Jacksonville next year and I don't want this kind of stuff in 
the state of Florida. And you all have a responsibility to draw 
the line in the sand and stop the trend that we're on. And I 
would suggest that it's not only about this kind of stuff, 
activities that are questionable to be broadcast, but it's the 
whole thing of this consolidation, and increasing the 
percentage of the total audience that folks can have, and 
cross-ownership.
    Just today, an economic earthquake was announced, that 
Comcast is now going to try to acquire Disney and ABC. So here 
we go, the trend of consolidation is continuing. And you've got 
to have a regulatory authority that will do something about it 
and set some boundaries.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, I assume everything has been 
said. I've been at a different hearing. And I'm pleased to be 
here. Thank you for holding this hearing.
    Let me also say, this is not just about the Super Bowl. 
It's not about censorship. There is a healthy dose of common 
sense that's needed, in my judgment, about what should be 
broadcast over airwaves that belong to the American people, in 
radio and television. And I think every parent in this country 
knows that the voices of indecency--obscenity, violence, and 
profanity--grow louder and louder and louder on broadcast 
television and radio, and parents are furious, and should be.
    Now, the hood ornament on bad judgment, in my opinion, was 
when a Federal agency recently ruled that the ``F'' word can be 
used on broadcast television as long as it is used only as an 
adjective. I understand there's some work now to try to 
overturn that ruling. But when I read about it, I thought, 
``Have we lost all common sense?'' What on earth is happening?
    Let me just make this point. None of this is new. We're 
here because of a halftime performance at the Super Bowl, but 
none of this is new. You, Mr. Chairman, Senator Hollings, 
myself, and many others on this panel have talked about these 
issues and the diminished standards and the more coarse 
language and what is happening in broadcast television and 
radio for years and years and years. At some point, common 
sense has to intervene.
    Again, I hope, whether it's a regulatory agency taking a 
look at an issue that is so simple, such as the use of the 
``F'' word on broadcast television, or issues such as the 
amount of money that ought to be levied as fines, revocation 
hearings, or allowing local affiliates to choose to preempt 
programming that they find indecent or offensive to their 
communities, I hope we finally perhaps over this issue will 
begin to make some progress.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Dorgan.
    We welcome our colleague, Senator Graham, to the Committee. 
Please proceed, Senator Graham.

             STATEMENT OF HON. LINDSEY O. GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Thank you, Mr. Chairman, and I'll be very 
brief.
    I appreciate the opportunity to testify. And I find it a 
bit ironic that those of us in politics, we've tried to clean 
our own house, because political debate and discourse in 
advertising has gotten to be trash, and we finally acted, 
because of Senator McCain's leadership and others, and we're 
trying to regulate ourselves. I think it's a great idea that if 
you run a political commercial explaining why your opponent's a 
scumbag in 20 different ways, you've got to end the commercial 
saying, ``I approved this ad.''
    So I think it's time for us all to take a hard look at 
ourselves, and the public needs to take a hard look at itself. 
We're up here--you know, never let it be said that I wasn't 
part of political piling on. That's why I'm here today. This is 
a big issue. I'm working with Senator Brownback, who's been a 
leader on this. Senator Hollings has been talking about it for 
a long time, about what to do.
    But at the end of the day, as Senator Breaux said, people 
watch this because--well, people make the product, because 
people want to watch it. Every show has a production cost, and 
they figure there are enough people who want to watch this 
stuff, so they produce it.
    And consumers need to not feel so helpless. I think we've 
gotten to a state in America where if the government doesn't 
act, there's nothing we can do. Abercrombie & Fitch had a 
advertising magazine that was sent to homes, and people 
rebelled, and they stopped. So my message here to the public 
is, don't sit on the sidelines yourselves. If you don't like 
what you see, let people know. Call the Commission, call the 
advertisers. Sex sells. It always has, and it always will. But 
let me tell you, it has gotten to the point to where it really 
is hurting families.
    The reason I'm here--and I'm, by no means, a prude; and 
there's some hypocrisy about all of us preaching about this 
stuff, to hear the ``F'' word and not to use it, but you're 
right, there should be some boundaries. And Senator Boxer was 
talking about children. That's why I'm here. I was at the ball 
game with some friends, and--I don't have any kids, but there 
were two pre-teens in the crowd, and it just made everybody 
uncomfortable.
    And why are we doing this? Money. The only reason this 
works is because of money. There's a lot of money in 
sensationalizing on television, and they should have to pay a 
lot more money. And I think the artists should assume some 
liability. The whole argument is that the television network 
didn't know; this was made up at the end. Well, then maybe the 
artists should sign a form that, ``If I do anything indecent, 
I'm going to have to pay, myself.'' So we need to bring 
consequences to the table.
    And my final thought, this Committee, Mr. Chairman, under 
your leadership, with Senator Hollings, acted last summer. This 
is not a new issue. It would be political malpractice for the 
leadership of the Senate, Republican and Democrat, not to bring 
a bill to the floor. People have had it. And if we put this off 
for another day, woe be unto us.
    So I hope our leadership's got the message. We need to 
vote, and we need to vote soon.
    Thank you for having me.
    [The prepared statement of Senator Graham follows:]

             Prepared Statement of Hon. Lindsey O. Graham, 
                    U.S. Senator from South Carolina
    Good morning Mr. Chairman, Senator Hollings, and members of the 
Committee. I appreciate the opportunity to appear before you today and 
I commend you for holding this hearing to address the indecent and 
obscene material that continues to flood television and radio 
broadcasts.
    For a long time, I've been concerned about the growing number of 
indecent, obscene, and profane material that shows up on our public 
airwaves. The Super Bowl halftime show is only the most recent and 
widely publicized incident of this problem. An estimated 90 million 
people watched the Super Bowl. Many of those viewers were probably 
young children, excited about the chance to watch their favorite NFL 
player score a touchdown, and instead were witness to a deplorable 
stunt. I, like many others, was offended by this classless act. I 
applaud the Federal Communications Commission (FCC) and support its 
decision to launch an investigation into this broadcast. It is 
encouraging that the FCC is looking into punishing those responsible 
for broadcasting this type of offensive material, particularly during a 
time when many families are watching television together.
    Of course, we all know about the incident that occurred during last 
year's NBC broadcast of the Golden Globes, when U2's lead singer, Bono, 
used profanity during a speech. Although the FCC ruled that the 
expletive was not used in an obscene or profane way, I am encouraged 
that Commission Chairman Powell has asked other members to overturn the 
decision. I was disappointed with the initial decision and encourage 
the FCC to implement stricter enforcement of indecency standards. I do 
note that the FCC will have issued 18 proposed indecency forfeitures 
for a total of $1.4 million in proposed fines since Chairman Powell 
took office in January 2001. This total significantly succeeds the 
$850,000 in proposed fines handed down during the prior seven years 
under two prior commissions. This may be a result of the FCC's 
increased enforcement or declining standards by the networks. Whichever 
it is, there is still much more that needs to be done and I recognize 
that it is Congress' job to enable the FCC with sufficient tools to 
better fight indecency on our airways.
    The halftime show and Golden Globes are just two high profile 
examples of the inappropriate, offensive, and embarrassing material 
broadcasted on our airwaves every single day. We have stood on the 
sidelines for too long and therefore, we have let indecent programming 
get out of hand. As lawmakers, we need to do more to protect the public 
from indecent programming. We must take strong measures to rid the 
public airways of indecency, obscenity, and profanity.
    Yesterday, Senator Brownback and I introduced S. 2056, the 
``Broadcast Decency Enforcement Act of 2004.'' This bill was introduced 
in the House by Representative Fred Upton, whom I've been working with 
for some time in efforts to fight against the broadcasting of indecent 
material. S.2056 would allow the FCC to issue fines ten times greater 
than they can issue now for violations of broadcast decency standards. 
The maximum fine for a violation would increase from $27,500 to 
$275,000, and those that commit continuing violations could be fined up 
to $3 million. This bill will cause broadcasters to think twice before 
allowing material on the airwaves that may be indecent.
    The current maximum fine of $27,500 is no longer punitive in 
nature. A $27,500 fine is equivalent to one eightieth the cost of a 
thirty second Super Bowl ad. By imposing larger penalties, broadcasters 
will be less likely to take chances in airing material that may violate 
our indecency laws.
    We need to make sure broadcasters air appropriate programming, 
especially when children are likely to be in the audience. There is a 
high standard all Americans should expect. This standard not only 
applies to local programming, but large networks as well. Large 
networks also need to realize that they are not immune from tough 
penalties. It is our job to make sure broadcasters live up to that 
standard by passing laws that will serve as an effective deterrent to 
those who consider airing obscene, indecent, and profane material.
    I am encouraged by the widespread support the ``Broadcast Decency 
Enforcement Act'' has received. The FCC has endorsed this bill, as well 
as the Administration. Family groups such as Focus on the Family have 
also expressed their support. I urge my colleagues to join in the fight 
to clean up our airwaves. The FCC has an important role in protecting 
Americans, especially children, from indecent programming. We must give 
the FCC the necessary tools to enforce indecency restrictions in the 
most effective manner possible.
    Mr. Chairman, once again I applaud the Committee for holding this 
hearing and for your commitment to protect America's children from 
indecent broadcasting.

    The Chairman. Thank you very much, Senator Graham, and we 
appreciate your patience, and we appreciate your testimony.
    We'd now like to hear from the Honorable Michael Powell, 
who's the Chairman of the Federal Communications Commission, 
and the other Commissioners, who are the Honorable Kathleen 
Abernathy, the Honorable Michael Copps, the Honorable Kevin 
Martin, and the Honorable Jonathan Adelstein.
    I welcome the Commissioners. I think that the Commissioners 
understand the mood here, and perhaps in their remarks they 
could respond to some of the comments of the Members of the 
Committee. And I thank all of you for coming today. Chairman 
Powell, it's always a pleasure to have you here before the 
Committee, and we look forward to your statement.
    We'll begin with you, Chairman Powell.

        STATEMENT OF HON. MICHAEL K. POWELL, CHAIRMAN, 
               FEDERAL COMMUNICATIONS COMMISSION

    Chairman Powell. Thank you, Mr. Chairman. Good morning to 
you and the distinguished Members of the Committee. It's always 
a pleasure to be here with my colleagues.
    The infamous Super Bowl show, which I think I agree with 
Senator Boxer, was more than just the final incident, but was 
outrageous throughout. Not only was it outrageous and offending 
to children, I think it's important to note it's enormously 
degrading to women to suggest that was proper behavior. But it 
is just the latest example in what we've noted is a growing 
list of deplorable incidents on the Nation's airwaves. The 
increasing concern about coarseness has resulted in a dramatic 
rise in public concern. We've received 200,000 complaints on 
the Super Bowl incident alone. A recent Time/CNN study found 
that 47 percent of Americans said the incident marked, quote, 
``a new low in bad taste.'' I couldn't agree more, as a parent 
of two young sons, about the erosion of common decency 
standards on television.
    As a member of the FCC, I can assure all Americans here 
today that the Commission will continue to protect children and 
respond to the public's concerns. Under our authority, and 
consistent with the First Amendment, we will continually 
vigorously enforce our indecency rules. To punctuate that 
point, within hours of the Super Bowl incident, we launched our 
investigation into whether it violated the law. This 
investigation will be thorough and swift. In addition, a 
decision to propose to overturn the bureau's decision in the 
Golden Globe case about the ``F'' word is imminent.
    Protecting children and giving parents the tools to 
restrict inappropriate programming from unexpectedly invading 
our family rooms requires action, however, on all fronts. The 
efforts first begin with the Commission. This Commission, me 
and my colleagues, are pushing what I think is the most 
aggressive enforcement regime in decades. This Commission alone 
has proposed nearly ten times the level of indecency fines of 
the previous Commission, and two times the two previous 
Commissions combined. But it is not enough, and we are 
continuing to work to sharpen our enforcement blade even more.
    Let me just list some of the things we have done, and are 
doing. First, we recognize that $27,500 fines constitute 
peanuts to a multimillion dollar operation, and we are seeking 
ways to increase penalties on our own against those who engage 
in lasting and repetitive incidents by taking steps routinely 
to impose the statutory maximum for serious violations. We also 
have put broadcasters on notice that we will, as you 
recommended, treat multiple incidents and utterances, if in a 
single programming, as constituting multiple indecency 
violations. We have also put broadcasters on notice in recent 
decisions that we will begin license revocation proceedings for 
egregious and continuing disregard of decency laws. We will 
pursue indecent programming on television more aggressively. We 
will continue to work aggressively to answer complaints in a 
timely manner. Just in the last 2 years, we've made significant 
progress on backlogs. Of the 14,000 complaints filed in 2002, 
only 30 remain pending, and many of them are on the way to the 
Commission now. And we will continue to vigorously monitor 
industry developments to see if they, indeed, meet the 
challenge.
    The Commission has already begun wielding our sword in 
several important respects. We proposed some of the largest 
fines in indecency enforcement history, including a proposed 
forfeiture of over $350,000 in the case of a vile and 
disgusting broadcast on sexual content in Saint Patrick's 
Cathedral in New York. We recently proposed a fine reaching 
nearly $750,000 levied against Clear Channel stations for over 
20 indecency violations. And, finally, last month we opened a 
new front in our efforts to protect children, fining a San 
Francisco television station the maximum when it aired a 
program in which a performer exposed himself in front of the 
camera, making it one of the first fines against television in 
the Commission's history. And just last week, we took steps to 
challenge the broadcasting industry to commit themselves to 
protecting children.
    Senator Hollings, we don't believe voluntary efforts are 
the sole answer. Enforcement is an important answer. But 
broadcasters have their own responsibility to take charge of 
their own industry, and we've challenged them to do so. There 
was a long, proud tradition of the broadcasting industry having 
a code of conduct that was used and faithfully employed. It was 
struck down in the courts. I think there are ways to revive it, 
and we challenge them to do so.
    We also agree with many of the comments here today that you 
can't have an honest conversation about content in the media if 
you're not willing to talk about the cable industry. We've also 
written to them, challenging them to look for new ways to 
protect their interests, and we ask the Committee to lead a 
debate about the proper ways to consider the concerns with 
cable, understanding different legal and First Amendment 
status.
    But to succeed fully in protecting our children from the 
proliferation of inappropriate and excess vile content, 
Congress also has a critical role to play, and I applaud the 
efforts of Senator Brownback, Senator Graham, Senator Hollings, 
other Members of this Committee and the Chairman, for trying to 
move bills that are important on this issue.
    We definitely need the increased enforcement authority. We 
have said so repeatedly. And, as this Committee has recognized, 
it is an important component to effective deterrence. The time 
has come--to echo the words of Senator Brownback--the time has 
come for the Commission, Congress, and the industry, and the 
public, as Senator Graham said, to take the necessary steps to 
prevent allowing the worst of television and all that it has to 
offer from reaching unsuspecting children. I commit to you that 
this Commission, me and my colleagues, will continue to put our 
resources into vigorously enforcing the rules. And I urge 
Congress to assist us in that effort and urge the Commission to 
do its part--urge the industry to do its part to protect our 
children.
    Thank you, and I await your questions.
    [The prepared statement of Chairman Powell follows:]

        Prepared Statement of Hon. Michael K. Powell, Chairman, 
                   Federal Communications Commission
    Good morning, Mr. Chairman and distinguished Members of the 
Committee. It is my pleasure to come before you today with my 
colleagues on the Commission to discuss our collective efforts to 
protect children from sexual, violent and profane content.
    The now infamous display during the Super Bowl halftime show, which 
represented a new low in prime time television, is just the latest 
example in a growing list of deplorable incidents over the Nation's 
airwaves. This growing coarseness on television and radio has resulted 
in a dramatic rise in public concern and outrage about what is being 
broadcast into their homes. Over 200,000 concerned citizens and 
counting have filed complaints with the Commission on the Super Bowl 
incident alone. As a parent, I share the displeasure and fatigue of 
millions of Americans about the erosion of common decency standards on 
television.
    As the Federal agency responsible for punishing those who peddle 
indecent broadcast programming, I can assure all Americans that my 
colleagues and I will continue to protect children and respond to the 
public's concerns. Under our authority, and consistent with the First 
Amendment, we will continue to vigorously enforce our indecency rules. 
To punctuate the point, within hours of the Super Bowl incident, we 
launched our investigation into whether there was a violation of the 
law. This investigation will be thorough and swift.
The Rise of Public Concern
    Although the Super Bowl halftime show was a new low for broadcast 
television (a recent poll found 47 percent of Americans said the 
incident marked ``a new low in bad taste''), a quick flip around the 
dial during what was once considered the family hour, reveals coarse 
content, wholly inappropriate for a time when children can be expected 
to be watching. There are reality and dating shows with heavy sexual 
themes or scripted programs that feature gratuitous violence and 
increasing profanity. Turn the channel and you are likely to see a new 
program trying to push the envelope-all in an effort to try and grab 
ratings and keep viewers.
    Indeed, as new technologies have afforded the public with an 
abundance of programming in recent years, audiences, especially in 
television continue to fragment. A recent Commission study found that 
the average television household had 82 channels available to it in 
2001, up from merely 10 channels in 1980. Over the last two years, that 
number has only increased. In fact, last year marked the second 
consecutive year where more viewers were watching cable programming 
during the prime time hours than they were broadcast programming. This 
hyper-competition for audience share and ratings has tempted 
broadcasters to capture share by resorting to ever more crass, sexual 
or violent programming.
    As evidenced by the rise in the number of complaints at the 
Commission, Americans are taking unfavorable notice. In addition to the 
over 200,000 complaints we received regarding the Super Bowl, 2003 saw 
the most indecency complaints in the Commission's history. Over 240,000 
complaints were filed at the Commission last year. As complaints have 
risen dramatically, however, the actual number of programs that our 
citizens complained about to the Commission actually declined from 2002 
to 2003 (from 389 programs to 375 programs). Furthermore, indecency 
complaints have historically been focused on broadcast radio 
programming. Indeed, only in the last two years has the Commission 
received more television than radio complaints. Television complaints 
have largely focused on the broadcast medium (217), outpacing cable 
(36) complaints over six to one.
    At the Commission, we have increased our indecency enforcement 
efforts to protect our children against the increase in coarse 
programming and in response to the growing concerns expressed by the 
public about the content being broadcast over our airwaves. Protecting 
children and giving parents the tools to prevent inappropriate 
programming from invading our family rooms requires action on all 
fronts.
The Commission's Strong Enforcement Stance
    The effort begins with the Commission. This Commission boasts the 
most aggressive enforcement regime in decades, proposing nearly ten 
times the level of indecency fines than the previous Commission. And, 
we are taking additional steps to sharpen our enforcement blade:

  <bullet> Recognizing that $27,500 fines constitute peanuts to multi-
        million dollar operations, we will actively seek ways to 
        increase penalties against those who engage in lasting and 
        repetitive indecent programming, including taking steps to 
        impose the statutory maximum for serious violations of the law 
        (up from $7,000 fines of previous Commissions);

  <bullet> We will treat multiple indecent utterances with a single 
        program as constituting multiple indecency violations. I 
        commend Commissioner Martin for his leadership on this issue;

  <bullet> We will begin license revocation proceedings for egregious 
        and continuing disregard of decency laws. Commissioner Copps' 
        efforts on this issue are particularly noteworthy;

  <bullet> We will pursue indecent programming on television more 
        aggressively-including our proposal to overturn the Enforcement 
        Bureau's decision in the Golden Globes case-a decision by the 
        Commission in that case is imminent;

  <bullet> We will continue to work aggressively to answer complaints 
        in a timely manner (of the 14,000 complaints filed in 2002 only 
        30 remain pending) and bring more cases up to the full 
        Commission for review; and

  <bullet> We will continue to vigorously monitor industry developments 
        to see if they, indeed, meet the challenge of their 
        responsibilities to protect our children.

    Indeed, the Commission has already begun wielding our sword in 
several important respects. We have proposed some of the largest fines 
in our indecency enforcement history, including a proposed forfeiture 
of over $300,000 in the case of a broadcast of sexual conduct in St. 
Patrick's Cathedral in New York and a proposed fine of over $700,000 
levied against various Clear Channel stations for over 20 indecency 
violations.
    In addition, last month, we opened a new front in our effort to 
protect children by fining a San Francisco television station the 
statutory maximum of $27,500 when it aired a program in which a 
performer exposed himself in front of the camera--marking one of the 
first ever fines against a television station in Commission history. 
Just this week, I have personally called on the broadcast and cable 
industry step to the forefront and take affirmative steps to commit 
themselves to protecting children. Specifically, I have challenged 
broadcasters to re-institute a voluntary Code of Conduct and urged the 
broadcast and cable industries to work with the public to take other 
steps, such as educational and outreach campaigns and providing for a 
delay for live entertainment performance events.
    As the Commission continues to strengthen its enforcement, it needs 
the help of both Congress and the industry in the fight for our 
children. I urge, in the strongest terms, Congress to adopt legislation 
that will increase the statutory maximum of our forfeiture penalties at 
least ten-fold. I commend Congressman Upton and Senator Brownback and 
those Members supporting their respective bills for their leadership on 
this issue. We need this increased authority to ensure that our 
enforcement actions are meaningful deterrents and not merely a cost of 
doing business. Additionally, this deterrent effect can also spread to 
other types of coarse or inappropriate programming not suitable for our 
children, such as excessive violence.
A Call to Action
    The Commission, Congress and the public cannot stand alone in this 
fight to protect our children. Indeed, action must be taken by the 
entire television and radio industry to heed the public's outcry and 
take affirmative steps to curb the race to the bottom. This industry 
simply must help clean up its own room.
    I have written the broadcast industry, the major television 
networks and the cable industry and challenged them to take affirmative 
steps consistent with antitrust law and within the limits of the First 
Amendment, to curb indecent, inappropriate and violent programming.
    The industry has the ability to join our efforts to protect 
children, and it must. Specifically, I have challenged the National 
Association of Broadcasters and the network's owned and operated 
stations to work with their broadcast members and the public to 
reinstate a voluntary code of conduct. Such a code is necessary to 
establish effective guidance and best practices to local broadcasters 
so that they can best address the needs and concerns of parents, 
children and local communities.
    I believe these steps would also give the public a meaningful 
standard by which to measure performance of the industry over time and 
demonstrate broadcasters' unwavering commitment to serving the needs of 
local communities and to help stem the surging tide of offensive 
programming.
    In addition, I have asked that the networks themselves continue to 
take affirmative steps to better protect the public. I am heartened by 
recent efforts to reinstitute a delay into live broadcasts of award 
shows to prevent unwarranted profanity from infiltrating our airwaves 
and urge the industry to make this routine practice. Their actions, 
however, can and must not stop there.
    Finally, like the broadcasters, I have challenged the cable 
industry to engage and educate the public about the best family-
friendly programming that cable has to offer and how best to use the 
technological tools available to prevent those channels and programs 
that are inappropriate for children from reaching their eyes and ears. 
I have asked all interested parties to inform me of their progress on 
this front within the next thirty days. Commissioner Abernathy's 
leadership in developing the FCC's Parent's Page is an important 
beginning in these efforts.
    The rise of cable and satellite programming and the development of 
new broadcast networks have brought our citizens the very best 
television and radio programming that it has had to offer in its 
seventy-five year history. We have also, however, seen some of the 
worst. The time has come for us to work collectively--the Commission, 
the Congress, the industry and the public to keep the seedy worst of 
television from reaching our children and to help parents make the 
choices that are best for them. I commit to you that this Commission 
will continue to put our resources into vigorously enforcing our 
indecency rules. I urge Congress to assist us in these efforts and look 
for the industry to step up and do its part to protect our Nation's 
children. I look forward to working together with my Commission 
colleagues to advance the public interest on these important issues.
    Thank you, I will be happy to answer any of your questions.

    The Chairman. Thank you very much.
    Ms. Abernathy?

           STATEMENT OF HON. KATHLEEN Q. ABERNATHY, 
        COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION

    Commissioner Abernathy. Good morning, Mr. Chairman, Senator 
Hollings, and distinguished Members of the Committee. I 
appreciate the opportunity to appear before you this morning to 
discuss the FCC's efforts to protect children from indecent and 
violent programming.
    This hearing is a most timely response to an increasingly 
urgent set of problems, and the Super Bowl halftime show was 
perhaps the most notorious, but only the most recent, example 
of a progressive coarsening of our culture, as reflected in 
broadcasting and cable and video games. And it is not simply an 
issue with regard to excessive sexual content in mainstream 
programming; it is also reflected in the excessively violent 
content of material distributed to children via broadcasting 
and the Internet, as pointed out by Senator Boxer. This has 
occurred despite the Commission's vigorous enforcement of the 
indecency laws, despite our announcement that these efforts 
would be further intensified by per-utterance fines, despite 
our putting broadcasters on notice that they're putting their 
licenses at risk, and despite pending Congressional legislation 
to increase our forfeiture authority.
    Clearly, some broadcasters have forgotten their public 
interest obligations and the critical role that they play in 
forming and shaping our society. In light of this environment, 
the FCC must be given the ability to impose meaningful fines 
that will deter the future airing of indecent programming. 
Therefore, I wholeheartedly support your efforts to increase 
our forfeiture authority. As already pointed out, the current 
statutory maximum of $27,500 is simply a slap on the wrist.
    The FCC also must do more to clarify the legal parameters 
regarding the broadcast of indecent material. Unfortunately, 
prior Commissions failed to take up this issue, and we are now 
forced to reconsider prior precedent and provide new guidance 
to broadcast licensees. So, for example, relying on past 
Commission rulings, the enforcement bureau recently issued a 
decision determining that Bono's language used during the 
Golden Globes was not indecent. While I don't want to comment 
on what action the full Commission may ultimately take, I will 
say this. It's very hard to imagine many contexts where the 
particular obscenity would not be patently offensive under 
contemporary community standards.
    We must also recognize, however, that our enforcement-based 
measures, at their best, are necessarily after the fact, and 
monetary penalties alone may not fully prevent future 
misconduct, especially when it comes to live broadcast radio or 
TV programming. Therefore, in addition to current, and even 
enhanced, enforcement measures, we should improve and amplify 
forward-looking safeguards.
    Our laws try to help parents understand and control the 
programs their children watch in several different ways. 
Although our rules limit the hours during which indecent 
programming may be broadcast, it is perhaps even more important 
to understand what options are available to protect children 
from the adult programs that broadcast during the main part of 
the day, programs that may not be indecent, but include 
excessive violence, excessive sexual content, or are simply 
inappropriate for children. The V-chip and the programs ratings 
legislation that Congress passed are intended to help parents 
understand the content of broadcast programs and control access 
into the homes.
    Is this system working well? Clearly not. Most parents do 
not understand how to use the V-chip and are unaware that a TV 
ratings system exists. And the shortcomings of these early 
warning systems are even more troubling as applied to violent 
programming, which, unlike indecency, is not subject to FCC 
enforcement sanctions. This is not because violence is less 
prevalent on television than indecency. On the contrary. As 
pointed out by Senator Hollings, a recent report by the Kaiser 
Family Foundation found that nearly two out of three programs 
contained some violence, averaging six violent acts per hour.
    I know that you've grappled with the many legal and 
practical issues involved in attempting to legislatively define 
and limit televised violence, but, in the absence of statutory 
authority, the Commission is reaching out to the public to help 
make parents aware of the V-chip and the program rating system 
and how to use them. I've tried to address this problem by 
working with the FCC's Consumer and Governmental Affairs Bureau 
to create a new website, the FCC's Parents Place. Parents Place 
explains the ratings systems, including what they mean and when 
the ratings are displayed, and directs parents to websites that 
identify age-appropriate programming by locality. It also 
explains the V-chip and other blocking tools, including lock-
boxes.
    But any system based on giving advance notice to parents 
will only work when advance notice and information is, in fact, 
made available. As last week's Super Bowl incident showed, this 
system simply won't work in the face of surprise. So we must 
also consider ways to eliminate the kind of surprise indecency 
that thwarts the best efforts of even the most vigilant 
parents.
    Because such unwelcome surprises seem most apt to happen 
during live broadcasts, we should begin by evaluating the 
effectiveness of audio and video delays on the broadcast of 
live entertainment events. This type of safeguard has already 
been implemented by a number of broadcasters, and it would seem 
to offer the best real-time protection.
    I also believe we'll need to enlist the help of 
broadcasters if we are ultimately to address the core of 
consumer concerns, because the issues encompass more than 
simply what is or is not indecent programming.
    Mr. Chairman, if there is anything positive at all to be 
said about what's happened, it may be that all of us now 
appreciate the significant challenges we face in ensuring that 
our children are protected from indecent or violent programming 
and while also continuing to tap into the best of what 
broadcasting has to offer.
    In response to these challenges, I fully support both the 
expanded enforcement efforts by the Commission, as well as the 
possibility of improving the existing safeguards. And I welcome 
the opportunity to discuss any additional matters this 
Committee may wish.
    Thank you.
    [The prepared statement of Commissioner Abernathy follows:]

    Prepared Statement of Hon. Kathleen Q. Abernathy, Commissioner, 
                   Federal Communications Commission
    Good morning Mr. Chairman, Senator Hollings, and distinguished 
Members of the Committee. I appreciate the opportunity to appear before 
you this morning to discuss the FCC's efforts to protect children from 
indecent and violent broadcast programming.
    A recent study found that even the youngest of children--those 
under the age of six--are immersed in today's media world, and a vast 
majority of parents have seen their children imitate behavior they have 
seen on television.\1\ This comes as no surprise: children are a part 
of the broadcast audience for a substantial part of the broadcast day. 
Moreover, media has a profound impact on our perception of the world 
and gives us an impression of what is ``normal'' or acceptable in our 
society.
---------------------------------------------------------------------------
    \1\ Zero to Six, Electronic Media in the Lives of Infants, Toddlers 
and Preschoolers, Fall 2003, The Henry J. Kaiser Family Foundation.
---------------------------------------------------------------------------
    The law holds that broadcasters, because they make licensed use of 
publicly owned airwaves to provide programming to the general public, 
have a statutory obligation to make sure that their programming serves 
the needs and interests of the local audience. These local audiences 
inevitably include parents and children. The courts have upheld the 
existence of a compelling government interest in the well-being of 
children, as well as the prerogative of parents to supervise their 
children in furtherance of that well-being. Those simple and 
straightforward legal principles are the foundation of the laws and 
regulations that limit the broadcast of indecent programming, and make 
available to parents means to help them control the programming 
available to their children.
    Notwithstanding these well-established legal principles and the 
steps taken in furtherance of them, this hearing is a most timely 
response to an increasingly urgent set of problems. The recent Super 
Bowl halftime show was perhaps the most notorious, but only the most 
recent, example of a progressive coarsening of our culture as reflected 
in broadcasting, cable, and video games. And it is not simply an issue 
with regard to excessive sexual content in many mainstream programs; it 
is also reflected in the excessively violent content of material 
distributed to children via broadcasting and the Internet.
    It finally appears that the level of public tolerance is waning for 
artists who regard any live appearance on broadcast television as an 
opportunity for indecent utterances or actions. And it is also waning 
for broadcasters who, despite all the surprise and contriteness they 
display after an indecent incident has occurred, seem bereft of the 
common sense and control needed to prevent such action before it 
happens.
    It is particularly surprising that some more recent incidents have 
occurred despite this Commission's vigorous enforcement of the 
indecency laws as described by Chairman Powell, despite our 
announcement that these efforts would be further intensified by the 
prospect of levying higher fines and subjecting each separate utterance 
to a separate fine, despite our putting broadcasters on notice that we 
would not hesitate to designate licenses for revocation if the 
circumstances warranted, despite pending congressional legislation to 
increase our forfeiture authority, and despite the Administration's 
support for that legislation.
    Historically the FCC's indecency rules and enforcement efforts have 
generally been effective at balancing broadcasters' First Amendment 
rights with society's right to protect its children from material that 
is unsuitable for them. Our rules and precedents have allowed us to 
calibrate our evaluations to the specific circumstances of particular 
broadcasts and to reach results that, hopefully, reflect the judgment 
an average broadcast viewer or listener would make. But with the advent 
of new technologies that deliver hundreds of channels into consumers' 
homes and an increased desire to target marketing to those elusive 
viewers aged 18 to 24, it appears that some radio and TV broadcasters 
have lost their footing and must be reminded not only of their public 
interest obligations but also of the critical role they play in forming 
and shaping society.
    In light of this environment, the FCC must be given the ability to 
impose meaningful fines that will deter the future airing of indecent 
programming. Therefore, I strongly support your efforts to increase our 
forfeiture authority. Our current statutory maximum of $27,500 could be 
perceived as a mere slap on the wrist. In contrast, for any violation 
of Title II of the Act, we are authorized to fine up to $120,000 for a 
single violation, and $1.2 million for continuing violations. The well-
being of our children is just as important as Title II violations and 
our authority should be expanded to demonstrate this commitment.
    The FCC also must do more to clarify the legal parameters regarding 
the broadcast of indecent material and encourage best practices by the 
industry. For example, relying on its understanding of past Commission 
rulings, the Enforcement Bureau staff recently issued a decision 
determining that Bono's use of the ``f word'' during a live telecast of 
the Golden Globes was not indecent. The full Commission is reviewing 
this staff decision. And while I would not want to comment on what 
action the full Commission may ultimately take, I will say that it is 
difficult to imagine very many contexts where the knowing broadcast of 
this obscenity would not be patently offensive under contemporary 
community standards.
    Moreover, I am aware that concerns have been raised about the 
processes currently used to handle indecency complaints, including how 
these are enumerated and reported, the standard of documentation that 
must be met even to file a complaint, and the length of time it has 
taken us to resolve them. I support an expeditious reexamination of 
these matters. If these or any other procedural rules are 
unintentionally discouraging the public from filing otherwise credible 
complaints, they can and must be changed.
    Nevertheless, these enforcement-based measures, at their best, are 
necessarily after the fact. And although I strongly support pending 
legislation to increase the amount the FCC may fine broadcasters for 
violating the indecency rules, monetary penalties alone may not fully 
prevent future misconduct, especially when it comes to the live 
broadcast of radio or TV programming. Therefore, in addition to current 
and even enhanced enforcement measures, it may also be appropriate to 
consider improving and amplifying our complement of forward-looking 
safeguards as well.
    Currently, these forward-looking safeguards consist of laws and 
regulations whose intent is to enable parents to limit their children's 
television viewing to those programs consistent with whatever value 
system the parents are striving to teach. Gone forever are the days 
when a parent could simply sit a child down in front of the TV and 
leave that child in the hands of the broadcast babysitter. Television 
viewing today requires that responsible parents be proactive in 
selecting and in monitoring the material their children are permitted 
to watch.
    Our laws try to help parents understand and control the programs 
their children watch in several different ways, especially when it 
comes to pre-recorded material. The rule restricting indecent 
broadcasts to the hours of 10 p.m. to 6 a.m. puts parents on notice 
that they must exercise particular care in supervising the material 
that children watch or listen to during those hours. But it is perhaps 
even more important to understand what options are available to protect 
children from adult programs that broadcast during the main part of the 
broadcast day--programs that may not be indecent but include excessive 
violence or sexual content or are simply inappropriate for young 
children. The V-chip and program ratings legislation that Congress has 
passed is intended to help parents understand the content of broadcast 
programs, thereby assuring that the values they are attempting to 
instill in their children won't be compromised by exposure to 
programming at odds with those values.
    Is this system working as well as one would wish? No, it is not. 
Most parents do not understand how to use the V-chip and are unaware 
that a TV ratings system exists.\2\ At the same time, broadcasters are 
trying to retain audiences that have been deserting them in droves in 
favor of cable programming that is not subject to any indecency 
restrictions. As a consequence broadcast licensees are constantly 
pushing the programming envelope in an attempt to be more like cable.
---------------------------------------------------------------------------
    \2\ See, e.g., Parents and the V-Chip 2001, July 2001, The Henry J. 
Kaiser Family Foundation.
---------------------------------------------------------------------------
    The shortcomings of the present parent advisory-based system are 
more troubling, especially when it comes to facilitating the screening 
of violent programming which, unlike indecency, is not subject to FCC 
enforcement sanctions. This is not because violence is less prevalent 
on television than indecency; on the contrary, a recent report by the 
Kaiser Family Foundation found that nearly two out of three programs 
contained some violence, averaging about six violent acts per hour. 
Moreover, identifiable harm resulting from televised violence has been 
documented: laboratory experiments have found that exposure to media 
violence increases children's tolerance for real-life aggression.\3\
---------------------------------------------------------------------------
    \3\ TV Violence, Spring 2003, The Henry J. Kaiser Family 
Foundation.
---------------------------------------------------------------------------
    This Committee has grappled with the many legal and practical 
issues involved in attempting legislatively to define and limit 
televised violence. In the absence of statutory authority, the 
Commission is reaching out to the public to help make parents aware of 
the V-chip and the program ratings system, and how to use them. I have 
tried to address this problem by working with the FCC's Consumer and 
Governmental Affairs Bureau to create an FCC website called Parents 
Place. Parents Place explains the rating systems, including what the 
ratings mean and when and where the ratings are displayed and directs 
parents to websites that identify age-appropriate programming. It also 
explains the V-chip is and how it works. In addition, I dedicated an 
issue of my consumer newsletter, Focus on Consumer Concerns, to how 
parents can protect children from objectionable programming on 
television. This newsletter also includes details on the V-chip 
technology and ratings system, as well as other blocking tools, 
including lockboxes.
    Nevertheless, any system based on giving advance notice to parents, 
however it is constituted, will work only when advance notice and 
information is, in fact, made available. As last week's Super Bowl 
debacle showed, these early warning systems simply won't work in the 
face of surprise. Whatever we may be able to do about either improving 
the existing system or informing more parents how to use it, both 
efforts are meaningless unless we also consider ways to eliminate the 
kind of surprise indecency that thwarts the best efforts of even the 
most vigilant parent.
    Because such unwelcome surprises seem most apt to happen during 
live-broadcast entertainment or awards shows, we could begin by 
evaluating the effectiveness of a five-or ten-second audio and video 
delay on the broadcast of live entertainment events. This type of 
safeguard has already been implemented by a number of broadcasters, and 
it would seem to offer the best assurance against the recurrence of the 
kind of unfortunate spur-of-the-moment displays that we are 
increasingly being subjected to.
    I also believe we will need to enlist the help of broadcasters if 
we are to ultimately address consumer concerns because the issues 
encompass more than simply what is or is not indecent programming. I am 
somewhat heartened that broadcasters are finally getting the message. 
Just last week I spoke at a conference organized by Fox Entertainment 
Group for their creative executives. All of senior management were 
there, from Rupert Murdoch on down, and the focus of the conference was 
how their producers and programmers can balance creativity and 
responsibility. I discussed not only what the law requires with respect 
to indecency on the airwaves, but how they, as broadcasters, cable 
programmers, and filmmakers, can and should go beyond the letter of the 
law to ensure that their programming reflects the values of the 
communities they serve. My remarks were followed up be a series of 
panels that included parents and their children, producers, government 
officials, and members of such groups as Kaiser Family Foundation and 
the Parents Television Council. The goal was to have an open and frank 
discussion about media content, the FCC's indecency rules and the 
networks responsibility to its viewers.
    Mr. Chairman, if there is anything at all positive to be said about 
what has happened, it may be that all of us now appreciate the 
significant challenges we face in ensuring that our children are 
protected from indecent or inappropriate programming while continuing 
to tap into the best of what broadcasting has to offer. In response to 
these challenges, I fully support both the expanded enforcement efforts 
by the Commission as well as the possibility of improving the existing 
safeguards, and I welcome the opportunity to discuss any additional 
matters the Members of this Committee may wish.

    The Chairman. Thank you very much.
    Dr. Copps?

       STATEMENT OF HON. MICHAEL J. COPPS, COMMISSIONER, 
               FEDERAL COMMUNICATIONS COMMISSION

    Dr. Copps. Mr. Chairman, Senator Hollings, Members of the 
Committee, thank you for having us up here this morning to talk 
about an issue that has all America talking. This is not the 
first time I have expressed my concern to this Committee on the 
important issue of indecent and violent programming on the 
public's airwaves. America has a problem. And this Committee 
has responded to that problem with vision and vigor, and that's 
exactly what this battle against indecency requires.
    There is frustration out there, and there is anger. I saw 
the people's anger all last year, when Commissioner Adelstein 
and I took to the road in our media ownership forums. And I saw 
it again just 2 weeks ago, before the Super Bowl, when all the 
Commissioners were in San Antonio. Parents lined up to talk 
from their heart about programming's addiction to sex, 
violence, and profanity. People all across this land of ours 
are demanding action--action now--to stop the increasing sex 
and violence bombarding our airwaves.
    Certainly, there have been a couple of high-profile 
incidents that have garnered widespread attention, none more so 
than last week's shameful halftime display at the Super Bowl. 
But they're just the tip of the iceberg. The real test for the 
FCC is how we address the thousands of other complaints 
pertaining to hundreds of other programs. And, so far, we don't 
have any results to crow about, and the airwaves keep 
deteriorating.
    To tackle the problem of sex and violence on our airwaves, 
I am all for additional authority from Congress. We need all 
the help and all the push that you can give us. But, in the 
meantime, I want to see the Commission use the arrows we 
already carry in our quiver. Accordingly, I'm asking my 
colleagues to take the following five concrete steps.
    Number one, use our full authority to punish 
transgressors--license revocation, license non-renewal, and 
higher fines. We need to send the more outrageous transgression 
and repeat offenders to license-revocation hearings. We need to 
do it now. The Commission has never used this authority, and 
nothing would send so powerful a message to those who produce 
these programs. We need to impose meaningful fines for each 
utterance, rather than more mere cost of doing business fines.
    We need to get serious about enforcing the profanity part 
of the statute. It sits there, ignored. Let's also look at 
advertisements, as well as programs.
    And we need to establish an effective license-renewal 
process that meets our responsibility not to renew the licenses 
of those who traffic in indecent and violent programming. 
Companies that do not serve the public interest should not hold 
a public license.
    Two, reform the complaint process. The Commission should 
commit to addressing all complaints within a specific 
timeframe, such as 90 days. It's the Commission's 
responsibility to investigate complaints that the law has been 
violated, not the citizen's burden to prove the violation. 
There is much we can do to make the complaint process user-
friendly, and Commissioners themselves, rather than the bureau, 
should be making the important indecency calls.
    Three, tackle graphic violence. Compelling arguments have 
been made that excessive violence is every bit as indecent as 
the steamiest sex. Senator Hollings, Senator Brownback, and 
others on this Committee have been eloquent champions of action 
on this front. The Commission needs to move on this now.
    Four, convene an industry summit that includes 
broadcasting, cable, and DBS. Industry does need to step up to 
the plate to tackle the issues of indecent and violent 
programming. I'll bet there isn't one executive sitting in this 
room today, who has not heard my personal plea on this over the 
past two and a half years, and I'm pleased to learn that the 
Chairman is joining me in this effort. Broadcasters used to 
police themselves with a voluntary code. It wasn't perfect, but 
it was credible. Why can't they try to do it again? This summit 
needs to includes--absolutely must include--cable and satellite 
providers. Perhaps cable could explore such options as offering 
a family tier. My colleague, Commissioner Martin, has made 
positive suggestions about this. Cable could also make sure 
that family channels offer all family friendly programming. And 
broadcasters could commit to family hours during prime time. 
I'm mindful of Senator Hollings' admonition that voluntary is 
no substitute for us doing our job and for us enforcing the 
law; nor can it be allowed to let anybody off the hook. Still, 
I believe it could contribute.
    Five, affirm the rights of local broadcasters to control 
their programming. In 2001, local broadcasters filed a petition 
alleging that networks are hindering affiliates' ability to 
preempt broadcast network programming not suitable for their 
communities. This petition has sat unaddressed for over 2 
years. The Commission needs to issue a decision.
    One other thought, and I think it's important. At the same 
time that we have not been adequately enforcing indecency laws, 
the Commission has been loosening media concentration 
protections without considering whether there is a link between 
increasing media consolidation and increasing indecency. It 
makes sense that as media conglomerates grow ever bigger and 
control moves further away from the local community, community 
standards go by the board. We opened the doors to unprecedented 
levels of media consolidation, and what do we get in return? 
More filth, less real news, and a lot of programming that our 
kids just should not be experiencing. We should have examined 
this last year before we opened the doors to more 
concentration.
    The consolidation locomotive continues to steam down the 
track. As was already mentioned, the wires reported this 
morning a bid by Comcast to take over Disney. And I think we'll 
all need to think about how that could affect the ability to 
control both distribution and content.
    In closing, I want to see this Commission really step 
forward and focus on the things we can do with the authority 
you long ago gave us. This is about the public interest, 
responsible broadcasting, and the well-being of our kids. This 
is about telling millions of Americans that we're going to see 
this job through.
    So thank you for this hearing. It's a true public service. 
Thank you for the commitment and leadership so many of you on 
this Committee bring to this legal and moral issue. And I look 
forward to hearing your comments and further thoughts on all of 
this.
    [The prepared statement of Commissioner Copps follows:]

      Prepared Statement of Hon. Michael J. Copps, Commissioner, 
                   Federal Communications Commission
    Mr. Chairman, Senator Hollings, Members of the Committee, I am 
honored to appear before you again this morning. This is not the first 
time that I have addressed this Committee on the important issue of 
indecent and violent programming on the public's airwaves. I appreciate 
the attention you have devoted to this issue and for inviting me to 
share some of my perspectives, and more importantly, to hear yours.
    Every time I boot up my FCC computer, every time I visit a town or 
city across America, I hear the same refrain from people: we are fed up 
with the patently offensive programming--the garbage--coming our way so 
much of the time. I saw the people's anger all last year when 
Commissioner Adelstein and I took to the road in our media ownership 
forums, and I saw it again just two weeks ago when all the 
Commissioners were in San Antonio--parents lined up to express their 
frustration with programming's addiction to sex, violence and 
profanity. We even heard from children who were fed up with what 
they're seeing and hearing. People all across this land of ours are 
demanding action--action now--to stop the increasing sex and violence 
bombarding their airwaves.
    Indecency was the subject of my first statement when I arrived at 
the FCC in 2001. For much of the past two and a half years, it has been 
an uphill battle. I am pleased that the Commission now seems to be 
coming around to the idea that we need to take action against 
indecency. I hope we will now also get serious about our obligation to 
enforce the profanity part of the statute. In any event, I will know 
the Commission is serious about tackling indecency when we compile a 
record to match our rhetoric. We are not there yet.
    Certainly there have been a couple of high profile incidents that 
have garnered widespread attention, none more so than last week's 
shameful half-time display at the Super Bowl, as probably a quarter 
billion people around the world watched us celebrate what should have 
been an all-American evening of sports and artistic creativity for the 
entire family. We got something far different. This latest episode has 
had a galvanizing effect both within and outside the Commission. 
Sometimes one incident can spark a revolution, but the seeds of this 
revolution have been building--and have been painfully obvious--for a 
long, long time.
    The real test for the FCC is not how we address this particular 
incident, although what we do and how quickly we do it will be 
instructive. The real test is how the Commission addresses the 
thousands of other complaints pertaining to hundreds of other programs. 
And we have so far failed this test. Let's look at the facts. Under the 
FCC numbers, which at that time significantly under-counted the number 
of complaints we actually received, there were almost 14,000 complaints 
about 389 different programs in 2002. Yet, of those hundreds of 
programs, we issued a mere seven notices of apparent liability (NALs) 
that year--and only two of those have been fully resolved. In 2003, the 
number of complaints jumped to over 240,000 and concerned 375 different 
programs. Yet, this past year we issued only three NALs. If I was a Big 
Media executive or an advertising consultant figuring out how to 
attract all those 18-34 year old eyeballs to shows so I could sell them 
products, I wouldn't exactly be quaking in my boots that the big hammer 
of the FCC was about to cause me serious pain. I'd say: ``There aren't 
any torpedoes, full speed ahead.'' Too many indecency complaints from 
consumers and an avalanche of truly indecent broadcasts are falling 
through the cracks. Concerned parents are paying the price. Worse, our 
kids are paying a price they shouldn't have to pay.
    ``Why don't those parents just turn the set off,'' I have been told 
as I push to get some action on indecency. But are we supposed to just 
turn off the all-American Super Bowl? The half-time show gives the lie 
to that one. ``Let the V-Chip handle it'' is another refrain I hear. 
Don't get me wrong, I like the V-Chip. But it was irrelevant that 
Sunday night. How do you warn against half-time shows or slimy ads or 
sensation-seeking previews of coming movie and television attractions?
    Not enough has changed over the past few years in the FCC's 
enforcement of the indecency laws. And at the same time, I believe that 
some of the Commission's actions pretty much guarantee that things will 
get even worse. Instead of enforcing indecency laws, the Commission 
recently rewarded giant station owners by dismantling media 
concentration rules that provided at least some protection against too 
few Big Media companies owning too many broadcasting outlets. We open 
the door to unprecedented levels of media consolidation and what do we 
get in return? More garbage, less real news and progressively crasser 
entertainment. Should we really be surprised that two of the very 
biggest media conglomerates--Viacom and Clear Channel--alone accounted 
for more than 80 per cent of those fines that were proposed for 
indecency? We weakened our concentration rules without even considering 
whether there is a link between increasing media consolidation and 
increasing indecency on our airwaves. It makes intuitive sense that 
there is. As media conglomerates grow ever bigger and control moves 
further away from the local community, it stands to reason that 
community standards go by the boards. Who is going to be more attuned 
to community standards--the national owner who is driven by Wall Street 
and Madison Avenue, or a broadcaster closer to the local scene and who, 
in some communities, you still see at church, at the store, and around 
town? I begged for us to study what relationship exists between the 
rising tide of media consolidation and the rising tide of media 
indecency before we voted on June 2 to loosen the ownership safeguards. 
I thought we owed that to our kids. Maybe now the rising tide of public 
anger will force some action.
    We know this: there is a law against indecency. The courts have 
upheld it. And each one of us at this table has an obligation to 
enforce that law in a credible and effective way. Each of us has a 
mandate to protect children from obscene, indecent and profane 
programming.
    Some have argued that the Commission needs additional authority 
from Congress so that it can make a serious effort to stop indecency. I 
am all for more authority. But in the meantime, let us use the arrows 
we already hold in our quiver. Accordingly, I am asking my colleagues 
to take the following five steps, all of which can be done under our 
current statutory authority and which would send a strong message that 
the FCC is serious about eliminating indecency on our television sets 
and radios.

  1.  Use Our Full Authority to Punish Transgressors--License 
        Revocation, License Non-Renewal and Higher Fines: We need to 
        send some of the more outrageous transgressions and repeat 
        offenders to license revocation hearings. Taking some blatant 
        offender's license away would let everyone know that the FCC 
        had finally gotten serious about its responsibilities, and I 
        think we would see an almost instantaneous slamming on of the 
        brakes in the race to the bottom. The Commission has never used 
        this authority.

     If the Commission can't bring itself to do this, we should at 
        least be imposing meaningful fines. ``Cost of doing business 
        fines'' will never stop Big Media's slide to the bottom. We 
        should have long since been fining violators for each utterance 
        on a program, rather than treating the whole program as just 
        one instance of indecency. All of the fines we have imposed 
        against Viacom could be paid for by adding one commercial to 
        the Super Bowl--and the company would probably end up with a 
        profit. Fining every utterance could lead to significantly 
        higher fines. We have long had the authority to take this step. 
        We should have been using this authority years ago.

     The Commission should also establish an effective license renewal 
        process under which we would once again actually consider the 
        manner in which a station has served the public interest when 
        it comes time to renew its license. It is our responsibility 
        not to renew the licenses of those who air excessive amounts of 
        indecent and violent programming. We need to take our job 
        seriously in the license renewal process. It all comes down to 
        this: station owners aren't given licenses to use the public's 
        airwaves to peddle smut. They are given licenses to serve the 
        public interest. When they no longer serve the public interest, 
        they should no longer hold a public license.

  2.  Reform the Complaint Process: The process by which the FCC has 
        enforced the indecency laws has for too long placed inordinate 
        responsibility upon the complaining citizen. That's just wrong. 
        It is the Commission's responsibility to investigate complaints 
        that the law has been violated, not the citizen's 
        responsibility to prove the violations.

     The Commission should commit to addressing all complaints within a 
        specific time-frame such as 90 days. Today, when complaints 
        often languish, the message is loud and clear that the FCC is 
        not serious about enforcing our Nation's laws. Recent cases 
        such as Infinity's repulsive WKRK-FM case, Infinity's Opie and 
        Anthony show and Clear Channel's ``Bubba the Love Sponge'' all 
        took more than a year for an initial decision. Congress 
        expected action from the FCC, but all too often our citizens' 
        complaints seem buried in bureaucratic delay or worse. I would 
        add here that some of this material goes beyond the indecent to 
        the obscene. We ought to treat it as such and move against it 
        or, if we're still timorous about it, send it over to the 
        Department of Justice with a recommendation for criminal 
        proceedings.

     Lack of complete information about what was said and when it was 
        broadcast should not be allowed to derail our enforcement of 
        the laws. The Commission appears to be coming around to the 
        idea that a tape or transcript is not required. Yet, the 
        Commission's website still seems to indicate that this 
        information is needed or a complaint will be dismissed without 
        an investigation. I have suggested that broadcasters 
        voluntarily retain tapes of their broadcasts for a reasonable 
        period of time. Many broadcasters already retain such 
        recordings, but I believe that all broadcasters should do so. 
        That way, when someone complains about what went out on the 
        public airwaves we can have a record to see how those airwaves 
        were used--or abused.

     And, in matters of such importance, I believe the Commissioners 
        themselves, rather than the Bureau, should be making the 
        decisions. Issues of indecency on the people's airwaves are 
        important to millions of Americans. I believe they merit, 
        indeed compel, Commissioner-level action.

  3.  Tackle Graphic Violence: It's time for us to step up to the plate 
        and tackle the wanton violence our kids are served up every 
        day. Senator Hollings, Senator Brownback and others on this 
        Committee have been eloquent champions of this for years. 
        Compelling arguments have been made that excessive violence is 
        every bit as indecent as anything else that's broadcast. Those 
        arguments are strong enough to demand our attention. We don't 
        need more studies. Over the years, dozens of studies have 
        documented that excessive violence has hugely detrimental 
        effects, particularly on young people. I don't say this is a 
        simple problem to resolve, because it is not. But that's no 
        excuse to run away from it. Wanton violence on the people's 
        airwaves has gone unaddressed too long. Here too, we pay a high 
        price, especially the kids.

  4.  Convene an Industry Summit that includes Cable and DBS: I have 
        long suggested, without much success, that broadcasters 
        voluntarily tackle the issues of indecent and violent 
        programming. I'll bet there is not one industry executive 
        sitting in this room today who hasn't heard my plea on this 
        over the past two-and-a-half years. Many of you will remember 
        the Voluntary Code of Broadcaster Conduct that for decades saw 
        the industry practicing some self-discipline in the 
        presentation of sex, alcohol, drug abuse and much else. It 
        didn't always work perfectly, but at least it was a serious and 
        credible effort premised on the idea that we can be well-
        entertained without sinking further into the bottomless depths 
        of indecency. The issue here is not forcing industry to do 
        this; it's a question of why doesn't industry step up to the 
        plate and have a conversation with itself that tens of millions 
        of Americans want it to have.

     This summit must include cable and satellite providers. Eighty-
        five percent of homes get their television signals from cable 
        or satellite. Most people don't recognize the difference as 
        they flip channels between a broadcast station and a cable 
        channel. Because cable and satellite are so pervasive, there is 
        a compelling government interest in addressing indecency when 
        children are watching. The courts have already applied this to 
        cable.

     It would be infinitely preferable, and far quicker, to have 
        industry step up to the plate rather than have to go the route 
        of legislation and regulation that can take a long time and is 
        likely to be contested every step of the way. Perhaps cable 
        could explore such options as offering a family tier so that 
        families don't need to receive channels like MTV in order to 
        get the Disney Channel. My colleague Commissioner Martin has 
        made positive suggestions about this. Cable could also make 
        sure that family channels offer all family-friendly 
        programming. And broadcasters could commit to family hours 
        during prime time.

     I believe that with encouragement from Congress and from the 
        Commission, and to the applause of most Americans, our radio, 
        television, cable and satellite chieftains could come together 
        to craft a new code of conduct that would serve the needs of 
        their businesses as well as those of concerned families. And 
        I'll bet they could get it done this very year. Where is the 
        industry leader who will do this?

  5.  Affirm the Rights of Local Broadcasters to Control Their 
        Programming: I was struck at our recent Charlotte localism 
        hearing when I asked both a local broadcaster and a 
        representative from one of the stations owned by a national 
        network how often they had preempted a show based on community 
        standards. The national station representative admitted he had 
        never done so. The local owner stated that he frequently took 
        the initiative--and this isn't easy--and he refused to run 
        shows like Married by America, Cupid, and others.

     In 2001, local broadcasters filed a petition asking the Commission 
        to affirm a local broadcaster's autonomy in making programming 
        decisions for its station. I think we should be concerned about 
        allegations that networks are hindering affiliates' ability to 
        refuse to broadcast network programming that is not suitable 
        for their communities. Yet, this petition has sat unaddressed 
        for over two years. The Commission should issue its decision 
        promptly.

    Mr. Chairman, Senator Hollings, distinguished Members of this 
Committee, these are a few concrete steps that I advocate our taking to 
demonstrate that this Commission is finally dead serious about taking a 
firm stand against indecency as the level of discourse on the public's 
airwaves deteriorates and stations continue to push the envelope of 
outrageous programming and promotions ever further. I don't know what 
the precise mix of legislative initiative, regulatory enforcement and 
voluntary industry action should be here, but millions of Americans are 
asking us to get on with the job. Today we have the best of television 
and we have, undeniably, the worst of television. When it is good, it 
is very, very good; and when it is bad, it is horrid. It is also 
shameful. I don't believe this is what the great pioneers of the 
broadcast industry had in mind when they brought radio and television 
to us.
    This is about the public interest, responsible broadcasting, and 
providing programming that appeals to something other than the lowest 
common denominator. There needs to be inviolable space out there that 
appeals to the better angels of our nature and that carves out a safe 
harbor for our kids. That may become harder and harder to do as 
technology evolves, but our public interest responsibility does not 
evolve. It is a constant. And if we are true to it here, we will find a 
way to translate all the concern and anger over this issue into 
policies and procedures that can yet vindicate what the public airwaves 
can do for us all. We need to do this now.
    This hearing is a public service and I appreciate the opportunity 
to testify. I am pleased that this Committee is on the job and has 
already demonstrated its commitment and leadership on several of the 
specific items I have discussed here this morning. I look forward to 
hearing your comments and further thoughts on all this.

    The Chairman. Thank you very much.
    Mr. Martin?

       STATEMENT OF HON. KEVIN J. MARTIN, COMMISSIONER, 
               FEDERAL COMMUNICATIONS COMMISSION

    Commissioner Martin. Thank you, Mr. Chairman and 
distinguished Members, for the invitation to be with you this 
morning.
    Most consumers today can choose among hundreds of 
television channels, including some of the best programming 
ever produced. But television today also contains some of the 
coarsest and most violent programming ever aired, and, 
unfortunately, more and more of it. Indeed, the networks appear 
to be increasing the amount of programming designed to push the 
envelope and the bounds of decency.
    For instance, a recent study found that the use of 
profanity during the family hour had increased 95 percent from 
1998 to 2002. At the FCC, we used to receive indecency 
complaints by the hundreds. Now they come in by the hundreds of 
thousands. Clearly, consumers, and particularly parents, are 
increasingly frustrated and, at times, outraged. Parents who 
want to watch television together with their children too often 
feel they have too little to watch, and the broadcast networks 
become edgier to compete with cable. Prime time on broadcast 
television has become less family friendly.
    Cable and satellite television offer some great family 
oriented choices, but parents cannot subscribe to those choices 
alone; rather, they are forced to buy the channels they do not 
want their families to view in order to obtain the family 
friendly channels they desire. They must buy the Touch the 
Hooker episode of Spike TV's Joe Schmo show in order to get the 
Discovery Channel. We need to provide parents with better tools 
to help them navigate the entertainment waters.
    A year ago, I wrote a law review article about the need to 
provide parents such tools, and I request that the article be 
submitted into the record today. I'm even more concerned about 
this issue today.
    I support Chairman Powell and his recent efforts with 
respect to the Super Bowl halftime show. I also agree with him 
that the enforcement bureau is wrong when it finds profanities 
acceptable merely because they are used as adjectives. I also 
agree with him that our Nation's children, parents, and 
citizens deserve better. We, at the FCC, can be more responsive 
to these complaints and frustrations. We need to provide 
parents with more tools to enable them to watch television as 
families and to protect their children from violent and 
indecent programming.
    We need to do more. And I believe there are four steps we 
should take now to begin to address this problem. First, we 
should more aggressively enforce the law. Congress has charged 
the Commission with protecting families from obscene, indecent, 
and profane material. Our rules need to serve as a significant 
deterrent to media companies considering the airing of such 
programming. And to achieve that goal, we need serious fines 
coupled with aggressive enforcement. I strongly support the 
pending legislation to increase fines for airing inappropriate 
material. Indeed, in almost every indecency case that has come 
before us, I have found the fine inadequate and urged the 
Commission to do more. In fact, I have argued that there is 
action we can take now, within our existing authority, to get 
tougher on broadcasters who violate the law.
    Last March, I began urging the Commission to use our full 
statutory authority to fine broadcasters per utterance, rather 
than per show. Using this approach, I would have fined the 
Detroit Radio Show, for example, $247,000, instead of only 
$27,000 last year.
    In addition, the FCC should use its statutory authority to 
address the broadcast of profanity. The indecency statute we 
enforce prohibits obscene, indecent, and profane language. 
Profanity on television and radio appears to be widespread, yet 
I have not found even a single instance in which the Commission 
concluded a broadcast was profane.
    Finally, we should respond to the thousands of complaints 
that are pending, and make quick responses a matter of course 
and within a specific deadline.
    Two, we should affirm the local broadcaster's ability to 
reject inappropriate programming. Several years ago, local 
broadcasters complained that the networks were restricting 
their ability to reject inappropriate programming. This ability 
is critical to those local broadcasters that want to keep 
coarser programming off the air in their communities. In this 
respect, the affiliates provide a natural check on the control 
of network programming in the marketplace rather than through 
the direct government oversight of network content. We should 
clarify immediately that local broadcasters have, not only this 
opportunity, but this obligation of serving their local 
communities.
    Third, we should urge broadcasters to reinstate the family 
hour. Over a year ago, I called on broadcasters to reestablish 
the family hour, devoting the first hour of prime time to 
family friendly programs that parents and children could enjoy 
together. Such a family hour used to be standard. But when the 
broadcasters' old code of conduct was abandoned, the family 
hour went with it. And broadcasters should bring back this 
family time.
    While I will continue to call for the industry to action, 
the industry can take action on its own. A year ago, Paxson 
Communication urged the Commission to issue a notice on a 
public interest code of conduct, which included the concept of 
a family hour. We should put this request out for comment and 
publicly endorse the concept of a family hour and the 
importance of it.
    Fourth, we should address cable and satellite programming. 
Broadcast cannot be the end of the story. Children today do not 
distinguish between channels 4 and 40. In a world in which more 
than 85 percent of homes receive their television programming 
from cable and satellite providers, we need a comprehensive 
solution. Over a year ago, I urged cable and satellite 
operators to take action. I continue to believe something needs 
to be done to address this issue.
    As I have suggested, I think cable and satellite operators 
could offer an exclusively family friendly programming tier as 
an alternative to the expanded basic tier on cable or the 
initial tier on DBS. Parents could get Nickelodeon and 
Discovery without having to buy MTV and other adult-oriented 
fare. A choice of a family friendly package would provide 
valuable tools to parents wanting to watch television with 
their families, and it would help them protect their children 
from violent and indecent programming.
    Alternatively, cable and DBS operators could offer 
programming in a more a la carte manner. For example, they 
could permit parents to request not to receive certain 
channels, and reduce the package price accordingly.
    Finally, I am sympathetic to many people asking why our 
indecency regulations apply only to broadcast. Indeed, today 
programming that broadcast networks reject because of concerns 
about content may end up competing on basic cable networks, and 
radio personalities that we have fined for indecency violations 
have just moved to satellite radio.
    Increasingly, I hear a call for the same rules to apply to 
everyone for a level playing field. If cable and satellite 
operators continue to refuse to offer parents more tools, basic 
indecency and profanity restrictions may be a viable 
alternative that should be considered.
    In conclusion, I share your concern about the increase in 
coarse programming on television and radio today, and I believe 
something needs to be done. I hope that the proposals for 
action that I have made today can help, and I welcome your 
guidance.
    Thank you, and I look forward to your questions.
    [The prepared statement of Commissioner Martin follows:]

       Prepared Statement of Hon. Kevin J. Martin, Commissioner, 
                   Federal Communications Commission
    Thank you for this invitation to be here with you this morning. I 
look forward to listening to your comments and to answering any 
questions you may have.
    Most consumers today can choose among hundreds of television 
channels, including some of the best programming ever produced. But 
television today also contains some of the coarsest and most violent 
programming ever aired--and, unfortunately, more and more of it. 
Indeed, the networks appear to be increasing the amount of programs 
designed to ``push the envelope''--and the bounds of decency. For 
instance, a recent study found that the use of profanity during the 
``Family Hour'' increased 95 percent from 1998 to 2002.\1\ Another 
study found that two-thirds of television shows in the 2001-2002 season 
had sexual content.\2\ This trend becomes even more disturbing in light 
of the studies that have documented the harm that such programming, 
particularly violent television, can have on young people. At the FCC, 
we used to receive indecency complaints by the hundreds; now they come 
in by the hundreds of thousands. Clearly, consumers--and particularly 
parents--are increasingly frustrated and, at times, outraged.
---------------------------------------------------------------------------
    \1\ See Nell Minow, ``Standards for TV language rapidly going down 
the tube,'' Chicago Tribune, Oct. 7, 2003 at C2 (discussing study by 
the Parents Television Council)..
    \2\ Kaiser Family Foundation, ``Sex On Television 3: Content And 
Context, Biennial Report Of The Kaiser Family Foundation'' at 14 (Feb. 
2003).
---------------------------------------------------------------------------
    Parents who want to watch television together with their children 
too often feel that, despite the large number of viewing choices, they 
have too little to watch. As the broadcast networks become ``edgier'' 
to compete with cable, prime time on broadcast television has become 
less family friendly. Cable and satellite television offer some great 
family-oriented choices, but parents cannot subscribe to those channels 
alone. Rather, they are forced to buy the channels they do not want 
their families to view in order to obtain the family-friendly channels 
they desire (e.g., they must buy the ``Touch the Hooker'' episode of 
Spike TV's Joe Schmo show in order to get the Discovery Channel).
    We need to provide parents with better tools to help them navigate 
the entertainment waters. A year ago, I gave a speech and wrote an 
article about the need to provide parents such tools, and I have 
attached that article for your consideration. I am even more concerned 
about this issue today.
    I support Chairman Powell and his recent efforts with respect to 
the Super Bowl half time show. I also agree with Chairman Powell that 
the Enforcement Bureau is wrong when it finds profanities acceptable 
merely because they are used as adjectives. I also agree with him that 
our Nation's children, parents and citizens deserve better.
    We at the FCC can be more responsive to these complaints and 
frustrations. We need to provide parents with more tools to enable them 
to watch television as a family and to protect their children from 
violent and indecent programming. We need to do more. I believe there 
are four steps we should take now to begin to address this problem.
    1. We Should Aggressively Enforce the Law. Congress has charged the 
Commission with protecting families from obscene, indecent, and profane 
material. Our rules need to serve as a significant deterrent to media 
companies considering the airing of such programming. To achieve that 
goal, we need serious fines coupled with aggressive enforcement.
    I strongly support the pending legislation to increase fines for 
airing inappropriate material, and I believe such authority is critical 
to making the decision to air indecent or profane language a bad 
business decision. Indeed, in almost every indecency case that has come 
before us, I have found the fine inadequate and urged the Commission to 
do more. I have argued that there is action we can take now--within our 
existing authority--to get tougher on broadcasters who violate the law. 
Last March, I began urging the Commission to use our full statutory 
authority to fine broadcasters ``per utterance,'' rather than per show. 
Using such an approach, the fines I proposed were several times higher 
than the fines the majority imposed. For instance, in a Notice of 
Apparent Liability from last April dealing with a Detroit radio show, 
the fine would have been $247,500 instead of only $27,500; in the most 
recent Notice of Apparent Liability against Clear Channel, the fine 
would have been well over a million dollars.
    In addition, the FCC should use its statutory authority to address 
the broadcast of profanity. The indecency statute we enforce prohibits 
``obscene, indecent and profane language,'' but the Commission appears 
to have read the last word out of the statute. I have not yet found 
even a single instance in which the Commission concluded a broadcast 
was profane. Yet, profanity on television and radio appears to be 
widespread.
    Finally, we should respond to the thousands of complaints that are 
pending--and make quick responses a matter of course. Last year, the 
Commission and the Enforcement Bureau combined issued only three 
notices of liability, and only one forfeiture order. Yet we received 
tens of thousands of complaints. It doesn't matter how tough our fining 
authority is if we don't actually enforce the rules. Consumers should 
not have to wait years to have their complaints heard. And broadcasters 
should expect that if they violate our rules, we will respond swiftly.
    2. We Should Affirm Local Broadcasters' Ability to Reject 
Inappropriate Programming. Several years ago, local broadcasters, 
through the Network Affiliated Stations Alliance, complained that the 
networks were restricting their ability to reject inappropriate 
programming. They asked us to clarify our rules and reaffirm this right 
and responsibility. Our rules should protect a broadcaster's ability to 
refuse to air programming that is unsuitable for its local community. 
This ability is critical to those local broadcasters that want to keep 
coarser network programming off the air in their communities. Last 
week, for example, there were news reports of ABC, CBS, and NBC 
affiliates pressuring their networks to use tape delays in upcoming 
Awards shows and not to air certain programming so that indecent 
material and profanity could be avoided. In this respect, the 
affiliates provide a natural check on the control of network 
programming in the marketplace, rather than through direct government 
oversight of network content. We should grant the broadcasters' 
request, clarifying immediately that local broadcasters have this 
opportunity--and obligation--when serving their local communities.
    3. We Should Urge Broadcasters to Reinstate the Family Hour. Over a 
year ago, I called on broadcasters to reestablish the Family Hour, 
devoting the first hour of prime time to family-friendly programs that 
parents and children could enjoy together. Such a Family Hour used to 
be standard and was even incorporated into the National Association of 
Broadcasters' Code of Conduct. When the Code was abandoned due to 
unrelated antitrust concerns, the Family Hour went with it. 
Broadcasters should bring back the Family Hour. They should give 
families at least one hour, five days a week, when they can turn to 
broadcast television with comfort, confidence, and enthusiasm.
    While I will continue to call for this industry action, the 
Commission can take action on its own. A year ago, Paxson 
Communications urged the Commission to issue a notice on a voluntary 
``Public Interest Code of Conduct,'' which included the concept of a 
Family Hour. Broadcasters could voluntarily opt into this Code and the 
accompanying public commitments. The Code also could include a 
commitment to provide a certain amount of family programming and to 
limit coarse programming to certain hours. We should put this request 
out for comment and publicly endorse the importance of the Family Hour. 
Such a voluntary code could serve as an easy indicator for parents 
searching for a way to determine which channels are appropriate for 
family viewing.
    4. We Should Address Cable and Satellite Programming. I believe the 
previous steps could help address the amount of indecent and otherwise 
coarse programming on broadcast television, but broadcast cannot be the 
end of the story. Today, children do not distinguish between channels 4 
and 40, and cable and broadcast programming compete aggressively for 
the same viewers and advertisements. In a world in which more than 85 
percent of homes receive their television programming from cable and 
satellite providers, we need a comprehensive solution.
    Over a year ago, I urged cable and satellite operators to take 
action. Thus far, there has been no response. I continue to believe 
something needs to be done to address this issue.
    As I suggested, cable and satellite operators could offer an 
exclusively family-friendly programming package as an alternative to 
the ``expanded basic'' tier on cable or the initial tier on DBS. This 
alternative would enable parents to enjoy the increased options and 
high-quality programming available through cable and satellite without 
having to purchase programming unsuitable for children. Parents could 
get Nickelodeon and Discovery without having to buy MTV and other 
adult-oriented fare. A choice of a family friendly package would 
provide valuable tools to parents wanting to watch television with 
their families, and would help them protect their children from violent 
and indecent programming. Other subscribers, meanwhile, could continue 
to have the same options they have today.
    Alternatively, cable and DBS operators could offer programming in a 
more a la carte manner. For example, they could permit parents to 
request not to receive certain channels and reduce the package price 
accordingly. Under this second option as well, parents would be able to 
receive (and pay for) only that programming that they are comfortable 
bringing into their homes.
    Finally, I am sympathetic to the many people asking why our 
indecency regulations apply only to broadcast. Indeed, today 
programming that broadcast networks reject because of concerns about 
content may end up on competing basic cable networks, and radio 
personalities that we have fined for indecency violations just move to 
satellite radio. Increasingly, I hear a call for the same rules to 
apply to everyone--for a level playing field. If cable and satellite 
operators continue to refuse to offer parents more tools such as 
family-friendly programming packages, basic indecency and profanity 
restrictions may be a viable alternative that also should be 
considered.
    In conclusion, I share your concern about the increase in coarse 
programming on television and radio today. Something needs to be done. 
I hope that the proposals for action that I have made today can help. I 
also welcome your guidance.
    Thank you, and I look forward to answering any questions you may 
have.
                                 ______
                                 

              Federal Communications Law Journal--May 2003

     Family-Friendly Programming: Providing More Tools for Parents

                      Kevin J. Martin <SUP>*</SUP>
---------------------------------------------------------------------------

    \*\ Commissioner, Federal Communications Commission. Commissioner 
Martin was nominated to be a member of the FCC by President George W. 
Bush on April 30, 2001, and was sworn in on July 3, 2001. Mr. Martin 
serves a five-year term expiring in June 2006. The Author thanks 
Catherine Bohigian, his legal advisor on media issues, for her 
assistance on the preparation of this Essay.
---------------------------------------------------------------------------
    Since then-Chairman of the Federal Communications Commission Newton 
Minow dubbed television a ``vast wasteland'' in 1961, the medium has 
changed dramatically. Consumers today have so many programs from which 
to choose that the complaint is rarely a lack of high-quality 
television shows. Rather, the concern for many consumers is how to 
navigate these teeming waters. This course-plotting can be a particular 
challenge for parents who desire to watch television together with 
their children. I therefore encourage the television industry to 
provide these parents more navigational tools.
    Consumers today have exponentially more viewing options, and they 
can choose from a remarkable array of programs, both on broadcast and 
on subscription television. They can view these programs using digital 
technology that produces a crisp, clear color picture far surpassing 
the fuzzy black-and-white world of 1961. Importantly, the burgeoning 
competition among television networks has resulted in some of the best 
programming ever produced. It also has enabled such diversity that 
niche channels, which devote 100 percent of their time to science, art, 
or history, can be successful.
    Television today, however, also presents some of the coarsest 
programming ever aired. Parents who want to watch television together 
with their children too often feel that, despite the increased number 
of viewing choices, they have too little to watch. Prime time on 
broadcast television has become less family friendly. Cable and Direct 
Broadcast Satellite (``DBS'' or ``satellite'') do offer new family-
oriented choices, but parents cannot subscribe to those channels alone. 
Rather, they must take the channels they do not want their families to 
view along with the Disney Channel and Discovery Channel.
    I believe it is time for our culture to rethink our approach to 
family-friendly programming. Parents should have the tools to help 
their children take advantage of the good that television can offer. 
Certainly, broadcasters, cable, and satellite operators enjoy 
significant First Amendment rights to choose the content they deliver 
to our homes. But these companies can take it upon themselves to 
improve the tools they provide parents, so that parents are able to 
enjoy the diversity television today has to offer, yet still protect 
their children from content they believe inappropriate for family 
viewing.
    I therefore propose two challenges to the industry: I urge 
broadcasters to create a ``Family Viewing Hour'' during the first hour 
of prime time. I also urge cable and satellite operators to offer a 
family-friendly programming package. Together, these steps would 
empower parents and enhance the value that television can offer.
Marketplace Developments
    When Chairman Minow observed a ``vast wasteland,'' consumers 
generally had three choices for television programming--ABC, NBC, and 
CBS--and thus these three national broadcast networks dominated the 
television marketplace.\1\ Even with the few independent stations 
available in some of the larger markets, television audiences were 
presented with a limited amount of viewing options. Cable television, 
formerly known as Community Antenna Television (or CATV), was still in 
its infancy; by 1963, about 1 million homes subscribed to cable,\2\ but 
the service was largely used to extend the reach of broadcast signals, 
not to offer different programming.
---------------------------------------------------------------------------
    \1\ C. Edwin Baker, Media Concentration: Giving Up on Democracy, 54 
Fla. L. Rev. 839, 867 (2002).
    \2\ Cable History, The Cable Center, http://www.cablecenter.org/
history/timeline/decade.cfm?start=1960 (last visited Feb. 27, 2003).
---------------------------------------------------------------------------
    Over the last four decades, the television landscape has changed 
dramatically. Broadcast television options have grown considerably. 
Just since 1980, the number of full-power television stations has 
increased almost 70 percent.\3\ With the introduction of the Fox 
Television network in 1986, the collection of dominant networks--once 
known as the ``Big Three''--became referred to as the ``Big Four.'' The 
path then was paved for the entrance of additional new networks. In 
January 1995, the fifth and sixth networks were born: Turner 
Broadcasting System launched the WB Network, and Paramount Television 
launched the United Paramount Network (``UPN''). These networks 
currently reach 88 percent and 97 percent of U.S. television homes, 
respectively.\4\ More recently, Paxson Communications launched PAX TV 
in 1998, reaching 85 percent of the country.\5\
---------------------------------------------------------------------------
    \3\ 2002 Biennial Reg. Review Before the FCC--Review of the 
Comm'n's Brdcst. Ownership Rules and Other Rules Adopted Pursuant to 
Section 202 of the Telecomms. Act of 1996, Notice of Proposed 
Rulemaking, 17 F.C.C.R. 18503, para. 53 (2002) [hereinafter 2002 
Review].
    \4\ See WB Website, at http://www2.warnerbros.com/web/all/link/
partner.jsp?url=http://www.thewb.com (last visited Feb. 27, 2003); 
Viacom Website, at http://www.viacom.com/thefacts.tin (last visited 
Feb. 27, 2003).
    \5\ See Pax Communications Website, at http://www.pax.tv/about/ 
(visited Feb. 27, 2003).
---------------------------------------------------------------------------
    The current transition to digital television now offers viewers not 
only more choices, but new opportunities. Broadcasters are beginning to 
take advantage of the many benefits digital will bring to consumers--a 
markedly sharper picture resolution and better sound; an astounding 
choice of video programming, including niche programs and movies on 
demand; CD-quality music channels of all genres; interactivity; 
sophisticated program guides; and new, innovative services.
    The most remarkable development since the 1960s, however, may be 
the explosion in the number of television networks, made possible by 
the development of multi-channel video programming distributors 
(``MVPDs''), including cable and satellite.\6\ Today consumers can 
choose among more than 230 national cable networks and more than 50 
regional networks--an almost unimaginable sum to a television viewer of 
the 1960s.\7\
---------------------------------------------------------------------------
    \6\ In addition to cable and satellite, MVPD technologies include 
home satellite dishes, wireless cable systems, and satellite master 
antenna television systems.
    \7\ 2002 Review, supra note 3, para. 25.
---------------------------------------------------------------------------
    In addition, the number of households accessing these multi-channel 
services has increased significantly since the 1960s. In 1976, there 
were still only 17 percent of U.S. households--fewer than 10 million 
homes--served by cable.\8\ By 2002, cable reached 96 percent of 
television viewing homes, with 73 million subscribers.\9\ DBS is 
available nationwide and now has nearly 19.8 million subscribers.\10\ 
Today, 85.3 percent of households subscribe to a MVPD.\11\
---------------------------------------------------------------------------
    \8\ Florence Setzer & Jonathon Levy, Broadcast Television in a 
Multichannel Marketplace, OPP Working Paper No. 26, 6 F.C.C.R. 3996, 
4008-09 (providing percentage of homes served by cable); HBO, Inc. v. 
FCC, 567 F.2d 9, 24 (D.C. Cir.), cert. denied, 434 U.S. 829 (1977) 
(providing number of households served by cable).
    \9\ Cable History, The Cable Center, at http://www.cablecenter.org/
history/index.cfm (last visited Feb. 27, 2003).
    \10\ Satellite TV Subscriber Counts, Sky Report, at http://
www.skyreport.com/dth_counts.htm (last visited Feb. 27, 2003).
    \11\ Annual Assessment of the Status of Competition in the Mkt. for 
the Delivery of Video Programming, Ninth Annual Report, 28 Comm. Reg. 
(P & F) 159, para. 5 (2002) [hereinafter Ninth Video Competition 
Report].
---------------------------------------------------------------------------
    Long gone are the days when broadcasters commanded 100 percent of 
the viewing audience. From July 2001 to June 2002, broadcast television 
averaged only a 53.0 audience share, while cable networks' share had 
increased to 58.3.\12\ Other sources indicate the shift may be even 
more dramatic, with broadcast drawing only 37 percent, and cable 
programming drawing 53 percent of TV viewers.\13\ Nevertheless, the 
role of television broadcasters remains a significant one. Broadcast 
television has lost its monopoly on the viewing audience. Meanwhile, 
the broadcast networks, with only a handful of channels, continue to 
rival the cable networks for viewers, particularly during prime time, 
the period during which the American television audience is at its 
highest.\14\
---------------------------------------------------------------------------
    \12\ Id. para. 24 (citing Nielsen Media Research, Total Day 24 
Hours 6 am-6 am: Total U.S. Ratings by Viewing Source July 2000-June 
2002, Oct. 2002). ``A share is the percent of all households using 
television during the time period that are viewing the specified 
station(s) or network(s). The sum of reported audience shares exceeds 
100 percent due to simultaneous multiple set viewing.'' Id. para. 24 
n.39.
    \13\ Charlie McCollum, Network Programs Play it Safe: Familiar 
Formulas--Family Comedies, Cop Dramas--Dominate; Some Shows Are 
Outright Remakes, San Jose Mercury News, Sept. 15, 2002. The varying 
numbers may be due to the rise and fall of broadcast audience during 
different parts of the television season.
    \14\ Between July 2001 and June 2002, broadcast television averaged 
a 59.4 audience share during prime time; cable averaged a 56.5 share. 
Ninth Video Competition Report, supra note 11, para. 24 (citing Nielsen 
Media Research, Primetime Monday-Saturday 8-11 PM Sunday 7-11 PM: Total 
U.S. Ratings by Viewing Source July 2000-June 2002, Oct. 2002).
---------------------------------------------------------------------------
    In summary, the advances in television and the development of 
competing providers of video programming have resulted in unprecedented 
choice for consumers, particularly the vast majority that subscribe to 
a MVPD. Moreover, some of the best television ever produced is aired 
today. Yet, as discussed below, the picture is not entirely rosy. For 
families, the situation can be somewhat of a Catch-22. If you subscribe 
to a MVPD, you can get a significant selection of high-quality, family-
friendly programming, but you also are forced to buy some of the most 
family-unfriendly programming produced for television. If you take the 
route of allowing only broadcast television into your home, you avoid 
some of the programming that may concern you the most, but your 
primetime viewing options as a family may be few and shrinking, and you 
will have missed out on the great programming that cable and satellite 
have to offer. As I explain below, broadcasters and MVPD operators can 
help parents out of this situation, and I urge them to do so.
Broadcast Challenge: Family Viewing Hour
    To the dismay of many parents, the increased competition for 
viewership has led broadcasters to increase markedly the amount of 
coarse programming and decrease the family-friendly programming they 
provide their viewers. This shift is particularly notable during 
primetime viewing hours, when families are most likely to gather around 
the television together.
    Studies have documented this unfortunate trend. A report on the 
1999-2000 television season found that two out of every three shows 
included sexual content, an increase from about half of all shows 
during the 1997-1998 season.\15\ The subsequent report for the 2001-
2002 season revealed that the amount of sexual content on television 
remained high, with two-thirds of all shows continuing to include some 
sexual content.\16\ Another organization reports that from the fall 
1989 season to the fall 1999 season, the incidence of sexual material, 
coarse language, and violence during prime time increased three-
fold.\17\
---------------------------------------------------------------------------
    \15\ Kaiser Family Found., Sex on TV(2): A Biennial Report to the 
Kaiser Family Foundation 16-18 (Feb. 2001), available at http://
www.kff.org.
    \16\ Kaiser Family Found., Sex on Television 3: Content and 
Context, Biennial Report of the Kaiser Family Foundation 14 (Feb. 
2003).
    \17\ Press Release, Parents Television Council, What a Difference a 
Decade Makes: A Comparison of Prime Time Sex, Language, and Violence in 
1989 and '99 (Mar. 30, 2000), available at http://www.parentstv.org/
PTC/publications/release/2000/pr033000.asp.
---------------------------------------------------------------------------
    As a result, parents wanting to watch broadcast television with 
their children at the end of the day--when most viewers do still turn 
to broadcast television--may feel like they have fewer options, despite 
all the growth over the last decades. I do not dispute that parents 
could respond by turning the television off, but there should be a 
better answer. Accordingly, I challenge broadcasters to devote the 
first hour of prime time to family-friendly programs--programs that 
parents and children can enjoy together.\18\
---------------------------------------------------------------------------
    \18\ The Family Friendly Programming Forum, a group of more than 40 
major national advertisers, defines family-friendly programs as those 
which are ``relevant and interesting to a broad audience; contain no 
elements that the average viewer would find offensive or that the 
average parent is embarrassed to see with children in the room, and 
ideally embody an uplifting message.'' Family Friendly Programming 
Forum Website, Questions/Answers, at http://www.ana.net/family/
default.htm (last visited Feb. 27, 2003).
---------------------------------------------------------------------------
    The notion of a family-oriented viewing hour is not a new one. In 
fact, lawmakers, regulators, and members of the television industry 
recognized such a need almost thirty years ago. In 1974, the Federal 
Communications Commission (``FCC'') received nearly 25,000 complaints 
about violent or sexually oriented programming.\19\ That same year, 
responding in part to a finding by the Surgeon General about the 
adverse effects of televised violence on certain members of 
society,\20\ Congress instructed the FCC to outline actions it had 
taken or planned to take to protect children from excessive violence 
and obscenity.\21\ The FCC staff recommended several options, including 
issuing notices of inquiry, notices of proposed rulemaking, and policy 
statements.\22\ Then-Chairman Wiley, concerned that such formal 
measures by the FCC could pose significant First Amendment concerns, 
opted instead to encourage industry representatives to take voluntary 
actions to regulate the amount of violent or sexually oriented content 
that aired during those hours when children normally watch 
television.\23\
---------------------------------------------------------------------------
    \19\ Report on the Brdcst. of Violent, Indecent, and Obscene 
Material, Report, 51 F.C.C.2d 418, 419, 32 Rad. Reg.2d (P & F) 1367 
(1975) [hereinafter Report]; Writers Guild of Am. v. ABC, 609 F.2d 355, 
359 (9th Cir. 1979).
    \20\ See generally Surgeon General's Report by the Scientific 
Advisory Committee on Television and Social Behavior: Hearing Before 
the Senate Comm. on Commerce, Subcomm. on Communications, 92d Cong., 2d 
Sess. (1972).
    \21\ H.R. Rep. No. 93-1139, 93d Cong., 2d Sess. 15 (1974); S. Rep. 
No. 93-1056, at 19 (1974) (these two reports were issued during 
congressional debates on the appropriations legislation for Fiscal Year 
1975, Pub. L. No. 93-414).
    \22\ Writers Guild of Am., 609 F.2d at 359.
    \23\ Id.
---------------------------------------------------------------------------
    In April 1975, the National Association of Broadcasters (``NAB'') 
responded to the growing concern about television content by announcing 
a family viewing policy, which it incorporated into the NAB Code of 
Conduct for Television.\24\ The family viewing amendment provided in 
relevant part that ``entertainment programming inappropriate for 
viewing by a general family audience should not be broadcast during the 
first hour of network entertainment programming in prime time and in 
the immediately preceding hour.'' \25\
---------------------------------------------------------------------------
    \24\ The Writers Guild of America brought an action against the 
major networks and the FCC challenging the validity of the family 
viewing policy. Writers Guild of Am. v. FCC, 423 F. Supp. 1064 (C.D. 
Cal. 1976). Although the District Court found that the FCC (through the 
statements of the Chairman) had violated the First Amendment and the 
Administrative Procedure Act (``APA''), the Ninth Circuit Court vacated 
this judgment on jurisdictional grounds and remanded the case back to 
the FCC. Writers Guild of Am., 609 F.2d at 356. Although the appellate 
court did not rule on the First Amendment issue, language from the 
holding suggests that even an FCC-mandated family viewing hour might be 
constitutionally permissible:

    It simply is not true that the First Amendment bars all limitations 
of the power of the individual licensee to determine what he will 
transmit to the listening and viewing public. At issue in this case is 
whether a family viewing hour imposed by the FCC would contravene the 
First Amendment. This is a considerably more narrow and precise issue 
than is the district court's bedrock principle and with respect to 
which the FCC's expertise and procedures could provide enormous 
assistance to the judiciary.

    Id. at 364. On remand, the FCC concluded that the NAB freely and 
voluntarily had chosen to adopt the family viewing policy as part of 
its code, and therefore the informal FCC action did not violate the 
First Amendment or the APA. Primary Jurisdiction Referral of Claims 
Against Gov't Defendant Arising from the Inclusion in the NAB TV Code 
of the ``Family Viewing Policy,'' Report, 95 F.C.C.2d 700 (1983). This 
ruling was not challenged.
    \25\ Writers Guild of Am., 609 F.2d at 358 n.2. The amendment 
continued:

    In the occasional case when an entertainment program in this time 
period is deemed to be inappropriate for such an audience, advisories 
should be used to alert viewers. Advisories should also be used when 
programs in later prime time periods contain material that might be 
disturbing to significant segments of the audience.

    These advisories should be presented in audio and video form at the 
beginning of the program and when deemed appropriate at a later point 
in the program. Advisories should also be used responsibly in 
promotional material in advance of the program. When using an advisory, 
the broadcaster should attempt to notify publishers of television 
program listings.

    Special care should be taken with respect to the content and 
treatment of audience advisories so that they do not disserve their 
intended purpose by containing material that is promotional, 
sensational or exploitative. Promotional announcements for programs 
that include advisories should be scheduled on a basis consistent with 
the purpose of the advisory.
    Writers Guild of Am., 609 F.2d at 358 n.2.
---------------------------------------------------------------------------
    In 1983, the Department of Justice brought suit against the NAB, 
challenging the NAB Code on antitrust grounds.\26\ Although the suit 
involved only the code's restrictions on television commercials,\27\ 
the NAB Board of Directors ultimately cancelled the Code of Conduct in 
its entirety, eliminating all regulations--even those not addressed by 
the suit, such as those dealing with violent, indecent, and sexually 
explicit content. The requirements for a family viewing hour were 
thereby rescinded.
---------------------------------------------------------------------------
    \26\ United States v. NAB, 536 F. Supp. 149 (D.D.C. 1982).
    \27\ Id.
---------------------------------------------------------------------------
    Recently, there have been efforts to reinstitute family viewing 
policies. In 2001, twenty-eight members of Congress signed a letter to 
the presidents of the major television broadcast networks asking them 
to voluntarily restore the Family Hour.\28\ That same year, Senator 
Brownback introduced a bill whose express purpose was to ``permit the 
entertainment industry . . . to develop a set of voluntary programming 
guidelines similar to those contained in the Television Code of the 
National Association of Broadcasters.'' \29\
---------------------------------------------------------------------------
    \28\ Press Release, Office of Representative Chris Smith, Smith 
Rallies Congressional Backing for Family Friendly TV Programming (Oct. 
5, 2001), available at http://www.house.gov/chrissmith/press2001/
pr1005001tvfamilyhour.html.
    \29\ Children's Protection Act of 2001, S. 124, 107th Cong. 
Sec. 3(a) (2001).
---------------------------------------------------------------------------
    Advertisers also are taking steps to encourage the development of 
family-friendly programming. A group of more than forty major national 
advertisers, working through the Association of National Advertisers, 
have formed the Family Friendly Programming Forum to address two 
concerns: ``the dwindling availability of family friendly television 
programs during prime viewing hours''; and ``the TV imagery, role 
models, themes and language to which our young people are exposed.'' 
\30\ The Forum has begun a concerted effort to encourage the 
entertainment community to provide ``more movies, series, documentaries 
and informational programs, aired between 8:00 and 10:00 p.m., that are 
relevant and interesting to a broad audience and that parents would 
enjoy viewing together with a child.'' \31\ This effort includes a 
script development fund--in which CBS, ABC, NBC, and WB participate--to 
finance new family-friendly television scripts, a scholarship program 
for students who work on family-friendly projects, and the Annual 
Family Television Awards to recognize outstanding family television. I 
applaud the work the Forum is doing, and I congratulate the winners of 
the most recent awards, as well as the networks that aired the shows: 
CBS (three awards), WB (two awards), ABC (two awards), and PBS (one 
award).\32\
---------------------------------------------------------------------------
    \30\ Family Friendly Programming Forum Website, FFP Mission, at 
http://familyprogram
awards.com (last visited Feb. 27, 2003).
    \31\ Id.
    \32\ Id. at Family TV Awards.
---------------------------------------------------------------------------
    Even more promising, ABC appears to be embracing the idea of the 
family viewing hour. This year it launched its ``happy-hour'' strategy, 
in which the network airs family-friendly programs from 8 p.m. to 9 
p.m., in an attempt to capture a broad family audience. The reception 
thus far has been positive, as the network has rebounded from a 23 
percent drop in viewership last season.\33\
---------------------------------------------------------------------------
    \33\ Associated Press, ABC Gets a Feliz Navidad, Newsday, Dec. 11, 
2002, at B31.
---------------------------------------------------------------------------
    In sum, I believe a voluntary commitment by broadcasters to devote 
the first hour of prime time to family-friendly programming will be 
good for families (and, one might think, good for business, as well). I 
urge broadcasters to join this endeavor and collectively create at 
least one hour, five days a week, when a family can turn to broadcast 
television with comfort, confidence, and enthusiasm.
Cable and Satellite Challenge: Family-Friendly Programming Package
    Broadcast, however, cannot be the end of the story. In a world in 
which more than 85 percent of homes receive their television 
programming through pay-TV, programming from these distributors clearly 
has become pervasive. I believe cable and satellite, too, must rethink 
their level of responsibility to the viewing public.
    Certainly, cable and satellite operators carry a significant amount 
of family-friendly programming. In fact, these providers offer parents 
more options than ever before, such as Disney Channel, Nickelodeon, ABC 
Family, Discovery Channel, The History Channel, and Hallmark Channel. 
Thus, at all hours of the day, households that subscribe to these 
services should be able to find programming that is suitable for 
parents and children alike.
    Unfortunately, that does not mean that subscription to a pay-TV 
service is the complete solution. Because of the practice of 
``packaging'' channels, when a parent purchases these services, that 
parent necessarily buys a number of channels that are not intended for 
children.
    The advent of technological tools that could block objectionable 
content was hailed as a potential panacea to this problem. The V-chip 
(``violence'' chip), introduced in 1999, allows parents to use a rating 
system to block a significant set of programs with violent or sexual 
content. Since January 2000, the V-chip has been included in all new 
television sets larger than 13 inches. To date, however, the V-chip has 
not been as effective as its supporters had hoped. Recent studies have 
shown that few parents know about the V-chip, and far fewer have 
figured out how to make it work. Although more than 40 percent of 
American parents now own a television equipped with a V-chip, less than 
7 percent of those parents use it to block programs with violent or 
sexual content.\34\ Thus, while the V-chip ultimately may prove to be 
an effective long-term solution, it currently is not serving as an 
effective tool for parents.
---------------------------------------------------------------------------
    \34\ News Release, Kaiser Family Foundation, Few Parents Use V-chip 
to Block TV Sex and Violence, but More Than Half Use TV Ratings to Pick 
What Kids Can Watch (July 24, 2001), available at http://www.kff.org/
content/2001/3158/V-Chip%20release.htm.
---------------------------------------------------------------------------
    Digital cable and satellite systems offer another tool for parents 
to protect their children from certain content. Most providers employ 
technology that enables a parent to limit access to whole channels 
through use of a password. Fortunately, this function appears to be 
easier to use than the V-chip. The number of digital cable and 
satellite subscribers, however, is still relatively small. As a result, 
it is still too soon to know whether most parents will actually learn 
about this technology, whether they will use it, or whether it will be 
circumvented too easily.
    Accordingly, many parents today still may have concerns about 
purchasing cable or satellite services. While most still choose to 
subscribe, they nevertheless remain concerned about much of the 
immediately accessible content. I therefore believe cable and satellite 
operators would provide a valuable service to American families if they 
would offer an exclusively family-friendly programming package as an 
alternative to the ``expanded basic'' on cable, or the initial tier on 
DBS.\35\ Existing family-oriented premium channels could be offered as 
well, either as part of the package or as an additional purchase. As a 
result, subscribers who are interested only in programming that they 
can enjoy with their family would finally have a way to purchase only 
that programming. Other subscribers, meanwhile, could continue to have 
the same options they have today.
---------------------------------------------------------------------------
    \35\ The existing package or ``tier'' could remain the same; the 
operator could merely select certain family-friendly channels from the 
existing tier and also offer them as a standalone ``family-friendly'' 
alternative package. An analogy could be made to the way cable 
operators package the broadcast channels as part of ``basic'' package 
as well as the ``expanded basic'' package.
---------------------------------------------------------------------------
    The availability of a family-friendly package would enable parents 
to enjoy the increased options and high-quality programming available 
through cable or satellite without being required to purchase 
programming less suitable for children. I believe it would provide a 
better tool to parents to enable them to enjoy excellent programming 
options, yet it should not require significant change to existing cable 
or satellite practices or regulatory intervention.
    Alternatively, cable and DBS operators might choose to offer 
relevant programming networks in a more a la carte manner. They could 
permit parents to request not to receive certain programming that is 
sold as part of a package, and reduce the package price accordingly. 
Under this second option as well, parents would be able to receive (and 
pay for) only that programming that they are comfortable bringing into 
their home.
    Under either of these two approaches, cable and DBS operators would 
be empowering all parents--enabling them to bring multi-channel video 
into their home without worrying about the channels their children 
might fall upon while ``channel surfing.'' I believe such a tool would 
be a significant benefit to parents, and I therefore encourage cable or 
satellite providers to take up this challenge.
Conclusion
    Over the last four decades, television has developed into a vastly 
expanded medium, with more choice and excellent content. Certainly, 
viewers are better off today. The viewing picture nevertheless leaves 
something to be desired by parents who seek family-friendly 
programming. Broadcasters and MVPDs can change this picture, and I 
encourage them to provide parents with more options and better tools to 
find such programming. We all will benefit.

    The Chairman. Thank you very much.
    Mr. Adelstein?

           STATEMENT OF HON. JONATHAN S. ADELSTEIN, 
        COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Adelstein. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Hollings, Members of the Committee, I 
appreciate your outstanding leadership on this issue in holding 
this hearing and all the work you've done over the years on 
this. Like many of you, I watched the Super Bowl with my 
family; and, like millions of others, I was really appalled by 
what I saw during the halftime show, not just for the shock 
value of the stunt that happened at the end, but for the 
overall crude performance in front of so many children, one in 
five American children. And the advertising set a new low for 
what should air during family time. A special occasion for our 
families was truly disrespected.
    Senator Brownback, Senator Hollings, I appreciate the work 
you've done over the years on violence, and you talked about it 
eloquently this morning. One of the ads I thought that was most 
offensive personally, and hurt me the most, was a violent 
trailer that aired for a horror movie. It showed terrifying 
monsters, with huge fangs, attacking people. I literally had to 
jump out of my chair to get in front of my child so he didn't 
see what was happening on television. Other parents told me--
friends of mine--that they couldn't get to their remote 
controls fast enough. I wonder how those who chose to broadcast 
such violence can sleep at night when so many children went to 
bed that night having nightmares. No parent should have to jump 
in front of the TV to block their children from those kinds of 
images. We need to help parents navigate the increasingly 
difficult environment they face in today's media. They're 
crying out for our help. Complaints are exploding that our 
airwaves are increasingly dominated by graphic and shocking 
entertainment.
    Some have observed that broadcasters are only responding to 
competition from cable programming. Take MTV, a cable network 
known for pushing the envelope. It's owned by Viacom, which 
owns CBS, as Senator Lautenberg pointed out. It's no 
coincidence that MTV produced the halftime show, but the 
network thoughtlessly applied the cable-programmer's standards 
to the Super Bowl, the ultimate family event.
    As a musician myself, I understand there's a role for 
things like MTV in our society, but many might prefer that 
MTV's more explicit offerings not intrude into the mainstream 
of American family life. Parents who purchase cable television 
have the legal right to block any channel they don't consider 
appropriate for their children, and that choice just isn't 
available on over-the-air television, and parents were 
certainly taken by surprise.
    As a parent and an FCC Commissioner, I share the public's 
disgust with the increasingly crude radio and television 
content that we're seeing. I've only served on the Commission 
for about a year, but I'm proud that in that time we've really 
stepped up our enforcement efforts. We need to ramp it up even 
further. In my view, gratuitous use of swear words and nudity 
have no place in broadcasting. We need to attack profanity head 
on. We need to use that authority that Congress gave us. We 
need to reverse the bureau's decision to allow profane words 
just because they're in the form of an adjective.
    I have supported going to the statutory maximum for fines, 
but even this is woefully inadequate, and I welcome efforts by 
you, Mr. Chairman and other Members of this Committee, in the 
legislation that was approved by this Committee to let us 
increase fines substantially across all of our areas of 
jurisdiction.
    In the meantime, I have pushed for new approaches to deter 
indecency. These include fining for each separate utterance and 
revocation hearings in serious repeated cases. I worked last 
April to have the FCC put broadcasters on notice that we were 
beginning this stronger enforcement regime. And now we need to 
act more quickly when we get complaints.
    But there are limits to what the FCC can do. We must 
balance strict enforcement of the indecency laws with the First 
Amendment. If we overstep, we risk losing the narrow 
constitutional authority we now have to enforce the rules. So 
it may take more than the FCC to turn this around.
    Broadcasters have a big role to play. They need to show 
more corporate responsibility. We grant them use of the public 
airwaves to serve the public interest. They must rise above 
commercial pressures and recognize the broader social problems 
they may be compounding.
    One question I have often asked myself is whether the 
coarsening of our media is responsible for the coarsening of 
our culture, or if it's vice versa. I think it's both. I think 
they feed on each other. And I think media consolidation only 
intensifies the pressures. Fast-growing conglomerates focus on 
the bottom line above all else. Last summer, the FCC weakened 
its media-ownership rules, and I think we need to reconsider 
that decision and restore those protections.
    Local broadcasters also need the ability to reject network 
programming that doesn't meet their community's standards. The 
back and forth local affiliates have with networks is critical 
in the fight against indecency. Time and again, we see them 
fighting the networks, saying, ``You can't put that on. You 
can't be serious.'' And we see that the networks respond and 
pull back. The FCC has got to preserve that balance.
    And, on the positive side, we've got to do more to protect 
families. We should complete a 3-year-old rule-making on 
children's television obligations in the digital age. This will 
help meet educational needs and give parents tools they need to 
help their children make appropriate viewing choices.
    During the Super Bowl and on far too many other occasions, 
people feel assaulted by what's broadcast at them. My job, and 
our job here on the Commission, is to protect our families from 
the broadcast of this kind of material. It's also our job to 
promote healthy fare for children. After all, the airwaves are 
owned by the American people, and the public is eager to take 
some control back.
    I'd be happy to answer any questions that you have.
    [The prepared statement of Commissioner Adelstein follows:]

    Prepared Statement of Hon. Jonathan S. Adelstein, Commissioner, 
                   Federal Communications Commission
    Mr. Chairman, Mr. Ranking Member, and members of the Committee, 
thank you for inviting me to testify.
    Like many of you, I sat down with my wife and children to watch the 
Super Bowl. I was expecting a showcase of America's best talent, both 
on and off the field, and the apotheosis of our cultural creativity 
during the entertainment and advertising portions. Instead, like 
millions of others, I was appalled by the halftime show--not just for 
the shock-value stunt at the end, but for the overall raunchy 
performance displayed in front of so many children--one in five 
American children were watching, according to reports. And the 
advertising set a new low for what should air during family time.
    The Super Bowl is a rare occasion for families to get together to 
enjoy a national pastime everyone should be able to appreciate. 
Instead, a special family occasion was truly disrespected.
    I could highlight any number of tasteless commercials that depicted 
sexual and bodily functions in a vile manner. Any sense of internal 
controls appeared out the window, so long as the advertiser paid the 
multi-million dollar rate.
    One commercial that really stung my family, and many other parents 
with whom I spoke, was a violent trailer for an unrated horror movie. 
It showed horrible monsters with huge fangs attacking people. I 
literally jumped out of my chair to get between the TV and my three-
year old. Other parents told me they couldn't reach for the remote 
control fast enough. I wonder how those who chose to broadcast such 
violence can sleep at night when they gave so many American children 
nightmares.
    No parent should have to jump in front of the TV to block their 
children from such images, whether during a commercial or a halftime 
show. No parent should feel guilty for not being with their child every 
single moment in case they need to block the TV during what most would 
consider to be a family viewing event.
    The entire Super Bowl broadcast was punctuated by inappropriate 
images that were an embarrassment for our country. The halftime show, 
with its global appeal, was a wasted opportunity to showcase the best 
that U.S. culture has to offer. The U.S. has the world's greatest 
musical culture to promote across the globe, and that includes the many 
artists who performed at the event. Our musicians and artists offer a 
vibrant musical melting pot that expands our horizons and enriches our 
culture. As a musician myself, I am proud of artists who everyday 
express their creativity without trying to one up each other in shock 
value. There is plenty of magnificent talent here for the whole family 
to enjoy. It is those performances that broadcasters should showcase. 
Instead, the halftime show needlessly descended into lewdness and 
crassness.
    This latest incident is only the tip of the iceberg. There is 
nearly universal concern about the state of our public airwaves. I 
personally received more than 10,000 e-mails last week, and the FCC 
received more than 200,000. But that pales in comparison to the number 
of people who over the past year expressed their outrage to me about 
the homogenization and crassness of the media. The public is outraged 
by the increasingly crude content they see and hear in their media 
today. They are fed up with the sex, violence, and profanity flooding 
into our homes. Just this month at an FCC hearing in San Antonio, a 
member of the audience expressed concern with indecency on Spanish-
language television novellas.
    Complaints are exploding that our airwaves are increasingly 
dominated by graphic and shocking entertainment. Some observe that 
broadcasters are only responding to competition from cable programming. 
Take MTV, a cable network known for pushing the envelope. It's owned by 
Viacom, which also owns CBS. It's no coincidence that MTV produced the 
halftime show. But the network thoughtlessly applied the cable 
programmer's standards during the Super Bowl--the ultimate family 
event.
    As a musician, I recognize that channels like MTV have a place in 
our society. I also understand and respect that many would prefer that 
they not intrude into the mainstream of American family life. Parents 
who purchase cable television have the legal right to block any channel 
they don't consider appropriate for their children. More parents should 
be made aware of this right. Free over-the-air broadcasting, however, 
offers no such alternative to parents. For broadcast material designed 
for mature audiences, it's a matter of the right time and place.
    Enough is enough. As a parent and an FCC Commissioner, I share the 
public's disgust with increasingly crude radio and television content.
    I've only served on the Commission for about a year, but I'm proud 
that we've stepped up our enforcement in that time. And we need to ramp 
it up even further. In my view, gratuitous use of swear words or nudity 
have no place in broadcasting.
    We need to act forcefully now. Not surprisingly, complaints before 
the FCC are rising rapidly, with more than 240,000 complaints covering 
370 programs last year. In the cases on which I have voted, I have 
supported going to the statutory maximum for fines. But even this 
statutory maximum--$27,500 per incident--is woefully inadequate. I 
welcome the efforts by Congress to authorize us to increase fines 
substantially across all our areas of jurisdiction.
    Awaiting such authority, I've pushed for new approaches to deter 
indecency. We can increase the total amount of fines by fining for each 
separate utterance within the same program segment. And we need to hold 
hearings to consider revoking broadcasters' licenses in serious, 
repeated cases. I worked last April to have the FCC put broadcasters on 
notice that we were taking these steps to establish a stronger 
enforcement regime. Our challenge now is to act more quickly when we 
get complaints, and to ensure that our complaint procedures are as 
consumer-friendly as possible.
    But there are limits to what the FCC can do. We must balance strict 
enforcement of the indecency laws with the First Amendment. If we 
overstep, we risk losing the narrow constitutional authority we now 
have to enforce the rules. Nevertheless, many cases I have seen in my 
tenure are so far past any boundary of decency that any broadcaster 
should have known the material would violate our rules.
    So it may very well take more than the FCC to turn this around. We 
are not the only ones with a public trust to keep the airwaves free 
from obscene, indecent and profane material. Broadcasters are given 
exclusive rights to use the public airwaves in the public interest. The 
broadcasters themselves bear much of the responsibility to keep our 
airwaves decent. As stewards of the airwaves, broadcasters are in the 
position to step up and use their public airwaves in a manner that 
celebrates our country's tremendous cultural heritage. Or they can 
continue down the path of debasing that heritage. Their choices 
ultimately will guide our enforcement.
    Serving local communities is the cornerstone of the broadcaster's 
social compact with the public. When people choose to become licensed 
broadcasters, they understand that a public service responsibility 
comes with that privilege. In his famous remarks lamenting the ``vast 
wasteland'' of television, Newton Minow rightly observed that, ``an 
investment in broadcasting is buying a share in public 
responsibility.'' \1\ Every broadcaster should take that to heart. 
Public responsibility may mean passing up an opportunity to pander to 
the Nation's whims and current ratings trends when it is more important 
to stand up and meet the needs of the local community.
---------------------------------------------------------------------------
    \1\ Newton N. Minow, ``Television and the Public Interest'' Speech 
Before the National Association of Broadcasters (May 9, 1961).
---------------------------------------------------------------------------
    Broadcasters need to show more corporate responsibility. They must 
rise above commercial pressures, and recognize the broader social 
problems they may be compounding.
    Many factors set the cultural and moral tone of our society. I 
welcome the attention that our indecency enforcement is receiving. I 
don't think of it as silly or overblown, as some have suggested. The 
question before America is whether the coarsening of our media is 
responsible for the coarsening of our culture, or vice versa. My answer 
is both. They feed on each other.
    Media consolidation only intensifies the pressures. Fast-growing 
conglomerates focus on the bottom line above all else. The FCC should 
reconsider its dramatic weakening of media ownership limits last 
summer.
    Local broadcasters also need the ability to reject network 
programming that doesn't meet their communities' standards. The FCC 
must preserve the critical back-and-forth local affiliates have with 
the networks in the fight against indecency.
    In terms of taking positive steps, the FCC can do more to help 
families. Because our particular focus today is on children, one vital 
step is completing a pending rulemaking on children's television 
obligations of digital television. The FCC started this proceeding more 
than three years ago, yet it remains unfinished. We should quickly 
complete this proceeding to help meet children's educational needs, and 
give parents tools to help their children make appropriate viewing 
choices.
    During the Super Bowl, and on far too many other occasions, people 
feel assaulted by what is broadcast at them. My job is to protect our 
families from the broadcast of obscene, indecent or profane material. 
That also means promoting healthy fare for our children. After all, the 
airwaves are owned by the American people, and the public is eager to 
take some control back.

    The Chairman. Thank you very much, Mr. Adelstein.
    Chairman Powell, I mentioned in my comment about the fact 
that 85 percent of Americans now receive their television 
program from cable and satellite. And, by the way, Mr. 
Kimmelman suggests that perhaps people should be able to 
purchase their channels a la carte, the same way we are able to 
function when we go to the grocery store. We are not required 
to buy additional commodities when we want to buy a loaf of 
bread. I wonder if you could talk just a little bit about that 
aspect of this issue.
    Chairman Powell. I would agree that's one thing to explore, 
and it has two sides to it. One, do you have to buy it in the 
first place? And, two, if you get it as part of the package, 
are you empowered with some control to deny that from coming 
through? For example, most cable companies, I think 
Commissioner Adelstein mentioned, have a legal obligation to be 
able to block a channel or service from coming into your home 
if you don't want it, even if it's part of your subscription. 
So, you know, there are areas----
    The Chairman. So you'd be paying for something that you 
don't want anyway.
    Chairman Powell. You could be, although I won't make the 
arguments for them. Different programming have different costs 
associated with them. But absolutely, the combination of what 
packages you get and what rights you have to block programming, 
I think, are the right places to look.
    The Chairman. What about the overall issue of the fact 
that--what regulatory authority do you have over the 85 percent 
of Americans who are now getting it from cable and satellite?
    Chairman Powell. The short answer is, little to none, 
unfortunately. The statute that we administer, Section 1464, 
specifically says utterances that are broadcast. In addition, 
we have Constitutional limits that are different for 
broadcasting, because the courts have ruled that cable, unlike 
broadcast where the public airwaves are used, enjoys First 
Amendment protection closer to that of a newspaper, so there 
are a few more, you know, Constitutional constraints when you 
look there, as well.
    And then, finally, there has always been a tension, I 
think, that plays into the Constitutional question about their 
being a subscription relationship in which consumers have 
purchased services. That's the court's view about them.
    The Chairman. Well, there may be some difference of opinion 
on that, and perhaps there may be a need for legislation. I 
don't know what the answer, but it clearly--if 85 percent of 
the American people are receiving these broadcasts via methods 
that you no longer have any control over, I would think that 
that would raise a significant issue.
    While I have you, I just want to mention--and I'll ask the 
other Commissioners if they have a comment--there's an article 
in USA Today this morning. So much for predictions. Rupert 
Murdoch, in News Corporation, would give a cable/satellite/TV 
industry price war after taking over direct TV. The top U.S. 
satellite service hit 12 million subscribers. The service plans 
to boost average rates by more than 3 percent March 1. Comcast, 
the Nation's largest cable operator will boost average cable 
rates by 5.4 percent. Time-Warner cable by 4.9 percent. On and 
on and on. The cable rates, satellite rates, continue to go up 
in multiples of the rate of inflation in America.
    We've been concerned about it on this Committee, we 
continue to be concerned about it. There is nothing that I can 
see that is injecting the kind of competition which brings 
rates down. Instead, they are going up, as I say, in multiples 
of inflation. And now, of course, we see this morning's paper, 
that Comcast, the largest U.S. cable owner, is now going to 
make a bid for Walt Disney. Where, in your view, does this 
consolidation, that we've already seen to an obscene degree in 
radio, stop? Where is the endpoint here? Is it OK for Disney to 
be bought by Comcast? And then why don't they buy somebody 
else? And then why doesn't Mr. Murdoch buy somebody else? And 
then we have, as one of our colleagues is fond of saying, 
``many voices and one ventriloquist.'' Is this of concern to 
you and other members of the Commission?
    Chairman Powell. I'll speak for myself, but I think all 
would answer the same. Unquestionably, yes. And it stops where 
we draw the lines, both in terms of our rules, what statutory 
limits exist, and what the antitrust authorities and the 
public-interest transactions permit.
    This Commission has demonstrated it is not afraid, in 
reviewing a transaction, from blocking a merger that it does 
not believe is in the public interest. I don't know if Comcast 
will get Disney or not. It's a hostile bid. If it does, a 
merger of that magnitude will unquestionably go through the 
finest filter that's possible at the Commission, I can assure 
you.
    The Chairman. I thank you, Chairman Powell. I just think we 
need to be proactive on this issue, rather than reactive. And I 
appreciate, more than I can tell you, your leadership of the 
Commission. I'd like to hear the other Commissioners' views on 
the two questions that I raised, quickly, because I'm about out 
of time.
    Ms. Abernathy?
    Commissioner Abernathy. Clearly, it raises serious concerns 
when you've got excessive concentration, and there's no doubt 
in my mind----
    The Chairman. First the issue of the broadcast----
    Commissioner Abernathy. Oh, the broadcast and cable. It is 
a difference that exists more in our minds than in reality. At 
the time that we were given authority over broadcast indecency, 
I think cable wasn't really there yet. It's how the law is 
today. I think we'd need some legislative guidance if we wanted 
to venture into the area of regulating violence and indecency 
for cable. But I think that, given the fact that most children 
don't even know the difference between broadcast and cable, it 
makes sense to try and reconcile the two.
    The Chairman. And the second question, you've answered?
    Commissioner Abernathy. Yes, I think it's a serious 
problem.
    The Chairman. Dr. Copps?
    Dr. Copps. On the first question, I don't know that I buy 
into the theory that your favorite regulatory commission is a 
toothless tiger when it comes to cable. Congress has struggled 
with this for a long period of time--regulating, deregulating, 
re-regulating, deregulating cable. But as some observers have 
pointed out, it is so pervasive in our homes, so pervasive with 
our children, I think you can make the argument that there's a 
compelling government interest to do something about it. And, 
indeed, we have a Supreme Court case--the Playboy case--that 
says there is a compelling government interest in protecting 
children against indecency in cable. The fight has been, How do 
you find the least intrusive means to do that? We already have 
some cable regulation. Cable has to go through franchising, 
there are rights of way, there are public-access channels, and 
all the rest. Cable does use the spectrum. You know, this idea 
that they don't use the spectrum--DBS certainly does and cable 
is using satellite and microwave spectrum, too.
    Section 612(h) of the Act empowers the franchising 
authorities at the local level, and the cable distributors, to 
do something about lewdness, lasciviousness, profanity, 
indecency, and even empowers a local cable distributor, if he 
wants to put out a prospective policy prohibiting this kind of 
stuff. So maybe there are some grassroots possibility, too. If 
it doesn't come from----
    The Chairman. We've seen that tried before----
    Dr. Copps.--just from here, it can come from there.
    The Chairman.--Doctor. We've seen that----
    Dr. Copps. OK.
    The Chairman.--track before.
    Dr. Copps. Right. Well, maybe we ought to----
    The Chairman. Pressures----
    Dr. Copps.--try it again.
    The Chairman.--brought to bear on the local operator, we 
know, Doctor.
    Dr. Copps. And the second answer, it'll stop when we get 
serious about stopping concentration, this is the kind of thing 
I've warned about in voting against a lot of these deals, and I 
think it's just coming to----
    The Chairman. Mr. Martin?
    Dr. Copps.--fruition.
    The Chairman. Thank you.
    Commissioner Martin. First, Senator, I would point out that 
I think we do have some indecency authority over satellite. 
Technically, I think the provisions regarding indecency 
actually apply to utterances per radio, and our Title 3 for 
radio authority applies to DBS. We don't currently treat it 
that way. We treat them more in the category of cable. But if 
we wanted to, we could extend it there.
    As I mentioned in my introductory comments, I think we 
absolutely have to find a way to address the cable side, as 
well, and I think that while there are legitimate First 
Amendment concerns that some people have raised, there's no 
First Amendment guarantee to be paid for the programming that 
they're putting on, and I think that an a la carte option is 
something that needs to more thoroughly be discussed. I think 
that we have to find a way to have consumers to have more 
choice in their cable--in what's going on with the cable, both 
for the concerns about prices and the concerns about indecency. 
And so I think that goes to some of the second question you 
have, as well, of some of the ways that we could try to address 
the increasing prices that we've seen on cable, as well.
    The Chairman. Thank you.
    Mr. Adelstein? Thank you.
    Mr. Adelstein. Mr. Chairman, the courts have distinguished 
between cable and broadcast. Whether we like it or not, that's 
the environment that we operate in. One of the reasons they 
made that distinction was because, in their view, in the case 
that Commissioner Copps cited, the person who purchases cable 
has the option under the law to block a cable channel. Now, 
most consumers don't know that. I imagine most people that may 
be watching this hearing are surprised to learn that they could 
block any channel that they find inappropriate, be it MTV or 
anything else. I think the cable industry has to do more to 
ensure that every consumer has that right now.
    The Chairman. How do you do that?
    Mr. Adelstein. Well, you do that through either--the 
digital box can do it, or through analog. They have technology 
available for both to block it. If a consumer asks for that, 
the cable company is obligated, under the law and under our 
rules, to meet that request. And it can be done----
    The Chairman. How do you physically do it?
    Mr. Adelstein. Well, it's different for analog than it is 
for digital. Under----
    The Chairman. Well, that's helpful.
    [Laughter.]
    Mr. Adelstein. Well, under digital, it's much simpler to 
do. They can program into the box. Under analog, I believe they 
actually have to purchase some equipment, and it's very, sort 
of, burdensome. So----
    The Chairman. So you----
    Mr. Adelstein.--people don't tend to do it.
    The Chairman.--can block it, but you have to purchase 
equipment to do it. That's good.
    Mr. Adelstein. Or pay a small fee, I believe. It's 
unfortunate that that's the way it works. I mean, it's really 
not something that is being adequately implemented right now. I 
think the cable industry needs to step up to the plate, if 
that's the reason that there's a distinction between the two, 
and ensure that consumers actually have this right in practice 
and not just in theory.
    The Chairman. Thank you very much.
    Senator Hollings?
    Senator Hollings. Thank you, Mr. Chairman.
    Let me make just a couple of comments from my experience of 
now 38 years on the Communications Subcommittee, and I'll 
comment, most respectfully, to the distinguished Chairman. I 
know he's a dedicated public servant, absolutely honest, but, 
in my opinion, dedicated not to regulate as the Chairman of a 
regulatory commission.
    That's our problem. Here's a Chairman, who says that the 
public interest is an empty vessel, who redefines 
communications as information in order to avoid that 
responsibility. Slaps on the wrist, in the Detroit case--that's 
the filthiest thing, everybody agrees--on the different ways to 
perform sex in a filthy, filthy fashion, and leads the way for 
a little $27,000 fine and not to revocation of the license. Oh, 
one of the Commissioners say, ``Let's start a proceeding.'' Oh, 
they wouldn't think of that, of revoking the license. You've 
got the authority. But no revocation of license and a $27,000 
fine, when they paid, for 30 seconds--on that halftime show, 30 
seconds is $225,000. What the heck is a $27,000 fine? If there 
ever was going to be a revocation, that would have been the 
case, in the Detroit case.
    Last night, the President of CBS Television said: ``To that 
end, I challenge the broadcast community to reinstate a 
voluntary code of conduct.'' Like somehow we're going to start 
getting with this problem.
    Let me just say what the Commission--Chairman Powell said. 
This is why--I'm not trying to be unfair, I'm trying to be 
factual. This is our problem. And I quote Chairman Powell 
before April's talk before the National Association of 
Broadcasters, ``Every time something sort of salacious or edgy 
comes on television, we hear very strongly from very different 
viewpoints about it. But the same community taught me that 
we're supposed to be a place of a marketplace of ideas--
antagonistic voices, unpopular viewpoints, and unpopular 
images--and that our society is strong enough and robust enough 
to sustain that, and that rather than stamping it out under the 
boot of a government authority, we can adapt, and we can 
tolerate it.''
    Now, that's our problem. Calling the responsibility ``the 
boot of the government authority,'' and saying you can tolerate 
it, and then start this hearing off with toleration, namely 
calling for a voluntary code, we're in real trouble. Do you 
think you'll ever revoke a license? Why didn't you start a 
proceeding revoking the license in the Detroit case, Mr. 
Chairman?
    Chairman Powell. Senator, I'm happy to answer all the 
things that you threw out.
    First of all, I'm very proud to be associated with those 
comments, because those are being associated with the First 
Amendment, and I don't mind being associated with Thomas 
Jefferson or Justice Marshall or any of those who recognize the 
importance of content on our society.
    Senator Hollings. Do you think you're on the Supreme Court, 
or----
    Chairman Powell. If you're----
    Senator Hollings.--are you on the----
    Chairman Powell.--going to allow me to finish, I'd be happy 
to----
    Senator Hollings.--Federal Communications Commission?
    Chairman Powell. No, but I took the same oath that my 
colleagues did to uphold the Constitution of the United States, 
and that's one of my responsibilities. And I'm perfectly proud 
of that. I do think we are urged to be cautious and careful 
when we regulate content. That's all that statement says.
    But if we're going to trade quotes, I don't see why it's 
just as fair for me to enter into the record quotes that I've 
said, for example, at the National Press Club just a few weeks 
ago, ``I personally believe that this growing coarseness and 
the use of such profanity at a time where we are very likely to 
know that children are watching is abhorrent and irresponsible, 
and it's irresponsible of our programmers to continue to try to 
push the envelope of a reasonable set of policies that tries to 
legitimately balance the interests of the First Amendment with 
the need to protect our kids.'' I said, further, ``You can take 
the view that we have no standard, we have no moral limitation, 
we have no fear whatsoever of protecting our children from any 
range of communications that we know they can hear somewhere 
else, but sometimes what defines a culture or civilization is 
where we say no.'' Second, I think it's----
    Senator Hollings. My question was about revoking the 
license.
    Chairman Powell. I'm happy to talk about that, too.
    Senator Hollings. Yes, I mean, the media has reported that 
you're beginning to see the light. There's no question about 
that. But when are we going to ever revoke a license if we're 
not going to do it in the Detroit case?
    Chairman Powell. I think when the facts are egregious 
enough and serious enough to justify it. But we still are an 
agency of the law.
    In April 2003, the Commission announced clearly to notice 
the broadcasters that it would consider revocation of licenses 
if there was serious and persistent conduct. The Commission's 
judgment has been that when it sees a case that meets those 
standards--and that's been less than a year ago--it would act. 
I also believe, however--and the Supreme Court has made clear--
that the Commission, when it announces a new policy, or its 
intent to pursue more aggressively a policy, that it cannot 
retroactively apply that to conduct that preceded the notice.
    So my view is--and you're free to disagree with it--once 
the Commission made a clear notice that it would pursue 
revocation on a prospective basis, it will. But for conduct as 
in the Detroit case that preceded that announcement, I think 
not only would that be unconstitutional, but fundamentally 
unfair.
    Senator Hollings. You made the finding subsequent to that 
announcement, and that was on November 24, when you had to 
forfeit your order or the slap in the wrist of a $27,000 fine 
to that CBS entity, Viacom, and no wonder CBS and Viacom goes 
along with just baring the breast. I mean, come on. That's 
nothing compared to the people just seeing something they may 
consider indecent.
    I'll ask Chairman Brownback to include in the record the 
list of TV and copycat behavior on violence, over a dozen 
cases. Nobody's killing themselves when they see a bosom, but 
they're constantly killing themselves over the years here when 
they see violence on TV. So I'll ask that that be included in 
the record.
    Senator Brownback [presiding]. That will be included in the 
record.
    [The information previously referred to follows:]

TV and Copycat Behavior

    January 2004: A sixteen year old California girl was killed when 
she was thrown from a merry go-round propelled by a rope tied to a 
truck trying to imitate a stunt from the MTV program ``Jackass.''

    April 2001: Two Kentucky teenagers were injured trying to recreate 
a scene from MTV's ``Jackass.'' One teenage, a 17-year-old, drove a car 
towards his 16-year-old friend, who stood in the middle of the road. 
The boy in the road was supposed to jump out of the way at the last 
second, but didn't make it in time.

    January 2001: A 13-year-old boy suffered second-and third-degree 
burns after two friends poured gasoline on his legs and feet and set 
him on fire. They were intimating a stunt from the MTV show ``Jackass'' 
in which Johnny Knoxville donned a fire-resistant suit covered with 
steaks and stretched over a giant grill to become a human BBQ.

    May 1999: A 7-year-old boy in North Dallas, Texas accidentally 
killed his 3-year-old brother after imitating a pro wrestling move he 
saw on television. When interviewed by authorities, the boy 
demonstrated what had happened by running toward a doll about the same 
size as his brother and suddenly striking its neck, knocking it 
backwards. He also talked about his favorite wrestling stars, Stone 
Cold Steve Austin and The Undertaker.

    January 1999: Two Florida teenagers repeatedly raped their 8-year-
old half-sister after allegedly watching an episode about incest on The 
Jerry Springer Show. A detective asked the boys where they learned to 
abuse their sister and the older boy responded, ``I learned it on The 
Jerry Springer Show.'' The show's publicist issued a statement saying, 
``We've never had a show that is remotely close to this situation and, 
unfortunately, there are situations in this world for which we are 
blamed.''

    May 1998: In Ocean City, Maryland, 12-year-old Darron Lawrence 
Green committed suicide and left a note citing South Park as a reason 
why he killed himself. He mentioned a character named Kenny, a small 
boy who dies violently in every South Park episode. The boy did not 
show any signs of depression before the act.

    In the same year, 11-year-old Bryce Kilduff hung himself. Police 
suspected that it was an accident and that he was trying to imitate the 
character Kenny on South Park. His mother reported that the day before 
his death, her son was imitating the character and his friends said, 
``Well, if you're Kenny, then you have to die.'' He responded by 
saying, ``That's OK, I'll be back next week.'' Bryce also drew pictures 
of the characters and based their portrayal on his classmates' stories, 
since his mother forbade him to watch the show. After his death, police 
found a picture drawn by Bryce depicting a character hanging himself.

    January 1998: 14-year-old Michael Swailes committed suicide by 
lying down in front of a speeding train. The boy was carrying a 
notebook with suicide instructions he downloaded from a Duke University 
student's Website. Chris Economakis defended his Website, which 
outlines forty suicide methods, by claiming it was put up ``for 
entertainment purposes only.'' After briefly removing the website, he 
put it back online 24 hours later with no changes.

    December 1997: Michael Carneal, a Kentucky high school student, 
entered his school lobby and fired seven shots from a semiautomatic 
weapon into a group of students, killing three and wounding five. He 
told investigators that he had seen it done in a scene from the movie 
Basketball Diaries, in which a character, played by Leonardo DiCaprio, 
walks into a classroom and kills several students with a shotgun.

    June 1997: Jeremy Strohmeyer, a California teen accused of sexually 
assaulting and murdering a 7-year-old girl in a Nevada casino, told Las 
Vegas detectives that he killed her by ``putt[ing] one hand behind her 
head and one hand under her chin, and snapp[ing] her head like he [saw] 
on TV.''

    February 1997: A Bridgeport, Connecticut, 8-year-old was killed by 
a gunshot to the forehead by another child. Police said the children 
imitated a scene from the movie Set it Off after watching it on 
videotape.

    May 1994: A California teen and four other middle-class boys 
trapped and beat to death a sixth boy with whom the ringleader had 
engaged in intense competition over everything from grades to crime. 
The trial revealed that the teens' plot was based on tactics seen in TV 
police dramas.

    October 1993: A 5-year-old ignited a 2-year-old sibling, who died 
from her injuries. The children's mother blamed MTV's Beavis and 
Butthead for inspiring the child: the cartoon's two main characters 
like to light fires and often chant, ``fire is good.'' After this 
incident MTV moved Beavis and Butthead to a later hour and removed all 
references to fire.

    May 1993: An abduction and multiple slaying in Flin Flon, Manitoba, 
Canada, was attributed to a broadcast of the made-for-TV movie Murder 
in the Heartland, because it resembled the crimes in the movie and 
occurred several days after the airing. The movie is based on the true 
story of Charles Starkweather, a 19-year-old who abducted his 14-year-
old girlfriend and murdered her family.

    Senator Hollings. Thank you, Mr. Chairman.
    Senator Brownback. Senator Boxer?
    Senator Boxer. Thank you so much.
    First, I want to thank all of you for your eloquent 
statements today. I mean, I really do think that we're all 
speaking from the heart and we're all in agreement. The 
question is, where do we go from here? How do we take this 
outrage that we feel and do the right thing, consistent with 
balancing, you know, freedoms and good taste and morality and 
all the rest? This is not easy stuff. But I do think you could 
do more, and I think you think you could do more. And if you 
need the tools from us, we'll give you the tools.
    A couple of things I want to pick up on, and I'll just ask 
my questions, and then I'll let you respond. I guess I would 
address these to the Chairman, because I think he has got the 
most, shall we say, influence over what happens.
    To pick up on Senator Lautenberg's point, CBS, who brought 
us this offensive show--and I think we've all agreed it was 
offensive, the whole halftime show--turned down what I consider 
to be, and I think most people would say, was a very tasteful 
30-second spot produced by a political organization called 
MoveOn.org. They said people would be offended. Now, it's true, 
the deficit is offensive. That's the message of this, that 
there's this huge deficit, and our children have to pay it off. 
CBS said people would be offended.
    In terms of your, Chairman Powell's, total defense of the 
First Amendment, how can CBS turn that down while they allow 
all this other offensive material on ads and this whole show? 
Can you take action against them for saying they won't allow 
free speech on a political message?
    Chairman Powell. Well, first, let me be clear that--and I 
expressed this to them in fairly firm terms--I think it was a 
gross mistake. I don't see any reason--and, by the way, I've 
had my differences with MoveOn.org, but I agree completely with 
its rights to speak and to attempt to buy advertising.
    I don't defend the conduct whatsoever. And by----
    Senator Boxer. Are they allowed to do that?
    Chairman Powell. Yes, they're allowed----
    Senator Boxer. They are. So----
    Chairman Powell.--I mean, they are----
    Senator Boxer.--in other words----
    Chairman Powell.--allowed to make editorial decisions----
    Senator Boxer. Fine.
    Chairman Powell.--about what advertising they take. Whether 
it's illegal or not, I'm not certain under what theory we would 
pursue it for that purpose, but it's worth considering. I don't 
think it was an appropriate choice, but it was the choice of 
the owner.
    Senator Boxer. Right.
    Chairman Powell. They don't take a lot of advertising.
    Senator Boxer. Well, let me make the point of--on this. 
When we allow more and more and more and more and more and more 
consolidation, we're going to have fewer and fewer people 
involved in saying what can be on and what can off. This is 
frightening to me. So all of these things are connected to the 
consolidation issue, and that's why so many of us are 
determined to overturn what happened in that omnibus bill where 
that slipped in and we're allowing more and more media 
consolidation.
    Senator Brownback. If we could have conversation concluded 
or taken out of the room, if that would be possible, for----
    Senator Boxer. Thank you.
    I do want to pursue that further with you, but let me go 
on.
    Have you seen, Chairman Powell, this report of the GAO, 
February 2003--it's a very new report--``File-sharing Programs, 
Peer-to-Peer Networks Provide Ready Access to Child 
Pornography''?
    Chairman Powell. Senator, I haven't read it, but your 
office has made us aware of it, yes.
    Senator Boxer. Good. I'm going to make sure that--if you 
don't mind, that we can meet about this.
    Chairman Powell. Sure.
    Senator Boxer. And I'm going just put in the record, if I 
might, Mr. Chairman, just two pages of this, what the GAO 
found.
    [The information referred to follows:]

   Child Pornography Is Readily Accessible over Peer-to-Peer Networks

                        [Excerpt for the record]
                               Highlights
File-Sharing Programs
Child Pornography Is Readily Accessible over Peer-to-Peer Networks
Why GAO Did This Study

    The availability of child pornography has dramatically increased in 
recent years as it has migrated from printed material to the World Wide 
Web, becoming accessible through websites, chat rooms, newsgroups, and 
now the increasingly popular peer-to-peer file-sharing programs. These 
programs enable direct communication between users, allowing users to 
access each other's files and share digital music, images, and video.
    GAO was requested to determine the ease of access to child 
pornography on peer-to-peer networks; the risk of inadvertent exposure 
of juvenile users of peer-to-peer networks to pornography, including 
child pornography; and the extent of Federal law enforcement resources 
available for combating child pornography on peer-to-peer networks. 
GAO's report on the results of this work (GAO-03-351) is being released 
today along with this testimony.
    Because child pornography cannot be accessed legally other than by 
law enforcement agencies, GAO worked with the Customs Cyber-Smuggling 
Center in performing searches: Customs downloaded and analyzed image 
files, and GAO performed analyses based on keywords and file names 
only.
What GAO Found
    Child pornography is easily found and downloaded from peer-to-peer 
networks. In one search, using 12 keywords known to be associated with 
child pornography on the Internet, GAO identified 1,286 titles and file 
names, determining that 543 (about 42 percent) were associated with 
child pornography images. Of the remaining, 34 percent were classified 
as adult pornography and 24 percent as nonpornographic. In another 
search using three keywords, a Customs analyst downloaded 341 images, 
of which 149 (about 44 percent) contained child pornography (see the 
figure below). These results are consistent with increased reports of 
child pornography on peer-to-peer networks; since it began tracking 
these in 2001, the National Center for Missing and Exploited Children 
has seen a fourfold increase--from 156 reports in 2001 to 757 in 2002. 
Although the numbers are as yet small by comparison to those for other 
sources (26,759 reports of child pornography on websites in 2002), the 
increase is significant.
    Juvenile users of peer-to-peer networks are at significant risk of 
inadvertent exposure to pornography, including child pornography. 
Searches on innocuous keywords likely to be used by juveniles (such as 
names of cartoon characters or celebrities) produced a high proportion 
of pornographic images: in our searches, the retrieved images included 
adult pornography (34 percent), cartoon pornography (14 percent), child 
erotica (7 percent), and child pornography (1 percent).
    While Federal law enforcement agencies--including the FBI, 
Justice's Child Exploitation and Obscenity Section, and Customs--are 
devoting resources to combating child exploitation and child 
pornography in general, these agencies do not track the resources 
dedicated to specific technologies used to access and download child 
pornography on the Internet. Therefore, GAO was unable to quantify the 
resources devoted to investigating cases on peer-to-peer networks. 
According to law enforcement officials, however, as tips concerning 
child pornography on peer-to-peer networks escalate, law enforcement 
resources are increasingly being focused on this area.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of Linda D. Koontz, Director, Information Management 
            Issues, United States General Accounting Office
    Mr. Chairman and Members of the Committee:

    Thank you for inviting us to discuss the results of our work on the 
availability of child pornography on peer-to-peer networks, which we 
provided to you in a report being released today.\1\
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, File-Sharing Programs: Peer-to-
Peer Networks Provide Ready Access to Child Pornography, GAO-03-351 
(Washington, D.C.: Feb. 20, 2003).
---------------------------------------------------------------------------
    In recent years, child pornography has become increasingly 
available as it has migrated from magazines, photographs, and videos to 
the World Wide Web. As you know, a great strength of the Internet is 
that it includes a wide range of search and retrieval technologies that 
make finding information fast and easy. However, this capability also 
makes it easy to access, disseminate, and trade pornographic images and 
videos, including child pornography. As a result, child pornography has 
become accessible through websites, chat rooms, newsgroups, and the 
increasingly popular peer-to-peer technology, a form of networking that 
allows direct communication between computer users so that they can 
access and share each other's files (including images, video, and 
software).
    As requested, in my remarks today, I summarize the results of our 
review, whose objectives were to determine

  <bullet> the ease of access to child pornography on peer-to-peer 
        networks;

  <bullet> the risk of inadvertent exposure of juvenile users of peer-
        to-peer networks to pornography, including child pornography; 
        and

  <bullet> the extent of Federal law enforcement resources available 
        for combating child pornography on peer-to-peer networks.

    We also include an attachment that briefly discusses how peer-to-
peer file sharing works.
Results in Brief
    It is easy to access and download child pornography over peer-to-
peer networks. We used KaZaA, a popular peer-to-peer file-sharing 
program,\2\ to search for image files, using 12 keywords known to be 
associated with child pornography on the Internet.\3\ Of 1,286 items 
identified in our search, about 42 percent were associated with child 
pornography images. The remaining items included 34 percent classified 
as adult pornography and 24 percent as nonpornographic. In another 
KaZaA search, the Customs CyberSmuggling Center used three keywords to 
search for and download child pornography image files. This search 
identified 341 image files, of which about 44 percent were classified 
as child pornography and 29 percent as adult pornography. The remaining 
images were classified as child erotica\4\ (13 percent) or other 
(nonpornographic) images (14 percent). These results are consistent 
with observations of the National Center for Missing and Exploited 
Children, which has stated that peer-to-peer technology is increasingly 
popular for disseminating child pornography. Since 2001, when the 
center began to track reports of child pornography on peer-to-peer 
networks, such reports have increased more than fourfold--from 156 in 
2001 to 757 in 2002.
---------------------------------------------------------------------------
    \2\ Other popular peer-to-peer applications include Gnutella, 
BearShare, LimeWire, and Morpheus.
    \3\ The U.S. Customs CyberSmuggling Center assisted us in this 
work. Because child pornography cannot be accessed legally other than 
by law enforcement agencies, we relied on Customs to download and 
analyze image files. We performed analyses based on titles and file 
names only.
    \4\ Erotic images of children that do not depict sexually explicit 
conduct.
---------------------------------------------------------------------------
    When searching and downloading images on peer-to-peer networks, 
juvenile users can be inadvertently exposed to pornography, including 
child pornography. In searches on innocuous keywords likely to be used 
by juveniles, we obtained images that included a high proportion of 
pornography: in our searches, the retrieved images included adult 
pornography (34 percent), cartoon pornography \5\ (14 percent), and 
child pornography (1 percent); another 7 percent of the images were 
classified as child erotica.
---------------------------------------------------------------------------
    \5\ Images of cartoon characters depicting sexually explicit 
conduct.
---------------------------------------------------------------------------
    We could not quantify the extent of Federal law enforcement 
resources available for combating child pornography on peer-to-peer 
networks. Law enforcement agencies that work to combat child 
exploitation and child pornography do not track their resource use 
according to specific Internet technologies. However, law enforcement 
officials told us that as they receive more tips concerning child 
pornography on peer-to-peer networks, they are focusing more resources 
in this area.
Background
    Child pornography is prohibited by Federal statutes, which provide 
for civil and criminal penalties for its production, advertising, 
possession, receipt, distribution, and sale.\6\ Defined by statute as 
the visual depiction of a minor--a person under 18 years of age--
engaged in sexually explicit conduct,\7\ child pornography is 
unprotected by the First Amendment,\8\ as it is intrinsically related 
to the sexual abuse of children.
---------------------------------------------------------------------------
    \6\ See chapter 110 of Title 18, United States Code.
    \7\ See 18 U.S.C. Sec. 2256(8).
    \8\ See New York v. Ferber, 458 U.S. 747 (1982).
---------------------------------------------------------------------------
    In the Child Pornography Prevention Act of 1996,\9\ Congress sought 
to prohibit images that are or appear to be ``of a minor engaging in 
sexually explicit conduct'' or are ``advertised, promoted, presented, 
described, or distributed in such a manner that conveys the impression 
that the material is or contains a visual depiction of a minor engaging 
in sexually explicit conduct.'' In 2002, the Supreme Court struck down 
this legislative attempt to ban ``virtual'' child pornography \10\ in 
Ashcroft v. The Free Speech Coalition, ruling that the expansion of the 
act to material that did not involve and thus harm actual children in 
its creation is an unconstitutional violation of free speech rights. 
According to government officials, this ruling may increase the 
difficulty of prosecuting those who produce and possess child 
pornography. Defendants may claim that pornographic images are of 
``virtual'' children, thus requiring the government to establish that 
the children shown in these digital images are real.
---------------------------------------------------------------------------
    \9\ Section 121, P.L. 104-208, 110 Stat. 3009-26.
    \10\ According to the Justice Department, rapidly advancing 
technology has raised the possibility of creating images of child 
pornography without the use of a real child (``virtual'' child 
pornography). Totally virtual creations would be both time-intensive 
and, for now, prohibitively costly to produce. However, the technology 
has led to a ready defense (the ``virtual'' porn defense) against 
prosecution under laws that are limited to sexually explicit depictions 
of actual minors. Because the technology exists today to alter images 
to disguise the identity of the real child or make the image seem 
computer-generated, producers and distributors of child pornography may 
try to alter depictions of actual children in slight ways to make them 
appear to be ``virtual'' (as well as unidentifiable), thereby 
attempting to defeat prosecution. Making such alterations is much 
easier and cheaper than building an entirely computer-generated image.

    Senator Boxer. It found the following, that, ``The 
proliferation of child pornography on the Net is prompting wide 
concern. According to a recent survey, over 90 percent of 
Americans say they're concerned about child pornography on the 
Internet, and 50 percent of Americans cite child pornography as 
the ``single most heinous crime that takes place online.''
    Now, I just want to tell you how upset I think everyone in 
this room would be--not to say ``upset''--if you would see some 
of these images--Senator Lott, I know you, particularly, would 
be, as well, although I know you haven't been able to hear me--
the bottom line is, you would turn away. You would walk out of 
the room. You would be sick to your stomach at what is going on 
today. We get upset about a halftime show. This is illegal, 
peer-to-peer downloading that is going on today. Is this on 
your plate of issues to deal with in a prompt manner, Mr. 
Chairman?
    Chairman Powell. It hasn't been, but I would be happy to 
explore it with you. It's not entirely clear in what way it 
falls in our jurisdiction. But I will tell you, I have two 
sons, and they each have laptops, and I know exactly what 
you're talking about----
    Senator Boxer. Right.
    Chairman Powell.--and it's a source of an enormous amount 
of frustration. Your computer gets hijacked by these sites. And 
once you're hijacked, every time you boot up, it repeatedly is 
displayed, stuff is sent over the open connection, and I think 
there needs to be some solution to that, and I'm more than 
happy to be a partner in looking for ways to deal with that 
problem. It is a serious one.
    Senator Boxer. OK, let me repeat. This is illegal activity. 
Child pornography is illegal. And it is going on as we speak, 
thousands of times a day. And while we work on these other 
issues, which we must do, we must get a handle on this, because 
this thing is expanding exponentially. And so I would love to 
meet with you in the very near future, as in next week, if 
you're available. We will work with your scheduler on that.
    Chairman Powell. I would just add--and I think that conduct 
is illegal and criminal.
    Senator Boxer. Yes.
    Chairman Powell. And I think it's important to really work 
also with the criminal prosecution authorities----
    Senator Boxer. We will.
    Chairman Powell.--about that, as well.
    Senator Boxer. We will discuss that.
    The last thing, and I will absolutely stop. Commissioner 
Abernathy, thank you, you met with some of the content people. 
Could you just give us a sense of how they responded to your 
upset on this?
    Commissioner Abernathy. Yes. It was very interesting, 
Senator. The senior management put together the program--Rupert 
Murdoch on down, all attended--as well as all the folks who 
were involved in the creation of the content, and there were a 
number of panels. The response to what I had to tell them was 
skepticism, because I started out the day. As the day went 
further and they heard from parents and children, and they 
heard from their senior leadership, the younger folks who were 
producing the content--their initial reaction was, ``You think 
there's a problem. There is really not''--by the end of the 
day, based on what they had heard from their senior management 
and from parents and from children and from advocates, was an 
appreciation that they were wrong about what they were doing. 
Now, whether this will result in change, I don't know, but at 
least it's a new dialogue. It's getting a lot of these young 
kids in a room, who grew up on MTV, who don't have a clue what 
I need to watch with my 8-year-old. And that's what they just 
didn't get.
    So I do applaud FOX for taking this first step. I am 
hopeful it will go further. I don't think that's enough, but at 
least it's something.
    Senator Boxer. Thank you.
    Senator Brownback. Senator Breaux?
    Senator Breaux. Thank you, Mr. Chairman. And thank all the 
Commissioners.
    Mr. Chairman, Chairman Powell, it's really interesting that 
the FCC launched an investigation after the Super Bowl halftime 
show was presented. Had that halftime show been on ESPN--if 
they had carried the Super Bowl, as opposed to the network--you 
wouldn't have done that. Because, as I take it, it--the law 
says--I think that's what I was hearing--that you have the 
obligation to enforce decency standards on broadcast networks, 
but that that does not cover cable, direct television, and 
television that some 80 to 85 percent of the people in America 
watch.
    Is that because of a statute, or is that because of 
regulations, or why?
    Chairman Powell. Let me explain that. Congress passed 
statutes many decades ago on indecency, the famous Section 
1464, and it specifically talks about utterance using radio, or 
over radio.
    Senator Breaux. What year was that? I mean, that was a long 
time ago.
    Chairman Powell. 1927.
    Senator Breaux. Yes. I mean, they didn't have cable.
    Chairman Powell. There was nothing else, probably.
    Senator Breaux. Right.
    Chairman Powell. And so for decades, essentially--and then 
there are other statutes, which--Congress empowers the 
Commission to enforce that statute. By the way, that statute's 
a criminal statute. While we can't enforce it criminally--we're 
not a criminal authority--Congress empowered the Commission to 
enforce civil forfeiture for violations of the criminal 
provision.
    Senator Breaux. If that's the statute under which you look 
at the broadcast networks for content under a decency standard, 
if Congress decided to broaden that ability to cover the rest 
of the programming that people watch--and they don't know 
whether it's cable or direct television or broadcast--would 
that be something that Congress, in your opinion, could give 
you that jurisdiction to do?
    Chairman Powell. I think that Congress certainly could give 
us that jurisdiction, subject to whatever Constitutional limits 
the court would impose. And I think the only caution I was 
introducing earlier was not an apology to not do it, only that 
the court has set much higher standards for the cable medium 
than the broadcast medium. We regularly hear people talk about, 
``These are the public airwaves and the public trust.'' That's 
unique to broadcasting. That is not an accurate 
characterization for cable.
    Senator Breaux. It seems to me that we have reached the 
distinction without a real difference, in the sense that the 
people who are flipping the channels--I mean, you can go up and 
down the whole spectrum of the channels, and I don't know why 
one has to have one standard and the other has the other 
standard. I mean, it doesn't make any sense.
    So you're saying that Congress could expand that authority 
to give you the authority to treat non-broadcast stations the 
same as you treat broadcast stations.
    Chairman Powell. Most certainly. Again, only subject to 
whatever limits there are.
    Senator Breaux. It seems to me that--I mean, would you--we 
spent some time up here--we had televisions in here, we had 
demonstrations on the so-called V-chip, because I really 
thought the primary responsibility of making sure your children 
read what they should read and don't read what they should not 
read, and watch what they should, and vice versa, is the 
parent's responsibility. We created this V-chip mechanism. And 
yet it seems to me that that has been a pretty dismal failure, 
either because parents do not want to take advantage of it, 
they don't understand it, they're not comfortable it, or for 
whatever purpose.
    I mean, if only 7 percent are using it, 93 percent of 
families who have small children who could be utilizing it 
don't take advantage of it.
    Chairman Powell. Yes.
    Senator Breaux. What's the--I mean, it's a failure, isn't 
it?
    Chairman Powell. It's not an overwhelming success, you 
know.
    [Laughter.]
    Chairman Powell. That's for sure.
    Several years ago, when I was a minority Commissioner, I 
remember we made an enormous public affairs effort to try to 
educate the public, to really bring them in. Kermit the Frog 
was the spokesperson for the V-chip.
    Senator Breaux. He did a commercial----
    Chairman Powell. These things were up all over television. 
And they haven't worked. And it's--I don't know, it's difficult 
to say why. I don't like to believe somehow parents don't care. 
But I do think there's something kind of mysterious about 
technology to the adult generation that's very knowable to the 
younger generation. Kids have a better hold on how to use the 
V-chip and how to defeat it than probably parents do. And, you 
know, certainly my kids seem to be able to run circles around 
us on the boxes that sit over the television.
    Senator Breaux. I would hope that every time we--you get a 
letter complaining about something that's on a broadcast 
channel right now, that you also, in responding to the people, 
let them know that the V-chip is available. And that's a way of 
them taking control of their children's lives, instead of 
Congress being the only arbitrator of what is permissible for 
their children to see--that they have a responsibility to 
police their own family, as well.
    Chairman Powell. Well, that's one thing that we can do 
fairly well. Commissioner Abernathy mentioned we have an entire 
section of FCC Web pages dedicated to parents, and advice like 
this, and we can always do more with this. It is a difficult 
issue.
    The other thing you could look at, if you're looking for 
ideas, is that programs are rated so that they can be used by 
the V-chip system. Now, a lot of programming still isn't 
appropriately rated, and some--on cable channels that may be 
rated at the outset, but you walk in and Comedy Central is on 
at 12 in the afternoon. You won't have any knowledge at that 
moment, whether what you're about to see is violent or 
indecent.
    Senator Breaux. One final question, and that is on the 
broadcast networks now--I mean, Janet Jackson's breast on TV 
for 2 seconds is an issue, but I think that also--and even a 
much greater issue, as far as I'm concerned, is all the 
violence on prime time television, particularly some of the 
reality shows that we see. Like I said, with people eating 
cockroaches, sitting in a bathtub of worms, and also doing 
horribly dangerous stunts that children copy and try to do 
themselves--is just as harmful, if not more so, to society, and 
particularly to young children. Why are they on? Because people 
like to watch it. They're not on there to shove it down 
anybody's throat. They have those programs on there because 
they sell advertisement, and people watch those programs. I 
mean--so what's your responsibility in that area? I mean, that 
type of violence is worse than a halftime show, as far as I'm 
concerned.
    Chairman Powell. I will take my cue from my children. And, 
by the way, I want to commend Senator Brownback, who's sent me 
many of these studies, and I'm fairly convinced about the 
connection between the violent images people see and effects on 
the children. I see it in my own.
    Back to your question--but I'm almost more offended by the 
video-gaming access of children, which, interestingly enough, 
for example, little boys almost don't watch television anymore. 
You've almost lost the little boy generation to the video 
gaming world, and it's already been reflected in the Nielsen 
ratings. Where are they? They're not there. They're on their 
Xbox and the PlayStation, playing anything from Grand Theft 
Auto to some pretty extraordinary stuff that will pale anything 
you've ever seen in prime time television. So I think that's an 
important thing to think about----
    Senator Breaux. But you have no jurisdiction over that?
    Chairman Powell. No, not really. There are arguments being 
made about whether somehow we could redefine the indecency 
statute to include violence. And I would only suggest, while 
that might be possible at the very margins, I think the most 
proper way to do this, if we were going to do this, there 
really should be a statutory basis for doing it, because I 
think that we would likely not get very far trying to be cute 
with that interpretation.
    Senator Breaux. Thank you.
    Senator Brownback. Thank you, Senator Breaux. And I thought 
those were very thoughtful comments.
    Thank you for being here. And I've met with most of you on 
this topic at some point in time. And I know your hearts, and 
they're in the right place. And I think you share our 
frustration of, ``OK, now the rubber's met the road here, let's 
get something done with this.''
    I want to go through a couple of items here. And I think 
there's interesting question to ask that we--it would be great 
if the Commission would do this. Yesterday's USA Today asked 
the question, ``How did we get from `I Love Lucy' to `I See 
Janet'?'' And it's a great line. And most of us have been alive 
long enough and consumers of television long enough, we've 
actually seen this take place.
    Can we go back, in a case study, and ask ourselves, How did 
we fall down this far? How did we get to this point, where you 
have this on prime time television--Janet Jackson--and then all 
of us commenting up here. But that's no big deal. If you just 
flip the dial over to MTV, this is regular MTV. But can we go 
back and do a case study of--how did we get from point A to B 
on this chain? Maybe we can, from that, start to dig ourselves 
a set of answers.
    And I've liked several that I've heard some of you come up 
with here today that I think we can work on. And I'm 
cognizant--very cognizant of the limitations. First Amendment--
I am not a censor. It would not stand up in court. I don't 
stand for it myself. There are greater limitations on cable 
than what we can do on over-the-air broadcast, by the way the 
courts ruled. So you've got some additional parameters that you 
have to work it.
    But, as well, guys, you know, I'm--how can the ``F'' word 
not be vulgar? And maybe you're teaching people a little bit 
about English, of whether it's a noun or an adverb. I don't 
know that many people using it question that. But adjective, 
adverb, noun, however you want to use it--I've heard it used a 
lot of ways, but this is vulgar. You know, and I really hope 
you can turn that one on around.
    I want to ask you, as well, if you can consider doing the 
type of study--or maybe we'll just request the FTC to do it--of 
target marketing of sexual material to under age audiences. 
Because when we did that--when the FTC did that on violent 
material, they found that these companies were readily target-
marketing violent material. They would say it's violent 
material, which, normally you're supposed to be 18 years of age 
to watch it, and then they were target-marketing it to under 
age 18 audience.
    I am virtually certain that what we will find on MTV is 
that, here is sexual material target-marketed to an under age 
audience--under age 18 audience. I am certain of that. I don't 
think that study has been done at all. This is material that's 
rated as adult material. Yet it is just, pure and simple, 
target-marketed. And yet we're all offended and amazed when 
it's on the halftime of the Super Bowl. Actually, that's 
reaching an older aged audience that it was target-marketed 
toward.
    And this has a pernicious effect on the society. I want to 
show you a chart here of sexually transmitted diseases. Now, 
you can say, OK, these are not direct causal impact, but I 
would suggest to you it's pretty close. And I think as we get 
into these studies on it, you're going to see the impacts of 
these areas, of sexually transmitted diseases and violent 
activity. We are seeing it in the violence behavioral studies. 
I think you're going to see it in the sexually transmitted 
diseases fields, as well.
    Yesterday, I was on the phone to University of Indiana 
researchers, University of Indiana Medical School. They're the 
ones that are leading the country--and I would urge you to 
contact them and bring them in to testify--leading the country 
on brain-mapping studies, watching a--doing an MRI of a child 
while they're watching violent entertainment. Got some great 
early materials out on this. Because we've got all these 
behavioral studies that show that it's connected, but it 
doesn't seem to cause anybody to react.
    But, in these, their studies are showing exposure to 
excessive violence in the media shows similar brain functions 
in children as those who suffer from attention deficit 
hyperactivity disorder and attention deficit disorder. And what 
they were basically saying to me on the phone yesterday is what 
happens when a child readily consumes this video game 
material--Chairman Powell, it's what you're saying, and it's 
what I'm seeing in my children--you are losing this younger 
generation to the Xbox and the interactive nature of it. What 
you're seeing is, while the reactive part of the brain is 
really fired up, the one that's just stimulated and just 
reacts, the cognitive--the thinking part of the brain that 
slows you from just reacting to a reflex reaction--the part 
that says, ``Now, wait a minute. Let's think about this a 
second''--is depressed. Its activity is actually going down. 
That cognitive part, the front of the brain, the activity is 
actually going down, while this reactive part is going up.
    So what we're seeing in the behavioral studies, now we're 
getting the hard sciences. Here's what's taking place. You're 
actually slowing that cognitive part of the brain down, 
depressing it, while this reactive, stimulated part of the 
brain, the reflex part of the brain, is actually being 
stimulated up.
    And what we've created now is a toxic culture. We used to 
have toxic waste in the environment. We have created a toxic 
culture--sexual material, vulgar material, violent material. 
And we see the reaction to it, we see impacts. We now are 
getting the brain studies. And I think we're going to need to 
fund more of the brain-mapping studies so we have the hard 
science to go to the entertainment industry and say, ``Here's 
the hard science. It's no longer behavioral studies, it's no 
longer is there causation correlation. Are we going to argue 
these points? Here's the hard science on it.'' And the early 
studies are showing that the connectivity between watching--
consuming a lot of violent material and being violent, the 
linkage to that is higher than that between smoking and getting 
lung cancer, so that you're showing a clear impact on this 
culture. And we may have to, in the future, just require more 
of these studies--behavioral studies, brain-mapping studies--to 
know exactly what are we feeding that child's mind? Because 
that's the bottom line what I'm trying to get at, What am I 
feeding that child's mind?
    I watch what my children eat. Not as well as I should, but 
I try to watch what fat, what sort of diet they're ingesting in 
their body. What's more important is, What am I feeding their 
brain? And what are they getting in their brain? And we, 
unfortunately, are seeing now what they're getting in their 
brain and their reaction that it's then causing as they go 
ahead and develop through this society. And it is past time to 
get on top of it.
    I'm going to push the leader to bring up the bill on 
tenfold increasing of the fines. I think that's a first step to 
at least give you folks the better authority that you need. I 
think we ought to look at how we go at cable industry within 
the First Amendment. I'm not a censor. I think we have to look 
at an FTC study on target marketing of sexual material to under 
age 18 children. And maybe you folks--I think it probably fits 
more at the FTC. They've done this before.
    And then I hope we can look backward, How did we get to 
this point, to the point of where we are today, that we're all 
just--almost throw our hands up? But it's not time to throw our 
hands up. Now's the time to dig in, do the hard work of 
legislating and enforcing in a sensible, constitutional 
fashion, and start to dig out of this hole. And we can do it.
    Long comments. I know you're up to the task of doing it.
    Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman. And my 
compliments go to you for your interest in this subject for 
such a long period of time.
    We are witnessing a poisoning of our society, and it's a 
dreadful thing to stand by and see it happen. And one of the 
things that concerns me--I respect greatly Chairman Powell's 
protection of the constitutional rights that we have, but I 
don't know whether that turns us into more spectators bemoaning 
our fate than taking some kind of action to deal with it.
    The public appetite for sex and violence certainly isn't 
diminishing, because these shows, these commercials, are 
getting big responses. So how do you say, ``OK, you shouldn't 
like it this much,'' without really introducing censorship of 
some serious nature?
    So that's a concern. And we were able to find a CNN Website 
that said there are 260 million pornographic Websites, that 
it's an 1800 percent increase in 5 years of these. The average 
age of viewing is 11, and 90 percent of the kids from 8 to 15 
are seeing pornography while they're doing their homework. This 
is so pervasive and so destructive, in my view. I played 
football, and I did all the things, and I served in the 
military, but I'm revolted by the violence that we see 
constantly. As a matter of fact, I try not to go into the movie 
theater before the--or until the previews are done, because 
each one of those portrays violence in a way that attracts 
people.
    So I don't know what we do about that appetite, but--Mr. 
Chairman and your colleagues, and I think you did a very good 
job this morning. I don't agree with the outcome of some of 
your decisions, for instance the Bono statement at the Golden 
Globe Awards show. Did you review the decision of the 
enforcement bureau before it was issued?
    Chairman Powell. No.
    Senator Lautenberg. No?
    Chairman Powell. No.
    Senator Lautenberg. Because the decision that's made seems 
more on grammatical structure and not the public sensibility 
about whether it's used as a part of speech; one is OK, on one 
hand, and, on the other, it's considered unacceptable.
    That coincides with something else that I've noted, that 
your critics have noted that the FCC last year received about 
240,000 complaints about some 375 radio and television 
programs, but issued only three fines. And we all kind of agree 
that the fines are piddling compared to the lesson that we're 
trying to put out there. But--the inadequacy of fines is one 
problem, but what about the lack of effort or attention, when, 
out of 240,000 complaints, there have been three fines that 
were issued? Doesn't that seem fairly inadequate to respond to 
the number of complaints that you got?
    Chairman Powell. Yes, I would accept that criticism, but 
make a couple of points, if I could, just to put it in 
perspective.
    Senator Lautenberg. Sure.
    Chairman Powell. 240,000 complaints over 375 programs, so 
the number of potential programs to fine is not the 240,000, 
it's the 375 programs. Last year, there were 13,000 complaints, 
but a similar number of programs. Actually, more programs were 
complained about the year before, with fewer complaints. And, 
you know, this is out of how many television programs a year? 
Conservatively, I would estimate television programs alone are 
probably in the 1.4 to 2 million programs-a-year range. That's 
not even adding radio. And since we don't enforce against 
cable, some amount of that 375 are cable complaints that we 
wouldn't act on. The penalties of this Commission compared 
historically to other Commissions are absolutely consistent 
and, frankly, more than the history of the Commission, and I 
can't defend all the years previously.
    That said, is the ratio itself a sign of poor enforcement? 
I suppose one could argue that, but not without looking 
specifically at what each of those cases were and whether our 
decisions not to take actions were defensible ones. We're a 
robust society. People complain about content all the time. 
It's our difficult judgment to sort through what's actionable 
under the law and what's not. We bring the fines that we think 
are warranted. But I just think----
    Senator Lautenberg. Yes, I would urge a more energetic 
response to this thing, if I can use the term.
    Since we know that the appetite is almost insatiable out 
there among a large part of our society, you say, well, how do 
you get the message across that says, ``Hey, you've got to stop 
this?'' And I wonder what would happen if there were consumer 
organizations that started to form and said, ``Look, you 
advertise that trash, that filth, that vulgarity to sell your 
product, we're just not going to buy it,'' and to see whether 
something could be done on the commercial side, because--
Senator Graham talked about the family involvement, and that's 
true, but somehow or other that message doesn't get through as 
we'd like to see. It's too convenient. It's a babysitter in the 
home. So throw on the TV, ``Go watch TV and let me get done 
with the wash.''
    So I think there are things that we can do, Mr. Chairman, 
not the least of which is to stay on top of this and urge 
energetic--and to take the enforcement side to the limits 
possible without invading the constitutional rights of our 
citizens.
    I thank you very much.
    Senator Brownback. Thank you, Senator Lautenberg.
    Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman.
    I believe we have a vote on now, so--and I did come in 
late, and I apologize to the Commission for not being here to 
hear your statements. Thank you for being here and for the work 
you do. You do take a little criticism along the way, both from 
us and others, and you, I hope, understand that that's the way 
the job works. And I've been a----
    Chairman Powell. Better than anyone.
    Senator Lott.--among those that have been critical. But 
when you do the right thing or say the right things, I think we 
ought to also acknowledge that. I think, Chairman Powell, what 
you've had to say, since this recent incident, has been 
positive. I hope you will follow it up with action. I heard one 
radio announcer this morning talking about, ``Well, you know, 
yes, they might change their conduct a little bit here in the 
next few days, wait for the storm to die down, then they'll go 
right on back to what they've been doing.''
    Same thing with FCC. You all will do as you've done in your 
statement, call on, you know, some voluntary action, work with, 
you know, the networks to do more to curb indecent, 
inappropriate, violent programming, and volunteer code of 
conduct. I don't think it's enough. I think you need to be very 
aggressive on this.
    And I think we've got to be more aggressive. I don't think 
we've given you enough tools. I support increasing the fines by 
ten times. I checked to see if we could move the FCC 
reauthorization we passed last year that's pending in the 
Senate for action. The answer is, no, it has all kinds of 
problems, and we're not going to be able to move it in its 
present form. Lots of people have holds on it. So I think we 
should try to move the tenfold fine increase separately and 
freestanding to show that we're doing something, but in line 
with making sure we don't just make this a hot reaction to one 
event. It is much broader than that.
    Shouldn't we put this enforcement also against the 
everybody--cable companies? I mean, it should be across the 
board, shouldn't it?
    Chairman Powell. Well, yes, in short. I think that----
    Senator Lott. We need to do that----
    Chairman Powell.--if you're going----
    Senator Lott.--legislatively, right?
    Chairman Powell.--honestly want to talk about this stuff on 
television, you're missing 85 percent of the story----
    Senator Lott. Yes.
    Chairman Powell.--if they're completely out of the 
discussion.
    Senator Lott. Yes. I believe it's being proposed by some 
people in the House. Maybe you already have this authority, but 
sort of a three strikes and you're out/lose your license sort 
of thing. Do you have that authority? Is there legislation 
pending in that regard? Is that something we'd want to 
consider?
    Chairman Powell. I don't know if there's legislation 
pending in that regard. I'll defer to others on that. It's----
    Senator Lott. You don't have that authority?
    Chairman Powell. It's not clear. I've actually thought 
about it. It's possible. I think it's something we should study 
or consider, whether there's an axiomatic number, and over what 
period of years would you do that.
    Senator Lott. I can tell you, and you know it, the American 
people are about--are getting fed up. Are they doing enough to 
control their own children and what they watch? No. Is the 
anxiety rising? Is the respect for, you know, big television, 
network television, falling? Absolutely. And I hope maybe this 
has been the match that lit the fuse where we'll finally get 
some action.
    I think we need to do a lot more, a lot more aggressively. 
And that's one reason why, by the way, I opposed y'all's 
decision last year, and continue to oppose it. I think further 
concentration and consolidation is bad, because these people 
are already insensitive to what the American people are saying. 
And it's not just about children. It's just--what we're seeing, 
what's being shoved on us in large doses is totally out of 
control. And, frankly, when you get big enough, you don't care, 
and you don't pay much attention to your local affiliates; you 
do what you want to, and then hide behind the First Amendment. 
And I don't think that's a good idea.
    Now, Dr. Copps, I sense that you've been anxious to say 
several things.
    [Laughter.]
    Dr. Copps. Thank you.
    Senator Lott. Let me just give you a blanket opportunity to 
comment on anything you've heard in the last few minutes, and 
I'll stop with that.
    Dr. Copps. That's the nicest thing anybody's said to me in 
a long time, Senator.
    [Laughter.]
    Dr. Copps. I appreciate that very much.
    First of all, I think we do have that power to revoke 
licenses. I don't think we need to be giving notice for it. It 
has been in the statute, it has been in the rules, and we ought 
to be exercising it.
    But I want to return to the question, because so many have 
alluded to it, you in your comments, Senator Brownback's 
question, How do we get from I Love Lucy to I See Janet? And 
certainly time's change, and nobody's talking about going back 
to the mores of the 1950s. But I think we've got to look 
within, and look at ourselves, and look at the culture that we 
have created for this--not broad culture, but just the legal 
and the regulatory culture for this kind of thing to occur. And 
we, at the Commission, have been guilty of this, too.
    I think, you know, we don't come with serious fines. And we 
can sit here and debate whose Commission had the biggest fines, 
but nobody's Commission has had credible fines, Republican or 
Democrat, this or any previous one. So we need to be fixing 
that.
    But I think that all this talk, which we're finally 
beginning to disabuse ourselves of, ``we don't need a national 
nanny,'' ``our people are getting what they want,'' or ``they 
can turn off the set,'' or ``the V-chip can handle it,'' all of 
that is contributory, because it just tells big media that they 
can just go right ahead without fear of punishment and without 
fear of retribution. And as you so eloquently said, media 
consolidation is certainly flashing a green light, and we see 
it flashed again this morning with the latest takeover attempt 
with Comcast and Disney.
    So I think there may be many reasons for how we got from I 
Love Lucy, but I think we should probably look within, and, 
like Pogo, maybe the enemy is us.
    Senator Lott. Thank you, Mr. Chairman.
    Thank you, Commissioners.
    Senator Brownback. Thank you, Senator Lott.
    I've got a few questions to ask. We have a vote on, and 
several Members are coming back, and they all asked me to hold 
you here. So I hope you can stay in, in patience, because 
obviously this is a very hot topic for people.
    Dr. Copps, what you said, I think, is accurate on this, in 
that we have given the media companies a pass on this and said 
this is the parent's responsibility. And I agree; as a parent 
of children, I am responsible. But I liken it to saying that 
when, in the 1960s, the Potomac was getting polluted from 
point-source pollution, that we should tell people, then, 
``Well, don't swim in it. Don't eat the fish. And if you want 
to swim in it, put a wet suit on.'' You know, instead of 
saying, ``Well, let's clean it up.'' And we didn't take that 
route at that point. We didn't tell the big companies, ``Well, 
you're not really at fault, you know, it's not your 
responsibility.'' We said, ``No, you're responsible. You did 
this. You clean it up.'' And we really started going at it. And 
this is a cultural environment now we're dealing with, and it's 
pervasive, and it has toxic impact.
    So now how do we back up and unwind that ball? I think you 
can start off with issuing some fines and looking at what you 
can do on removal of license. And then I do think we're going 
to have to take a hard look at cable, of what we can do in that 
area.
    Chairman Powell, I'd ask you, do you have--what are the 
next steps you're going to be taking on this issue? It's 
obvious that the Commission has agreement that something needs 
to be done. What would you articulate as the next several steps 
you would anticipate you'd be taking?
    Chairman Powell. Let me just say generally and then with 
some of the specifics that you're aware of. By the way, it 
hasn't just been in response to the Super Bowl. I think anybody 
who wants to honestly and fairly look at this very Commission's 
track record over the last 3 years will see a steadily 
intensifying effort on indecency enforcement. And I credit 
every single member of this Commission for having a role in 
that. Each has something that they can take credit for for 
helping bring to our attention. But the thing that's admirable 
about the Commission is it has accepted and endorsed most of 
those things and moved forward. Some of them include 
dramatically--being as creative as we possibly can to raise the 
level of fines that we can raise by counting as creatively as 
we can. That means we're not using routine base amounts--at 
$7,000, for example, which used to be the practice--and we 
almost routinely now come in at the high levels of 27,500. 
We've started fining multiple affiliates for the same offense. 
We've put people on notice that we will fine per utterance 
instead of per program. That's a dramatic increase. No 
Commission ever has done that before. That's something the 
Commission deserves credit for.
    I think that we have talked about revocation. But we're not 
a star chamber. Just because we believe it's a tool doesn't 
mean we're going to go out and get somebody and put them in 
there just to make a point. If the Commission, in its judgment, 
believes that somebody has either repeatedly or seriously 
offended the indecency laws, I have no trouble whatsoever 
revoking a license. I think you'll see more stringent threat 
and potentially use going forward on that issue.
    The other thing is, we want to work with Congress. We call 
for the fines, not to disabuse our own responsibilities. As I 
said in my testimony, the first place we look is ourselves. But 
even if we maximize fines every conceivable way under the 
statute, fines that are 15 and a half years old and are not 
even calibrated for cost-of-living adjustments, simply are 
inadequate. And I think it's responsible for us to work in 
partnership with the Congress to do that.
    Finally, I would say, with respect to--we've also worked 
very, very aggressively to pull backlogs down. When this 
Commission took office, there was a significant amount of 
backlog in the enforcement agenda altogether. We've made 
enormous strides in that, and we need to do a lot better so 
that we can be swifter on complaints, act on them faster, and 
dispose of them quicker. That's a challenge for the agency, 
always dealing with its resources and appropriations, but we're 
committed to making that a priority.
    And then, finally, with respect to these high-profile 
cases--and I would submit to you, the Super Bowl is only one of 
many that are heading to the Commission's desk--that we have 
out there that are probably very significant and will involve 
very significant penalties, and I think you'll see a steady 
stream of those over the next several weeks and months.
    Senator Brownback. I hope you can hold some Commission 
hearings across the country on this topic. You know, I think, 
Commissioner Abernathy, you mentioned about one of having the 
people from the industry. And I feel like sometimes the 
entertainment industry has put itself in a cocoon. Washington 
gets accused of that; sometimes rightfully so, but we really 
try to fight against that. I do think that industry has. And as 
long as the money is flowing, everything's fine. But to bring 
them out of that cocoon and hold the hearings--in Kansas City, 
I would welcome you----
    Chairman Powell. Next week?
    Senator Brownback.--Atlanta, places around the country, so 
that they can hear what people are really saying. Because I get 
this raised to me just all the time, is, people are fed up with 
fighting a culture to raise their kids. They feel like they're 
just being attacked all the time from it.
    Commissioner Powell, let me ask you, on the cable issue--
because several of you--I'm hearing a little dissidence here 
about, ``We need to address it. We've got tougher standards to 
address it.'' Can you, will you, be willing to work with the 
Congress on how we can statutorily give you the authority to 
address the cable industry? And what kind of strictures would 
you see there?
    Chairman Powell. Most certainly, we're always ready to work 
with Congress on this agenda and our enforcement generally. So 
we would really be happy to do that, and we'd welcome the 
opportunity.
    And, by the way, you know, my obligation, as advising the 
Committee about its restraints, are not an attempt to be 
dismissive about----
    Senator Brownback. No, I understand.
    Chairman Powell.--the importance of it, but for us to be 
honest, to be intellectually honest and sober about what our 
challenges will be.
    I do think the Constitution and the First Amendment are a 
significant challenge. You cannot just easily take the 
broadcast model and roll it over to cable. The case that has 
been cited of Playboy, it's important to mention, yes, they 
said the Commission has the authority, and struck it down; and 
struck it down because they said the Constitution requires you 
to use the least-restrictive means. There are least-restrictive 
means in cable than there are in broadcasting. For example, 
Commission Adelstein rightfully talking about the ability to 
block programming. That's not something you can do in 
broadcasting--when a show is coming over at 8 o'clock, it's 
coming over at 8 o'clock. It's a one-medium medium. Cable has 
all kinds of technical capability that can be employed to help 
empower parents and families that broadcasting doesn't. And I 
certainly would be interested in looking there first, at 
whether cable can have a behavioral responsibility, but the 
tools--and not expensive ones that consumers have to pay for--
but the tools are there for people to really make informed 
choices about what they don't want on their system. That's the 
second thing that I would look at very carefully.
    And then you kind of figure out who you're talking about 
with respect to cable. It's a different model, in the sense 
that, you know, what's on the Discovery Channel is the 
responsibility of the Discovery Channel. It may be on Cox 
Cable, but who are we going to focus our attention on, the 
programmers or the cable asset owner? And I think--I don't know 
the answer to that, but these are some of the additional things 
to focus on.
    And I think the fact that those programs run all day, full 
day, so you have genre channels--you know, the History Channel 
runs nonstop--so ideas that we've become we've become 
accustomed to in broadcasting, like a family hour or a block of 
time or something, is restricted or just a little tricker in 
the cable context, where you basically are buying separate 
spaces, and they run all day; so, you know, sometimes Comedy 
Channel is clean, and sometimes it's horribly dirty, but it can 
be on all day long. I haven't completely thought through the 
best way to focus on that if I were asked, but I just help you 
point out some of the issues that you'll have to focus on.
    Senator Brownback. Let me point out something to you that 
you know is coming. Yesterday's USA Today, again, says that 
NYPD Blue is considering broadcasting a different episode in 
Central and Mountain time zones than elsewhere because of the 
Janet Jackson incident. Two points off of this. Number one, is 
that acceptable way to go--you just don't offend us out in the 
middle of the country, and you can go at everybody else, that's 
OK--is one.
    And, second, are we going to need to--are we going to have 
to require that these programs go through--that they have a 
review before it comes out? I'm seeing people now putting time 
delays on broadcasting, for them to make the call. Is that 
going to have to be something that we're going to have to 
require of over-the-air broadcasting companies, that there's 
some sort of at least private review by them of a delay so that 
it gets caught?
    Chairman Powell. I personally support time delay as a sort 
of reasonable tool to deal with the problem of live broadcasts. 
I think there is a challenge, when you're covering a live 
event, that one of your talent--or one of the people that are 
being covered in the live event were to suddenly do something 
indecent or profane, what are the effective ways that you could 
prevent that from getting out over the airwaves. Once it's out, 
the damage is done. But we have this in our society all the 
time. I mean, in the Super Bowl, you will watch players jog off 
the field all the time, and you have no doubt--no trouble 
understanding what they're saying if they're cursing. If CNN is 
interviewing a soldier in Iraq, and he suddenly blurts out the 
``F'' word, you're going to have those kinds of challenges in 
live television all the time. And so time delay seems to me to 
be a noncontent-based/respective of the First Amendment 
approach to trying to grasp that so that they get 7 seconds of 
notice, and they have a fair opportunity to prevent that from 
going out over the air.
    That's why I think this week you've seen a whole string of 
announcements from what seems to be every single network about 
deploying time delays in their upcoming live programs.
    Senator Brownback. I want to get to the second part later. 
I need to go vote. Senator Wyden's here, and I'll give the 
running of the Committee to him until I get back from that 
vote.
    Senator Wyden?
    Senator Wyden [presiding]. Thank you, Mr. Chairman.
    Mr. Powell, I have been looking at the nature of the 
enforcement actions you all have brought, and fines and all of 
the data that essentially relates to how the Commission has 
proceeded in this area. And it looks to me that there is a 
clear bottom line here, and that is that the locally owned 
station is rarely the culprit here. If you look at all of the 
evidence, that's the conclusion you come to.
    The question I wanted to ask you, and I wanted to get it on 
the record because it relates to the consolidation debate, ``Do 
you think it's just a coincidence that, when you review the 
data, these locally owned stations are rarely the culprit?''
    Chairman Powell. I don't know for sure that I agree with 
that, that the local stations are never the culprit or rarely 
the culprit.
    Senator Wyden. Read this morning's Washington Post, Mr. 
Chairman. This morning's Washington Post says----
    Chairman Powell. Well, that's fine, but the----
    Senator Wyden. No, but that's a matter of----
    Chairman Powell. All right.
    Senator Wyden.--public record. I mean, we're talking about 
70 percent, or something like that, essentially against the 
large, you know, conglomerates. And so what I want to do is, I 
want to take facts that are on the record--I mean, we all know 
you can have a debate about the politics forever, but it is 
clear, when you review the record, that the disproportionate 
number of actions are brought against the large people, which 
has led me to conclude that these local stations are rarely the 
culprit. And I would just like you to tell me, for the record, 
whether you think that's a coincidence or there are factors 
that I'd very much like to have your opinion on.
    Chairman Powell. Well, out of respect for the Washington 
Post, I will assume the data to be true.
    Senator Wyden. But it's in other sources, too.
    Chairman Powell. OK. We keep that data, and I will 
certainly look into it to see about it. But the other thing I 
think it's important to note, that a lot of local broadcasters 
might not be the culprit because 70 to 80 percent of the 
programming they clear and they run, they purchase from 
networks and other sources of programming. So your local 
television station, no matter who owns it, by the way--and this 
is not much different for stations in large ownership groups or 
stations that are not--purchase the vast--you know, carry the 
vast majority of their programming from network sources. So 
it's just a dramatically higher probability that an offending 
programming--an offending program comes from a network.
    Networks basically are programming a substantial part of 
what our citizens see every day. So with the exception of the 
local news or perhaps the Washington Redskin report in the 
Washington D.C. market, the vast majority of what you're 
watching on that local product during the day is being produced 
by a network, no matter what size the network.
    Senator Wyden. Well, I think that's fair to point out. At 
the same time, I come to the conclusion that if you have to 
shop next to somebody, and you have to see them at the little 
league team, you're going to be a little bit more careful about 
offending, and certainly as it relates to shows that aren't one 
of the 9 or 10 o'clock-at-night network shows. I'm prepared to 
make an allocation for that, but I still keep coming back to 
figures that it seems to me are irrefutable. Did you want to 
comment on this, Mr. Copps?
    Dr. Copps. Yes. Almost everywhere we have been--in our 
media-ownership hearings that Commissioner Adelstein and I went 
to last year and to our localism hearings that all of us are 
going to this year--I ask the owned and operated station owner, 
who is always there testifying, if he has ever, ever, ever 
preempted a show for indecency reasons. I have yet to find one 
network owned and operated show who has done that. I also ask 
the independent and the affiliated station owner have they done 
it, and time and time again they answer, ``Yes, we've preempted 
Married by America--it didn't conform to our community 
standards''--or Temptation Island, all these things. So I think 
the premise of your question is right on.
    And as to the question of the veracity of those findings, I 
think it's actually 80 percent of those fines, and 80 percent 
have gone to just the two big consolidated companies.
    Senator Wyden. All right.
    Let me ask, while I have all of you here, about an issue 
I'm looking at, and it stems from the fact that once in awhile 
you write a law that exceeds your expectations. Last year--I 
think you know this, Mr. Chairman, because I discussed it with 
you--I wrote, along with Senator Collins, the Stand By Your Ad 
requirement in McCain-Feingold. It wasn't last year; it was 
part of the McCain-Feingold legislation. We thought it was 
going to make a difference. We thought it was going to be 
useful. And it essentially grew out of the campaign that 
neither I nor Senate Smith were particularly proud of back in 
1995 and 1996. And so I wanted to do something about the 
negativity of political advertising. We thought that the 
legislation I wrote with Senator Collins would make a 
difference, but it has far exceeded our expectations when you 
had every candidate concerned about the lowest unit rate, and 
they're all stepping right up and saying, ``I authorized the 
ad.''
    My question to you is--and I would be interested in the 
views of any of your colleagues, as well--is, do you think that 
there is any way we might build on that model to enforce some 
broadcaster accountability? In other words, it clearly is not 
the same thing, and I understand that. And one of the things 
that's attractive about doing it with respect to political 
advertisements is that, because the ads are so short, when the 
candidate says it right at the end, there is a kind of 
ownership there that's constructive. But I am--I'm interested 
in whether or not it might be possible to put some additional 
heat on a broadcaster through an approach that would build on 
Stand By Your Ad, which, for once, exceeded the expectations of 
what the authors thought it might accomplish.
    Chairman Powell. I mean, could I ask--so the suggestion 
would be, somehow a commercial advertisement, whoever 
profligated that advertisement would somehow have to be 
identified?
    Senator Wyden. Well, I'd like to hold the broadcaster 
responsible, just as we have done with political candidates in 
Stand By Your Ad. As I say, now the American people, when they 
turn on this upcoming fall election, they're going to see 
candidate after candidate basically have to stick to the 
record, where in the past they essentially ran all those 
commercials where their opponent looked like they hadn't shaved 
for weeks and was essentially on a weekend break from some 
prison, and there's a new accountability. And what I'd like to 
know is whether you think we might be able to build on that 
model to get a broadcaster to take full responsibility for the 
kind of violent and overly coarse content that we're 
discussing.
    Chairman Powell. In the advertising? I'd have to give it 
more thought, but I think one part of your question that I 
think is correct, in terms of the premise, is that, you know, 
the broadcaster, either local or national advertising, is--
there is an editorial responsibility there. They choose which 
ads to take and whether or not and when to put them on. So 
certainly there's a level of responsibility as to the choices 
being made about what runs. I'd like to work with you and think 
a little more about exactly how this Stand By legislation would 
work.
    Senator Wyden. Why don't we do this, because I am springing 
this on you cold, and I understand that. I would very much like 
to have the Commission take a look at this. We have a statute 
that is working now in the political area. It holds politicians 
accountable. I would like all of you to look at whether you 
could take that model and use that model in some fashion to 
hold the broadcaster responsible for the kind of material that 
is over the line and we're concerned about. And since I am 
offering it to you for the first time, if all of you would be 
willing to take a look at it and put the staff on it, I'd 
appreciate it.
    Chairman Powell. Yes, sir.
    Senator Wyden. Thank you all, and--appreciate all your 
patience this morning.
    Senator Dorgan [presiding]. Members of the Commission, 
thank you for being with us. I guess I am probably the last to 
ask questions, and I will limit my time to 30 minutes.
    [Laughter.]
    Senator Dorgan. I'm just, of course, joking. I'll be brief. 
But you've been here a long, long while. We appreciate very 
much the entire Commission being willing to share your thoughts 
with us.
    Let me ask a few questions about the will to regulate. This 
is a regulatory body. You all were confirmed to your posts by 
the U.S. Senate. You all appeared here before this Committee. 
And I think, with respect to most of you, I always said, you 
know, I hope that you're a tiger on these issues, that you have 
a will to really be a regulator, in the best sense of the word. 
And there does require, in my judgment, to be some regulation 
with respect to use of the airwaves, because the airwaves don't 
belong to those who are using them; they belong to the American 
people, and we license them for use, and we require certain 
things attendant to that licensing.
    Let me ask, have there been any revocations of licenses of 
either television or broadcast--or radio broadcast stations in 
recent years? Not just with your tenure, but in recent years. 
And if so, how many?
    Chairman Powell. Never, to our knowledge, in the whole 
history of the Commission.
    Senator Dorgan. Does that seem implausible to you, that we 
have these thousands and thousands and thousands of 
broadcasters with licenses to use something that belongs to the 
American people, that there has not been one revocation? And 
the reason I ask the question is, you know and we know now that 
there is a changing standard of behavior and what is happening 
in some areas on some programming is pretty disgusting. Should 
there have been, do you think, or should there be, aggressive 
approaches to say, you know, ``Look, you have responsibilities. 
If you don't meet them, you have at least the prospect of 
losing this license''?
    Chairman Powell. To be clear, just on the--we have revoked 
licenses over the years. Something like, almost three, on 
average. Some people are saying per year. I'd have to check on 
that. But none for indecency. Do I think, over the entire 
history of television, could there have been a case in that 
time period in which that was warranted? Certainly--most 
certainly possible.
    One of the things that we did is, when this issue was 
really emphasized by both this Committee and my colleagues, we 
moved toward a much more aggressive stance in this Commission 
to make clear that we intend to pursue that. And I don't have 
any problem whatsoever pursuing that on a going-forward basis 
with respect to our regulatory responsibilities.
    Senator Dorgan. Do you think, based on your stance at the 
moment, that the prospect there are broadcasters who think if--
``Look, if we move well beyond where we ought to be here, we 
might lose our license''--do you think that's a practical 
thought for some of these folks?
    Chairman Powell. If they have any wisdom whatsoever, it 
should be. We announced it formally in the context of our 
opinion. The fines and enforcement of this Commission is strict 
and stringent compared to any Commission previously. We have 
made public statements in response to outrage on television. I 
think we've telegraphed, with some aggressiveness, that that 
is--to ignore that is at your peril.
    Senator Dorgan. Yes, but taking effective action and 
saying, ``You just better watch it,'' are two different 
approaches to enforcement, and I think--I'm not suggesting this 
Commission is different than other Commissions; I'm saying I 
think there needs to be a will. And my hope is that perhaps 
this is a tipping point. Maybe we've come to a tipping point on 
this issue. After so many decades of discussing it in Congress, 
we've finally gotten to the point where we have a tipping 
point, and we'll have the FCC and Congress decide something 
really is going to happen here significant to change what's 
going on.
    Let me ask about the issue of concentration. You all know I 
feel very strongly about that. I think with fewer and fewer 
people determining what people in this country see, hear, and 
read, it is very troublesome. And I happen to think--and I'd 
like your analysis of it--I happen to think much of what's 
happening with respect to coarseness and indecency and 
obscenity in broadcasting has to do with a concentration of 
ownership, because the more aggressive concentration of 
ownership you have, the less localism, and the less localism--
as my colleague, Senator Wyden suggested, you know, you don't 
have to care much about what they think in the grocery store 
because you're not going to meet them.
    Dr. Copps, you touched on that briefly. I'd like anybody 
that would like to--do you think there's a connection here 
between concentration and the diminution of standards?
    Dr. Copps. I think there's a definite connection. We should 
have debated this before we relaxed the media-ownership rules 
last year, and I requested that we do so; because everywhere I 
went around this country, I heard people saying, ``We think 
there's a connection between the rising tide of indecency and 
the rising tide of media consolidation.'' I don't know if 
that's a causal effect or a correlative effect or what it is, 
but I think we owed it to our kids to tee that up and at least 
amass a halfway credible record before we voted.
    But I think--and I don't think I'm going too far on this--
that when you flash the green light for consolidation, you're 
just inviting more indecency. I notice one of the big mergers 
that recently was approved at the Commission, and the next day 
we read that that particular outfit was teaming up with 
somebody else to offer a porn channel. I mean, that's the kind 
of thing, I think, that we're going to see more of as 
consolidation increases. So I think the problems are 
intricately related.
    Senator Dorgan. Anybody else on that?
    I should just parenthetically say, it's my hope that 
perhaps the Super Bowl halftime program might persuade ten 
House members to sign a letter in the House, which will then 
give us a vote in the House, and perhaps they will pass the 
disapproval resolution that's already passed the Senate by a 
fairly wide margin with respect to ownership limits. But we'll 
wait and see whether that Super Bowl halftime performance has 
that salutary effect.
    Let me ask about the ``F-word'' issue. And I know--let me 
say, Chairman Powell, I know that you have announced an 
effort--or I don't know, you might want to explain what you've 
announced--but you've announced the fact that you don't feel 
comfortable at all with where this issue is at the moment. The 
enforcement bureau in the FCC, as you indicated, issued a 
ruling on the use of the so-called ``F'' word, saying that--
they didn't say it quite this way, but effectively they said, 
if it's used as an adjective, a descriptive term that stops 
short of other terms they described, that it would be all 
right, it does not violate the decency standards and is not 
considered, quote, ``obscene,'' unquote.
    I read that, and I was--I thought to myself, you know, I 
understand we have these issues with respect to cable, 
especially the basic tier of cable, which--you know, I mean, 
the basic tier is what you have to get when you buy cable, and 
there are--I think all of you have also raised this issue, that 
you have these differences between broadcast and cable, but 
they kind of fuse together when over 80 percent of the 
households have cable now. But when I read of the ruling, I 
thought, I don't understand how they can reach that ruling. 
Isn't there just some basic understanding that the use of that 
word on broadcast television is just ``wrong,'' quote/unquote, 
just--you know, no way to describe it, just flat wrong?
    Chairman Powell. We are going to rule on this, but I'm not 
afraid to say that--and I said publicly that I think the 
decision is wrong. But I do feel some obligation to explain 
what I think happened. The word is protected speech. It's not 
an acceptable word, but it is one that the Commission looks to 
the context. I think a part of the decision in the bureau's 
judgment was not so much--I think--the garbage about adverbs 
and adjectives is unfortunate, but I think the other aspect of 
their opinion was that it's a fleeting exclamation, and 
Commission precedent was that when somebody blurts out that on 
TV, there has been a long record of not finding that to be 
indecent. But I think many Commissioners here have noted that 
there are other aspects of this statute. For example, profanity 
is also forbidden under the statutory provision, and I don't 
think anybody would argue the word is not profane.
    I think this Commission, who sets the law ultimately for 
the institution, will look at this and rule quite imminently. I 
don't even want to begin to say that the adjective/adverbs 
thing, which just smacks in the face, to some people, of common 
sense, is really the basis for a regulatory authority to reach 
its final decision. And I want to assure people, as I've said 
when I've been asked in public, there is no way whatsoever that 
that's a statement, or intends to be a statement that the 
Commission thinks it's OK to use that kind of language during 
those hours in television.
    Senator Dorgan. Well, Mr. Chairman and Members of the 
Commission, let me just say that I think there is a role for 
regulation in government. And in regulatory agencies, where 
regulation is the function, I would hope very much that this 
Commission and others would regulate on behalf of what they 
perceive to be the public interest, and the public interest in 
this circumstance, if you were to hold, let's say, a dozen 
hearings across the country, would be a public interest shouted 
by parents all across the country saying there is a coarseness, 
a diminution of standards and language and so on, on broadcast 
properties, that they're very concerned about. And they are not 
saying that they want censorship, they're not saying that we 
want the ``Thought Police'' running all over America. They are 
saying there needs to be some common sense approaches. We used 
to have a family time on television, for example. Senator 
Hollings and I and many others think it ought to be brought 
back.
    But I think we--at least speaking for myself, I hope the 
FCC is aggressive on these issues. You know, use the authority 
you have. If you need more, ask us for more and let us debate 
that. But I appreciate the work Senator Brownback has done. 
We've been having hearings--I've been on this committee now 12 
years and--this is my 12th year, and we've been having hearings 
on these issues for a long, long time. We started, of course, 
with violence, which is also a significant issue, but--I don't 
think any of us suggests this is easy, but it is easy for me to 
read the paper and say--a ruling saying the ``F'' word is all 
right on broadcast television--it's easy for me to say that's 
just--that just defies common sense. So I appreciate your 
beginning to work to correct that.
    But there's much more to do, and I hope that, with the 
leadership of Senator Brownback, Senator McCain, Senator 
Hollings, myself, and many others, that we can work with you to 
begin to address these problems in a significant way.
    Thank you, Mr. Chairman.
    Senator Brownback [presiding]. Thank you, Senator Dorgan. 
And I'll look forward to working with you and some others as I 
think we've finally got a head of steam up now--not by our 
doing, but by others and what they have caused--that we're 
going to be able to move some of these on through the process.
    I want to thank the Commission for being here today. 
Godspeed to you as we really try to move through this process 
and be cognizant of the Constitution and its requirement.
    The record here will stay open for 15 days, as is required 
by this Committee. Thank you for joining us.
    The hearing's adjourned.
    [Whereupon, as 12:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Let me first thank the Chairman for holding this hearing and my 
colleague Senator Hollings who has championed the issue of protecting 
children from violent programming on television for many years, a 
legislative effort I am proud to support. In my view, serious action to 
stem the tide of indecency and violence is long over due. The 
coarsening of the material we see and hear across media outlets has 
raised the Nation's consciousness and the recent stunt at the Super 
Bowl halftime show was merely the final straw. Many among us have been 
sounding the warning bell for some time. Now the citizenry has also 
taken up the call. In just five short days after the Super Bowl, the 
FCC reported receiving over 200,000 complaints.
    Unfortunately, we are not here to address a one-time event. The 
trend across radio, television, cable and satellite has been to 
increase indecent and violent programming in search of higher ratings 
and more advertising dollars. Commissioner Copps has called this trend 
a ``race to the bottom.'' This race has resulted in increasingly 
debased material finding its way into our homes and reaching our 
children as companies compete with each other for new ways to push the 
legal and social limits with no end in sight. It is time for all media 
companies to respond to the local communities that they serve and not 
just to the almighty dollar.
    While this race to the bottom has heated up, the FCC has been 
inundated with indecency complaints. According to the New York Times, 
last year the FCC received approximately 240,000 complaints concerning 
375 radio and television programs. Meanwhile, the FCC's enforcement of 
its indecency rules has been woefully inadequate. In 2003, the FCC 
issued a total of three fines against radio stations and in the last 
three decades has issued only one sanction against any television 
station in the fifty states. The media companies have sought to test 
the FCC's resolve and found it missing in action. By failing to use all 
of the enforcement muscle at its disposal, even against egregious 
violations and repeat offenders, the FCC has given broadcasters license 
to serve the 18 to 34 demographic rather than the public interest.
    Television can be a powerful influence in developing value systems 
and shaping behavior--for good or for ill. On average, American 
children spend more time watching television than they do in school. By 
the time a child reaches 18, he will have seen 16,000 simulated murders 
and 200,000 acts of violence. Despite the findings of study after study 
that viewing violence poses harmful risks to children, we have done 
nothing to limit the amount of violent programming on television. 
Looking around the world, Canada, the United Kingdom, France, Germany, 
Australia and many other countries comprehensively address both 
indecency and violence in their laws and through industry commitments 
to codes of conduct and rating systems. Meanwhile in the U.S., some 
media companies refuse even to use effective ratings systems denying 
parents the necessary tools to protect their children from harmful 
programming.
    Last year, this Committee favorably reported legislation to 
increase the FCC's enforcement of its indecency laws (The FCC 
Reauthorization Act of 2003, S. 1264). We also have before us the 
``Children's Protection from Violent Programming Act,'' which I hope we 
will take up in the near future. With the proper tools and vigorous 
enforcement, we can greatly diminish the harmful effects of television 
on our children.
    I look forward to the testimony from the distinguished panel. Thank 
you, Mr. Chairman.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
